<html>
<title> - SEXUAL ASSAULT AND VIOLENCE AGAINST WOMEN IN THE MILITARY AND AT THE ACADEMIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 SEXUAL ASSAULT AND VIOLENCE AGAINST WOMEN IN THE MILITARY AND AT THE 
                               ACADEMIES
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2006

                               __________

                           Serial No. 109-220

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                    U.S. GOVERNMENT PRINTING OFFICE

33-682 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
          Dr. R. Nicholas Palarino, Staff Director and Counsel
             Kristine Fiorentino, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2006....................................     1
Statement of:
    Rumburg, Delilah, executive director, Pennsylvania Coalition 
      Against Rape, National Sexual Violence Resource Center; 
      Christine Hansen, executive director, the Miles Foundation, 
      Inc.; and Beth Davis, former U.S. Air Force Academy Cadet..    21
        Davis, Beth..............................................    57
        Hansen, Christine........................................    36
        Rumburg, Delilah.........................................    21
    Whitley, Kaye, Acting Director, Sexual Assault Prevention and 
      Response Office, Department of Defense; Vice Admiral Rodney 
      P. Rempt, Superintendent of the U.S. Naval Academy; 
      Brigadier General Robert L. Caslen, Jr., Commandant of the 
      U.S. Military Academy; Brigadier General Susan Y. 
      Desjardins, Commandant of the U.S. Air Force Academy; and 
      Rear Admiral Paul J. Higgins, Director of Health and 
      Safety, U.S. Coast Guard...................................    89
        Caslen, Brigadier General Robert L., Jr..................   141
        Desjardins, Brigadier General Susan Y....................   154
        Higgins, Rear Admiral Paul J.............................   163
        Rempt, Vice Admiral Rodney P.............................   115
        Whitley, Kaye............................................    89
Letters, statements, etc., submitted for the record by:
    Caslen, Brigadier General Robert L., Jr., Commandant of the 
      U.S. Military Academy, prepared statement of...............   144
    Davis, Beth, former U.S. Air Force Academy Cadet, prepared 
      statement of...............................................    62
    Desjardins, Brigadier General Susan Y., Commandant of the 
      U.S. Air Force Academy, prepared statement of..............   157
    Hansen, Christine, executive director, the Miles Foundation, 
      Inc., prepared statement of................................    39
    Higgins, Rear Admiral Paul J., Director of Health and Safety, 
      U.S. Coast Guard, prepared statement of....................   165
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     8
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, various letters.....................   192
    Rempt, Vice Admiral Rodney P., Superintendent of the U.S. 
      Naval Academy, prepared statement of.......................   119
    Rumburg, Delilah, executive director, Pennsylvania Coalition 
      Against Rape, National Sexual Violence Resource Center.....    24
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........   283
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Slaughter, Hon. Louise, a Representative in Congress from the 
      State of New York, prepared statement of...................    15
    Whitley, Kaye, Acting Director, Sexual Assault Prevention and 
      Response Office, Department of Defense, prepared statement 
      of.........................................................    92


 SEXUAL ASSAULT AND VIOLENCE AGAINST WOMEN IN THE MILITARY AND AT THE 
                               ACADEMIES

                              ----------                              


                         TUESDAY, JUNE 27, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Christopher Shays 
(chairman of the subcommittee) presiding.
    Present: Representatives Shays, Marchant, Platts, Turner, 
Dent, Price, Kucinich, Maloney, Van Hollen, and Ruppersberger.
    Staff present: Kristine K. Fiorentino, professional staff 
member; Robert Briggs, analyst; Dr. R. Nicholas Palerino, staff 
director; Andrew Su, minority professional staff member; and 
Jean Gosa, minority clerk.
    Mr. Shays. A quorum being present, I call the subcommittee 
to order.
    At the 1991 Tailhook Symposium, an annual convention 
supported by the military and attended by active duty, reserve, 
and retired aviators, 83 women were assaulted. One of those 
women, Lieutenant Paula Coughlin, a helicopter pilot, reported 
the assault to her boss. He said, ``that is what you get when 
you go to a hotel party with a bunch of drunken aviators.''
    Our military men and women are committed to serving our 
country. They deserve to be educated, trained, and to operate 
in an environment that is free of sexual harassment and 
assault.
    After Tailhook, the Department of Defense made changes to 
their policy addressing charges of sexual assault. Commanders 
know charges of sexual assault must be taken seriously. The 
question remains whether they take these charges seriously.
    This subcommittee has concern about the Department of 
Defense's commitment to aggressively prevent and respond to 
sexual assault incidents. The 2005 Defense Task Force on Sexual 
Harassment and Violence at the Military Service Academies finds 
that sexual assault has been inadequately addressed at the 
academies. The task force states ``Sexual harassment typically 
creates an environment in which sexual assault is more likely 
to occur.'' The reports makes several recommendations to 
prevent and respond to sexual harassment and violence against 
women.
    Today we ask what task force recommendations have been put 
into effect, including changing service academy culture toward 
women, protecting communications made by victims of sexual 
assault, establishing a plan to implement the Department of 
Defense's sexual assault response policy, amending the Uniform 
Code of Military Justice to permit closed proceedings to 
protect the privacy of both sexual assault victims and 
offenders, incorporating sexual harassment and assault 
education classes into the academy curriculum, developing an 
institutional sexual harassment and assault prevention plan, 
and establishing collaborative relationships with civilian 
authorities for sexual assault victim support.
    Congress recognized sexual assault is more than a service 
academy problem and directed the Department of Defense 
establish the Task Force on Sexual Assault in the Military 
Services. Although this directive was part of the fiscal year 
2005 Defense Authorization Act, the task force is not yet 
operational. In fact, its members have not been appointed. This 
inaction speaks volumes.
    The second major question we ask today is when will the 
Defense Task Force on Sexual Assault in the Military Services 
become operational and when will its recommendations be 
presented to the public.
    A viable military comprised of men and women requires 
continuous dedicated efforts to prevent sexual assault and 
violence and to respond forcefully once it occurs. But these 
efforts must begin when the service member enters the military, 
not just at our service academies where we serve some of our 
future military leaders. But we should not stop there. We must 
provide an environment in the military at large that does not 
condone hostile attitudes and inappropriate actions toward 
women.
    Our military leaders must ensure our men and women who 
honorably serve our country are fully aware sexual assault and 
harassment will not be tolerated and know that victims who come 
forward will receive support, medical care, and legal 
protection.
    This subcommittee thanks all the witnesses for taking the 
time to appear before us today and we look forward to this 
hearing.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.001
    
    [GRAPHIC] [TIFF OMITTED] 33682.002
    
    [GRAPHIC] [TIFF OMITTED] 33682.003
    
    Mr. Shays. At this time the Chair would recognize the 
ranking member of this subcommittee, Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Shays, for convening this 
hearing. I want to thank the witnesses for joining us today and 
I want to thank Beth Davis, in particular, for her bravery in 
sharing her story with us today.
    The cause of this hearing necessitates that it be said that 
each and every human being is deserving of respect. Color, 
race, creed, gender do not change this basic right to respect. 
This truth, the truth of the equality and basic dignity 
afforded every person, has been fought for throughout our 
country's history, has been defended by many, many generations 
of men and women in uniform.
    How sad it is that we are here at a moment where we have to 
acknowledge that those women who have served this country and 
who continue to serve this country are not being afforded the 
very basic respect for their human dignity that their service 
to this country is involved in protecting for others. How 
ironic and sad that is.
    We learned over the past two decades that many women in our 
military do not always enjoy the same basic rights. Some are 
victims of sexual harassment and assault, forced to suffer 
indignities in silence.
    We are here to discuss and talk about basic principles of 
human dignity and to find out whether we are ready to take a 
stand on that in our own armed forces.
    As we get into this discussion today it needs to be said 
that the attitudes of young men when they come into the 
military, they don't learn sexual harassment in the military. 
They don't learn the attitudes that result in sexual assault in 
the military. When you look at the arc of violence in our own 
society apart from the military--domestic violence, spousal 
abuse--underneath that is a lack of education in our culture 
about the basic rights of women. It starts when children are 
little. People don't come to the armed services and suddenly 
change.
    So, while it is important that we are looking at this 
today, we have to remember that this doesn't occur only in the 
armed services. This is a problem in our culture. That, Mr. 
Chairman, is one of the reasons why 73 Members of Congress have 
now signed on to legislation to create a Cabinet-level 
Department of Peace which looks at the issues of violence in 
our own society, of spousal abuse, child abuse, violence in the 
schools, racial violence, and the whole symptomatology of 
violence in our society, and through education of our children 
looks to bring to our children the possibility of learning the 
appropriate responses in their relationships with each other, 
boys and girls alike.
    So when we are speaking about the armed forces today and we 
must--we know that this troubling pattern beings before many of 
our servicewomen enter our armed forces. In 2005, 4 percent of 
female Air Force cadets, 5 percent of female Naval Academy 
midshipmen, and 6 percent of female cadets at West Point 
reported being victims of sexual assault in the previous year. 
Worst still, fewer than half of these young women reported the 
incidents to the academy authorities, often out of fear of 
harassment from their peers or placing their career at risk.
    The scourge of sexual assault is clearly not limited, as I 
have mentioned, to the military academies, but many of the 
positive changes in responses to sexual assaults in civilian 
life have failed to translate easily to the military. The 
culture of the academies and strict reporting requirements have 
often limited options for victims when they are at their most 
vulnerable.
    The initial steps taken by the military to better protect 
and support victims are a good start. Implementation of the 
restricted reporting policy allows victims the ability to seek 
out care and services confidentially when they otherwise might 
have opted to not seek help at all, but in order to ensure that 
all victims are able to seek help, additional policy changes 
may be required.
    We need a fundamental change in the culture of the 
academies to ensure that women are treated with dignity and 
respect. Over the last decade efforts to better understand and 
deal with the problem of sexual assault have slowly increased. 
There is now a heightened commitment by the service academies 
and the Pentagon to take the issue of sexual assault more 
seriously by improving the response to sexual assaults and 
preventing assaults before they even happen. I am encouraged by 
the initial steps that have been taken by DOD to improve 
accountability, and I comment recent efforts to expand sexual 
assault education and training in the military and at the 
academies. We recognize there is much more work to be done.
    I look forward to hearing from our witnesses. I also hope 
the advocates here today will share their concerns and 
recommendations for ensuring the basic rights of women in the 
military are respected.
    I will again repeat, Mr. Chairman, that this is not just a 
matter that relates to our armed services. This is a challenge 
to our entire society, and I think it is a challenge that we 
are capable of meeting, that we do have the capacity to evolve, 
to be more than we are and better than we are, and it may start 
very well with our children through education.
    Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] 33682.004

[GRAPHIC] [TIFF OMITTED] 33682.005

[GRAPHIC] [TIFF OMITTED] 33682.006

    Mr. Shays. I thank the gentleman.
    At this time the Chair would call on the vice chairman, Mr. 
Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    For the sake of time and in order to get to our witnesses 
sooner, I will submit my opening statement for the record. 
Thank you.
    Mr. Shays. Thank you. I appreciate the gentleman.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Shays and Mr. Kucinich, for 
holding this important hearing.
    It is very troubling to me, ever since Tailhook, through a 
series of scandals to the recent reported scandals at the 
academies and Iraq and Afghanistan, that our military cannot 
seem to get control of this issue. We have the best military in 
the world, the best trained, the bravest, the best led, best 
equipped, and it does not seem to move forward, even though 
requirements are constantly being placed on the military to set 
up an accounting system, to set up procedures, to get a uniform 
system to provide information.
    It is very troubling we don't seem to be making progress in 
an area that is totally unacceptable, that women who selflessly 
decide to go to one of the academies are not protected in the 
academies, and it is totally unacceptable that women who are 
risking their lives for their country are also in danger of 
being assaulted by colleagues. And then they face the hurdle of 
reporting the incident in what I have been told is a very 
hostile environment.
    The military culture traditionally has not encouraged 
reporting, has been indifferent to allegations, and has not 
been responsive to the needs of victims. As Members of Congress 
we have a responsibility to provide oversight of DOD's effort 
to reduce the numbers of rape and sexual assault and violence 
against women that is occurring in the military, or against 
men.
    In the 2005 Defense authorization bill, Congress required 
the Pentagon to provide annual reports to Congress about the 
allegations of sexual violence and assault in the military. In 
its most recent report to Congress the Pentagon stated that in 
2005 the total number of reported sexual assaults involving a 
member was at 2,374. Yet, according to the report, ``Fulfilling 
a Promise to America's Daughters'' released by the V.A. 
Advisory Committee on Women Veterans last year, approximately 
17,000 women, 20 percent of the women in the enlisted military, 
reported being a victim of sexual assault in the previous 3 
years.
    Clearly, women in the military are facing a tremendous 
threat when they serve in Iraq and Afghanistan, but they are 
also facing a threat of being assaulted as they serve, by their 
colleagues. One in five service women should not face the 
prospect of being sexually assaulted.
    Not only should the Pentagon ensure that women can come 
forward to report their assaults; it also must guarantee that 
qualified medical personnel are on hand to collect forensic 
evidence, that the evidence collected will be stored properly, 
and that the evidence will be analyzed in a timely manner.
    I successfully attached an amendment to the 2005 Defense 
authorization bill which directed the Secretary of Defense to 
eliminate the backlog in rape and sexual assault evidence 
collection kits, reduce the processing time of those kits, and 
provide an adequate supply of the kits at all domestic and 
overseas U.S. military installations and military academies.
    I would like to hear from the witnesses from the Department 
of Defense about whether a backlog still exists and if there 
are enough kits across the services.
    I firmly believe that the only way to tackle a problem 
effectively such as this one is to have accurate information, 
accurate data. The Department of Defense has made several 
promises that the Defense incident-based reporting system, 
which collects statistics about crimes committed within the 
military services, would be up and running by now. Congress 
first mandated that the Pentagon collect crime statistics in 
1988. Here we are 18 years later and, as the chairman 
mentioned, the task force has not even had their members 
appointed.
    Well, the Defense incident-based reporting system is not 
slated for completion until June 2007; 18 years; 19 years if 
they do it. But every hearing we have they promised, ``Next 
year we will have it. Next year we will have it.'' This has 
been going on for 10 years, the 10-years I have been in 
Congress. How the greatest military, most organized, most 
intelligent military in the world cannot get a data system up 
and running on crime statistics to me is beyond comprehension 
and it is totally unacceptable.
    I, therefore, will be introducing legislation that will 
direct the Secretary of Defense to ensure that this system is 
fully implemented by January 1, 2007, 18 years after it was 
first promised to be completed. And if it is not completed, 
then I believe we should really place greater enforcement on 
this. We have mandates that need to be met, and personally I 
don't understand why you can't get a data base system up and 
running in this country.
    I yield back the balance of my time.
    Mr. Shays. I thank the gentlelady. I know, for the record, 
that she has been very active on these issues, and we 
appreciate it a lot.
    I would call on the former vice chairman of the committee, 
Mr. Turner.
    Welcome, Mr. Turner.
    Mr. Turner. Mr. Chairman, obviously this topic is very 
saddening, and it is not only the issue of the crime and the 
prevention of those crimes but also the injustice that follows 
that is identified in the testimony that you have today.
    I am a member of the Armed Services Committee and I have 
participated in hearings on this topic in the Armed Services 
Committee. I have reviewed the written testimony that was 
prepared for this hearing, and it is clear that there is 
additional action that must be taken.
    Mr. Chairman, I want to commend you because this hearing 
will certainly assist in our ability to find accountability and 
for identifying recommendations on manners in which to address 
this issue. I want to thank you for your continued efforts to 
make certain that our men and women in uniform receive what 
they are entitled to in respect.
    Thank you.
    Mr. Shays. At this time the Chair would recognize Mr. 
Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I want to add my words of thanks to you and the ranking 
member for hosting this hearing on a very important issue, that 
through this hearing we can help to send a message on behalf of 
our Nation in an unwavering fashion that sexual violence, 
sexual assault against women in all settings is criminal and 
will be treated as such and will not be tolerated by our 
Nation, especially by our Government when it comes to women 
attending our military academies and serving in our military.
    I certainly appreciate the witnesses who are here today and 
our panel that we are about to begin with, and am especially 
grateful for a resident of the 19th District being with us 
today and her expertise in this area and her devotion to women 
in Pennsylvania and throughout our Nation who are victims of 
these heinous crimes. I appreciate all of your testimonies.
    Again, my thanks to you, Mr. Chairman, in holding this 
hearing.
    Mr. Shays. I thank the gentleman.
    I would like to ask unanimous consent to allow David Price 
from North Carolina and Representative Elijah Cummings, if he 
does come here from Maryland, to participate in our hearings. 
Without objection, so ordered.
    By right, Mr. Van Hollen, you would go next, but I am going 
to, at your request, go to Mr. Price and then come to you.
    Mr. Price. Thank you, Mr. Chairman. I do appreciate the 
generosity of you and the subcommittee in inviting us to 
participate in this hearing today. I am here to hear the 
testimony as a member of the Military Quality of Life 
Appropriation Subcommittee, but I am particularly here to 
extend a warm welcome to Ms. Beth Davis, who is from Durham, 
NC, the District I represent, and who has courageously 
testified in ways that will, I believe, be of great benefit to 
her counterparts in the future. So I commend you for that and I 
wait with great interest what you will have to say, and that of 
your fellow witnesses, as well.
    Thank you.
    Mr. Shays. I thank the gentleman.
    At this time the chair would recognize Mr. Van Hollen.
    Mr. Van Hollen. I thank you, Mr. Chairman, and thank you 
for holding a hearing on this and welcome the witnesses.
    One of the greatest privileges we have as Members of 
Congress is to be able to recommend some of the young men and 
women from our Congressional Districts to various service 
academies, and we really have an opportunity to meet the best 
and the brightest in our communities who are dedicated to 
serving their country at those academies.
    Therefore, I think it is essential that we and the American 
people have confidence that those academies that we are sending 
them off to have the highest standards when it comes to issues 
like sexual harassment policies and policies that deal with the 
very important issues that are the subject of this hearing.
    We all, I think, understand that leadership begins at the 
top. We need to hold people accountable for the highest 
standards in our military academies. I know that is the goal 
that we all share, and the key is to find ways to make sure 
that we implement those goals in a way that achieves the result 
we all want, which is that when we send our men and women off 
to the military academies that they are upholding the highest 
standards of honor and integrity, and that especially the young 
women that are going into our academies can be confident that 
they will be treated with respect and dignity.
    I want to thank all of you here for your testimony.
    Mr. Chairman, I look forward to the hearing.
    Mr. Kucinich. Mr. Chairman.
    Mr. Shays. Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman. I ask unanimous 
consent for the testimony of our colleague, the Honorable 
Louise Slaughter of New York, be submitted for the record.
    Mr. Shays. Without objection, so ordered.
    [The prepared statement of Hon. Louise Slaughter follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.007
    
    [GRAPHIC] [TIFF OMITTED] 33682.008
    
    [GRAPHIC] [TIFF OMITTED] 33682.009
    
    [GRAPHIC] [TIFF OMITTED] 33682.010
    
    [GRAPHIC] [TIFF OMITTED] 33682.011
    
    Mr. Shays. Before recognizing our witnesses, I would like 
to say that I said hello to our first panel and our second 
panel, and when I came to Jeanette McMann she informed me that 
her husband, Lieutenant Colonel Michael McMann, was from West 
Harford. I said, ``Was? Ma'am, he is.'' And then she informed 
me that Lieutenant Michael McMann, commander of Third Squadron, 
Fourth Calvary Regimen of the 25th Infantry Division, was 
killed in action November 27, 2004, in Operation Enduring 
Freedom in Afghanistan.
    I just want to say to you, Colonel McMann, you both served 
in the military. We appreciate the service of your husband. We 
appreciate your service. We appreciate your three sons, 
Michael, Thomas, and Ricky, who are without their dad, and just 
want to thank you for continuing to serve. Thank you. There are 
lots of different relationships between men and women, and that 
is the highest relationship.
    At this time the chair would recognize Ms. Delilah Rumburg, 
executive director of Pennsylvania Coalition Against Rape, 
National Sexual Violence Resource Center; Ms. Christine Hansen, 
executive director of the Miles Foundation located in 
Connecticut; and Ms. Beth Davis, former U.S. Air Force Academy 
cadet, located in--South Carolina?
    Ms. Davis. Durham, NC.
    Mr. Shays. Durham, NC. How could I have ever said South 
Carolina? I apologize.
    Welcome each and every one of you.
    Let me just take care of some business. I ask unanimous 
consent that all members of the subcommittee be permitted to 
place an opening statement in the record and that the record 
remain open for 3 days for that purpose. Without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    I will just say that, as you may know, we do swear in all 
our witnesses, so we would ask you to rise and we will swear 
you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all of our three witnesses 
have responded in the affirmative.
    Just judging, I think, from the Members' statements, this 
is somewhat of a solemn hearing because the issue is quite 
significant. We have such respect for the men and women who 
serve in our military and we want to lick this problem. We want 
it licked. We want it dealt with. We want it resolved. There is 
no reason why that can't be resolved.
    At this time I call on Ms. Delilah Rumburg.
    What we do is we do the 5-minute rule. We will roll it over 
another 5 minutes, but we would like you to be as close to that 
5 minutes as you can, but we don't want you to rush and we want 
your testimony to be thoughtfully presented.
    Welcome.

STATEMENTS OF DELILAH RUMBURG, EXECUTIVE DIRECTOR, PENNSYLVANIA 
   COALITION AGAINST RAPE, NATIONAL SEXUAL VIOLENCE RESOURCE 
    CENTER; CHRISTINE HANSEN, EXECUTIVE DIRECTOR, THE MILES 
FOUNDATION, INC.; AND BETH DAVIS, FORMER U.S. AIR FORCE ACADEMY 
                             CADET

                  STATEMENT OF DELILAH RUMBERG

    Ms. Rumburg. Thank you. And thank you, Mr. Chairman, for 
holding these hearings to draw attention, national attention, 
to sexual assault and violence not only in the military but, as 
Congressman Kucinich said, it is a greater societal problem. 
The military is just a microcosm of what is going on throughout 
this country.
    I am very hopeful that these hearings and what we learn and 
do within the Department of Defense will be a guideline for 
greater society and our response to the prevention of sexual 
assault and the treatment of victims.
    We want to thank you for this opportunity and also state 
our frustration. It seems like things take a long time, but the 
anti rape movement is over 30 years old, and so we are feeling 
as frustrated as Congressman Maloney about how long it takes 
things to happen, but we have been doing this work for over 30 
years. Although we have had some progress, there is still a 
long way to go.
    Again, thank you. I am pleased to be here representing the 
Defense Task Force on Sexual Harassment and Violence at the 
Military Service Academies. As you know, the task force 
completed our work last fall, and that has been made available 
to you, but I should remind everyone else that those materials, 
as well as that report, are available on the Web site of the 
Sexual Assault Prevention and Response Office at WWW.SAPR.MIL.
    I appreciate this opportunity to express my personal views 
on these issues, but I do wish to assure you that I was in full 
agreement with the findings and recommendations of our task 
force. It is the best source for the results of a highly 
professional effort that took nearly a year, so I will devote 
the time allotted to me to highlight some of those key results, 
and I will read them or otherwise I know I won't finish, so 
bear with me as I read those.
    The findings and recommendations contained in our report 
were reached unanimously by a highly diverse group of 12 
individuals, half of whom came from outside the Department of 
Defense. At the outset, I would like to acknowledge the 
outstanding rapport that existed between our civilian members 
and the career military personnel with whom we served. I would 
also like to recognize Dr. Chu, the Defense Under Secretary for 
Personnel and Readiness, for his commitment to change and his 
willingness to look outside the Department of Defense for 
solutions to a series of intractable problems.
    Let me turn now to the substantive aspects of our report.
    We believe strongly that the provisions of the Uniform Code 
of Military Justice that dealt with sexual assault needed to 
modernized. Our reasons for taking this position were twofold: 
first, we believed modernization was essential to improved 
accountability for offenders; second, we concluded that the 
provisions of the Uniform Code of Military Justice needed to be 
better understood by the men and women who are required to live 
by these standards established by this code. Modernization was 
essential to ensuring that the troops, as well as the lawyers, 
understand the meaning of key provisions of the Uniform Code of 
Military Justice.
    While the Department of Defense did not share our view, the 
Congress in its wisdom was not as reluctant. Accordingly, the 
Congress made a major stride forward and implemented our 
recommendation in the National Defense Authorization Act of 
2006. While these provisions will not be effective until next 
year, I take real satisfaction in knowing that our 
recommendations with respect to keeping military criminal law 
in step with the civilian world have been accomplished. To me 
these reforms are an excellent example of combining Government 
expertise with fresh, outside ideas, leading to congressional 
action.
    Our task force also believes strongly that the victim's 
advocate should be able to communicate with the victims of 
sexual assault in such a manner that the courts will protect 
the confidentiality of those communications. Several States 
have extended a legal privilege to those communications, and a 
need for such a privilege is even greater in the military. Why 
is this so? The reason is simply that the family or community 
support that is available in the civilian community is not 
present within military society. For the young enlisted victim, 
the chain of command does not provide the safe, confidential 
support that would be available to that same victim in civilian 
society.
    The restricted reporting option established by the 
Department of Defense is a step in the right direction, but it 
is not a complete answer. I am also aware that the Department 
of Defense is studying whether to establish the privilege our 
task force sought by Executive order in the Manual for Courts 
Martial, but neither our task force nor I believe that such a 
measure will be as effective as a privilege established by law. 
Accordingly, I encourage you to support such a provision 
through the legislative process.
    As you are aware, our task force was committed to improving 
the rate at which offenders were held accountable for sexual 
acts of misconduct. We saw real improvement in the manner in 
which the academies were approaching this issue, but we noted 
that the record in years prior to the tenure of Admiral Rempt 
or General Lennox, the superintendents at the time of our 
assessment, reflected that offenders were neither consistently 
nor effectively held accountable for their crimes. This is an 
issue about which all concerned about the health of the 
academies must maintain continued vigilance. The surveys and 
reports that Congress required from the academies are effective 
tools for exercising this vigilance and measuring progress, and 
I encourage your support for maintaining these tools.
    Our task force was also in strong agreement that education 
and training were key to progress in reducing the threat of 
sexual misconduct. The academies have programs that were 
structured to attack the problem, but they were not well 
coordinated and they were not treated as an integral part of a 
core curriculum. We were well aware that the demands on the 
time available for instructing cadets and midshipmen are almost 
overwhelming; nevertheless, knowledge of the basic human values 
that are embodied in sexual assault education is fundamental to 
effective officer education. While the academies are in 
agreement on this truism, the difficulty lies in developing a 
coordinated approach to teaching these lessons that is 
integrated throughout the 4-years of cadet and midshipman 
education.
    Nearly a year has passed since our report was made 
available to the academies, and I look forward to hearing how 
they have addressed this issue.
    I would also like to highlight the issue of community 
collaboration. Within the larger American community, those of 
us who have devoted substantial portions of our lives to 
eliminating the scourge of sexual assault understand that 
getting the whole community involved in attacking the problem 
is essential.
    In Annapolis there is a longstanding tradition of military 
cooperation with community health and law enforcement 
officials. We endorse that cooperation and encouraged the 
academy to formalize much of what was an informal relationship.
    At West Point, the establishment of community collaboration 
is much more difficult due to geography; nevertheless, there is 
much to be gained by reaching out to engage civilian expertise 
when it is available.
    The principle of community collaboration is true within the 
larger military community, as well as at the academies, and I 
encourage you to support cooperative activities among military 
and civilian communities throughout the armed forces.
    In conclusion, I would like to express my appreciation to 
the members of the Department of Defense, uniformed and 
civilian, who aided and assisted our task force and me during 
the year of our efforts. We were truly committed to a common 
goal of eliminating sexual assault in our society. I would also 
like to thank my fellow task force members who worked so 
diligently to assist the Department of Defense to reach the 
same goal.
    As we noted in our report, eliminating sexual harassment 
and assault is not a fix-and-forget problem. Vigorous, 
thoughtful, sustained effort is essential to success.
    As you can see, there was a part two to my testimony. That 
is actually information that, in my work with the National 
Sexual Violence Resource Center, that I have observed and 
talked to many of my peers throughout the country about not 
only successes but some still concerns that we hope that you 
would address.
    Thank you.
    [The prepared statement of Ms. Rumburg follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.015
    
    [GRAPHIC] [TIFF OMITTED] 33682.016
    
    [GRAPHIC] [TIFF OMITTED] 33682.017
    
    [GRAPHIC] [TIFF OMITTED] 33682.018
    
    [GRAPHIC] [TIFF OMITTED] 33682.019
    
    [GRAPHIC] [TIFF OMITTED] 33682.020
    
    [GRAPHIC] [TIFF OMITTED] 33682.021
    
    [GRAPHIC] [TIFF OMITTED] 33682.022
    
    [GRAPHIC] [TIFF OMITTED] 33682.023
    
    [GRAPHIC] [TIFF OMITTED] 33682.024
    
    [GRAPHIC] [TIFF OMITTED] 33682.025
    
    [GRAPHIC] [TIFF OMITTED] 33682.026
    
    Mr. Shays. Thank you, Ms. Rumburg. I erred in not 
acknowledging your service on the task force, particularly as 
co-chairperson. We do thank you for your work, but my staff 
told me that you wanted to be recognized as the executive 
director of the Pennsylvania Coalition Against Rape, National 
Sexual Violence Resource Center, and that is how we recognized 
you.
    Ms. Rumburg. Thank you.
    Mr. Shays. Ms. Hansen.

                 STATEMENT OF CHRISTINE HANSEN

    Ms. Hansen. Good afternoon, Mr. Chairman and members of the 
subcommittee.
    Mr. Shays. Good afternoon.
    Ms. Hansen. I am Christine Hansen, the executive director 
of the Miles Foundation. The Foundation is a private, nonprofit 
organization that works with victims and survivors of 
interpersonal violence associated with the armed forces, 
provides direct and support services to professionals in the 
field of criminal justice, as well as human services. We serve 
as a resource center for policymakers, scholars, journalists, 
and students; conduct an enormous amount of research in this 
field; as well as initiate public education campaigns; and 
serve to ensure that public policy is well informed and 
constructive.
    Since 1996, the Foundation has provided services to over 
25,000 survivors of interpersonal violence associated with the 
U.S. armed forces. This includes 14,000 survivors of intimate 
partner violence, 7,500 survivors of sexual violence, 3,500 
victims of child abuse, 47 former or current cadets from the 
service academies, and 50 victims of human trafficking.
    In the calendar year report that Congresswoman Maloney 
alluded to, in 2005 the military criminal investigative units 
acknowledged 2,374 reports of sexual assaults that occurred in 
the services. Our office has actually received reports of 
exactly 518 reports of sexual assault occurring in Iraq, 
Kuwait, Afghanistan, Bahrain, Cutter, otherwise CENTCOM AOR. 
Regrettably, as Congresswoman Maloney mentioned, not a 
centralized data base that would accurately reflect all of 
these reports.
    Some of the common threads among the cases of sexual 
assault in the armed forces include prior victimization of the 
victim, particularly that of female service members due to 
child abuse, sexual abuse, or sexual assault as teenagers, and 
exposure to domestic violence.
    Also in regards to the availability and accessibility of 
services remains an issue, revictimization as victims attempt 
to navigate through the system once they make a report, again, 
that lack of privilege or privacy of confidentiality. Justice, 
regrettably, within the military criminal justice system is 
illusive for many victims of sexual assault, domestic violence, 
and child abuse.
    Congress took strong action in the year 2004 through its 
authorization of the Ronald Reagan National Defense 
Authorization Act. It mandated that the Department of Defense 
establish and implement certain policies, programs, and 
protocols to address sexual violence among the ranks. To date, 
the Department has issued 14 directive type memorandums, 
included restricted reporting and non-restricted reporting, a 
commander's checklist, numerous training protocols, victim 
support. To date, approximately a million military service 
personnel have received sexual assault prevention training, and 
hundreds of military personnel have volunteered to serve as 
unit victim advocates.
    The directives, however, have numerous limitations, 
including a predominant focus on training without a foundation 
of law and policy that was only recently passed by Congress in 
the 2005 fiscal year Defense authorization bill and will be 
enacted in 2007.
    Some of the other limitations include the lack of 
applicability to survivors of other forms of interpersonal 
violence, such as those who are victimized by domestic 
violence, spouse abuse. This piecemeal approach doesn't quite 
address the entire cycle of violence that Representative 
Kucinich alluded to in his commentary.
    Finally, the failure to educate, inform, and analyze sex 
offender behavior is missing from the policy directives issued 
by the Department of Defense, as well as penalties for those 
who would choose to commit such crimes.
    One last note in regards to limitations is the focus upon 
prevention and victim support without specific guidelines as to 
intervention which often can inform prevention. A number of the 
directives or policy matters outlined in the Defense 
authorization, in fact, have not been completed to date, 
including protocols for military law enforcement, criminal 
investigators, and health care protocols.
    Further examination of the training conducted to date 
within the military departments is required. The training was 
conducted prior to any changes in the Uniform Code of Military 
Justice, which I mentioned previously goes into effect in 2007. 
Research also indicates that training does not necessarily 
correlate to a reduction in incidence or prevalence level.
    Also, quarterly training rather than the current mandated 
annual training is much more effective in regards to retention 
of material and influence upon prevention rates. Questions 
should be raised relative to the qualifications of the 
trainers, their certification, the curriculum, and ongoing 
continuing education for both military personnel as well as 
those who choose to serve in certain first responder 
capacities.
    The training, for example, of unit victim advocates is 
woefully inadequate. Numerous States require specific hours of 
education and continuing education for victim advocates, such 
as in the State of Connecticut which requires 40 hours. 
However, unit victim advocates are currently provided 
approximately 2 days of training and sent back to units, 
squadrons, and ships to voluntarily serve. Protections for 
victim advocates and unit victim advocates are still lacking 
following public disclosure of disbarments, firings, the 
pulling of contracts, as well as the limited resources afforded 
to these professionals.
    Two other issues that I'd like to focus upon relative to 
the restricted and non-restricted reporting policy as serious 
implications as the rights of privacy for those who are victims 
and survivors. In fact, we have received numerous anecdotal 
reports concerning the fact that victims are either being 
encouraged, coerced, or threatened, depending upon the 
terminology used by the victim, to choose non-restricted 
reporting, and in some instances commanders are making the 
choice for the victim or overriding the victim's choice prior 
to them receiving medical care and treatment.
    One final note relative to collaborative partnerships, 
which is part of the Department of Defense protocols. The 
memorandums of understanding which are being promoted between 
military installations and service providers, in particular, 
require additional review, in particular concerning the issues 
of privacy and the right of privacy. Delilah and many of our 
colleagues work under grant programs within the Department of 
Justice, the Department of Health and Human Services, that 
require confidential reporting and only the reporting of 
numbers, per se. Regrettable, some of the issues within 
Violence Against Women Act, as well as HIPAA, may come into 
play and preclude those type of partnerships, and need to be 
addressed immediately.
    A strategic plan has been established within the first 
comprehensive legislative initiative which was introduced in 
2004. It is being reintroduced this year and is H.R. 5212. The 
bill provides that foundation of law and policy that is 
required, the infrastructure for services, support, and 
treatment. It addresses victims' rights and restitution. It 
establishes a health care system response. It establishes a 
military criminal justice response. And it adopts the best 
professional practices that, over the 30-plus years in the 
battered women and rape crisis movement, we have come to 
acknowledge and utilize in our society. It addresses community 
safety and establishes a coordinated community response that 
addresses those issues within confidential reporting, as well 
as establishes additional research and evaluation protocols.
    It is ultimately unacceptable to us and we must address the 
fact that women who choose to serve and those who dream of 
service deserve a foundation of law and policy, an 
infrastructure, and offender and system accountability. The 
loss of the education, the experience, and the expertise of 
these women who are victimized by sexual harassment, sexual 
assault, domestic violence, trafficking while serving on active 
duty is a sacrifice our country can no longer afford.
    The initiatives outlined also accede the re-establishment 
of zero tolerance policy and training as implemented by the 
Department of Defense to date. The policies are intended to 
create a policy and social change which ensures both the safety 
and justice for those who choose to wear the uniform of the 
United States.
    Thank you.
    [The prepared statement of Ms. Hansen follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.027
    
    [GRAPHIC] [TIFF OMITTED] 33682.028
    
    [GRAPHIC] [TIFF OMITTED] 33682.029
    
    [GRAPHIC] [TIFF OMITTED] 33682.030
    
    [GRAPHIC] [TIFF OMITTED] 33682.031
    
    [GRAPHIC] [TIFF OMITTED] 33682.032
    
    [GRAPHIC] [TIFF OMITTED] 33682.033
    
    [GRAPHIC] [TIFF OMITTED] 33682.034
    
    [GRAPHIC] [TIFF OMITTED] 33682.035
    
    [GRAPHIC] [TIFF OMITTED] 33682.036
    
    [GRAPHIC] [TIFF OMITTED] 33682.037
    
    [GRAPHIC] [TIFF OMITTED] 33682.038
    
    [GRAPHIC] [TIFF OMITTED] 33682.039
    
    [GRAPHIC] [TIFF OMITTED] 33682.040
    
    [GRAPHIC] [TIFF OMITTED] 33682.041
    
    [GRAPHIC] [TIFF OMITTED] 33682.042
    
    [GRAPHIC] [TIFF OMITTED] 33682.043
    
    [GRAPHIC] [TIFF OMITTED] 33682.044
    
    Mr. Shays. Thank you very much, Ms. Hansen.
    Ms. Davis, we appreciate your being here. You had an 
inquiry. We have a 5-minute rule, but we roll over for another 
5 minutes. It is important, in particular, for you to give your 
statement as you choose to, so you can feel comfortable that we 
are eager to hear your statement and appreciate your being 
here.

                    STATEMENT OF BETH DAVIS

    Ms. Davis. Thank you.
    Mr. Chairman and members of the subcommittee, I appreciate 
the opportunity to appear before you today on behalf of the 
thousands of rape victims, victims of sexual assault and 
violence at the academies and in the military. I cannot imagine 
a more courageous group of individuals, and it is an honor to 
be chosen to aid in making the changes necessary to address the 
issue of sexual assault and violence against women in our 
prestigious military institutions and to help arrest the grave 
constitutional crisis that has arisen within its ranks.
    Before beginning my statement, however, I would like to 
state that, although I am grateful for this opportunity, the 
allocation of only 5 minutes to the victims is a woefully 
inadequate amount of time for the victims to give the 
subcommittee members an idea of the magnitude of these crimes 
that have been committed against us. These crimes were first 
committed by our attackers and second by our own officers and a 
military system that turned against us, rather than protected 
us, thus destroying our lives, our careers, and our families, 
while our attackers were allowed to go on with their careers, 
free from punishment or responsibility for their reprehensible 
crimes.
    Over the past few years the military has had many 
opportunities to appear before Congress and advocate its 
position, largely unchallenged, as it will again today, while 
the victims have not, and while the crime spree against women 
in our military continues, seemingly unabated.
    Accordingly, we urge this subcommittee to hold additional 
hearings so that the victims will finally be able to be heard 
and to shine the light of truth on this vast, dark stain on our 
military and on our Nation. We ask that Congress initiate its 
own non-military, independent investigation of the problem of 
rape and assault at the Air Force Academy, the other academies, 
and in the military at large, including an investigation into 
the culpability of the officers and officials in charge. 
Nothing short of this will suffice.
    As the media took hold, a widespread culture of misogyny 
and abuse was revealed to Congress and to the American people, 
despite the Air Force General Counsel, Mary Walker's, 
disingenuous Working Group Report of June 2003, which 
unbelievably stated that there were no systemic problems with 
sexual assault at the Academy.
    The independent Fowler Commission found something much 
different. In its report, the Commission recognized that a 
grave scandal had befallen the Academy. It revealed that the 
Air Force Working Group's Report was rife with conflicts of 
interest and failed to disclose evidence that the Air Force 
leadership had known about the problem for years but had not 
taken adequate steps to address it, and it revealed a paper 
trail of evidence which incriminated the officers and 
whitewashed the injustices at the Academy. The Fowler 
Commission identified culpable officers and recommended action 
be taken to hold them accountable.
    The Inspector General of the Department of Defense produced 
the next military-prepared report on the situation at U.S. AFA 
on December 3, 2004. Rather than following the directives of 
the Fowler Commission, though, this report shockingly 
exonerated the very officers that the Fowler Commission found 
at fault. Representative Tillie Fowler's comment on the DOD 
report, given shortly before her death, was that the DOD report 
was shameful.
    Around the same time it was revealed in the media that the 
Air Force's top military leader and Judge Advocate General had 
resigned amidst scandalous allegations that he had committed 
sexual misconduct with 13 female subordinates over the past 10 
years. It became clear that a deep problem of character, 
attitude, and example existed throughout the highest ranks of 
the Air Force leadership.
    Yet another shocking example of the Air Force's blatant 
disregard for congressional mandates and the victims was only 
weeks away. In a memo delivered to the Secretary of Defense on 
Good Friday, 2005, the new acting Secretary of the Air Force, 
Peter Teets, officially exonerated all the Air Force officers 
implicated in the sexual assault scandal at U.S. SAFA and then 
promptly resigned. It became clear to us that military 
establishment was now free to act on its own as an autonomous 
body and would protect its officers and officials at the 
expense of the victims, unaccountable to and in blatant 
disregard of Congress and the public, unchecked by the laws of 
the United States and the Constitution.
    We commend this subcommittee for taking steps that may help 
us understand the military culture that allows this problem to 
continue, and we commend the Defense Task Force on its efforts; 
however, they are inadequate and devoid of leadership 
accountability.
    Please refer to my statement for our recommendations in 
addressing this problem.
    In over 3 very long years of pursuing justice, our 
constitutionally guaranteed first amendment rights to a redress 
of grievances against our former commanding officers have been 
repeatedly denied to us by the U.S. military and the continued 
inaction of our elected officials.
    The Air Force, Department of Defense, and Congress have 
still done nothing about the accusations we made against the 
Academy officers who created false, misleading, and incomplete 
original crime reports and who deliberately disposed of crime 
scene evidence, and who also persecuted, libeled, slandered, 
and ruined our careers in the Air Force just for reporting 
these crimes. No government of the people, by the people, and 
for the people that truly values justice should allow alleged 
criminals to investigate themselves, much less grant blanket 
exonerations to themselves, while their victims and their 
witnesses are not allowed to testify or present evidence in 
court or officially before Congress.
    The effective result of the last few years of activity has 
been the denial of justice to the victims and the prevention of 
the attackers and accused officers from ever being held legally 
responsible and accountable. Despite this supposed attention 
given to this problem and the many millions of taxpayer dollars 
spent on military reports, studies, and training, the problem 
persists unabated, while the number of convictions and 
punishments of attackers and criminal officers at U.S. AFA 
remains at zero.
    I ask how can you, our elected Members of Congress, send 
U.S. women Soldiers off to fight in Iraq and Afghanistan with 
the intent of giving citizens of those countries democratic 
rights and legal justice when, at the same time, those rights 
are being denied to the women of our own military. We urge you 
and the other Members of Congress to, at long last, take 
decisive action to bind the rising tide of injustice and the 
unchecked wave of rape and sexual assault that washes through 
our military and continues to flood our Nation's shore with the 
drowned bodies of our individual liberty.
    We ask for the grant of public hearings so that the victims 
of rape, sexual assault, and reprisal in the military may be 
clearly heard so that the problem may be properly addressed. We 
ask for an independent congressional investigation into these 
matters and the military's response, and that appropriate steps 
be taken against those found culpable so that an example will 
be rendered to all Americans that these crimes will not be 
tolerated by our Nation.
    And we ask for the restoration of our honor, reputation, 
educational and medical benefits, and the financial well-beings 
of the victims of these crimes so that they may attempt to 
begin their lives again. Nothing short of this will suffice.
    I commend my fellow victims for their courage in coming 
forward and I urge other victims to do so, as well.
    On behalf of all the victims and their families, I thank 
you so much for this opportunity, and if time permits I would 
like to go into my story. Would that be OK?
    Mr. Shays. Time does permit. We would like to hear you tell 
your story.
    Ms. Davis. OK.
    Mr. Shays. We will turn the clock off. Just turn it off.
    Ms. Davis. I was raped and assaulted repeatedly my freshman 
year by a superior cadet in my squadron. In earlier----
    Mr. Shays. Excuse me, Ms. Davis?
    Ms. Davis. Yes?
    Ms. Davis. You have no rush, and you can speak slowly and 
we appreciate your testimony. We have turned the clock off.
    Ms. Davis. Thank you very much. I greatly appreciate it.
    Mr. Shays. OK.
    Ms. Davis. I was raped and assaulted repeatedly my freshman 
year by a superior cadet in my squadron. In earlier sexual 
assault briefings during my basic cadet training, upperclass 
women cadets informed us that it was very likely that we would 
be raped or sexually assaulted during our time at the Academy, 
and they instructed us that, if we were attacked, to not report 
it to the authorities because it would effectively destroy our 
career.
    Images of those women flashed through my mind and deterred 
me from immediately reporting my crimes to the commanding 
officers. I remembered my pride in getting accepted to the 
Academy, and I dreamt of the day I would graduate and fly my 
jet in defense of my country.
    I thought that was all I needed to survive the grueling 
physical military and academic tests and challenges I endured 
every day, but these dreams couldn't carry me through the pain 
I was suffering at the hands of my superior. I began to get 
sick frequently and developed inhibitions and phobias that made 
the work demand at the Academy unbearable.
    Finally, after realizing that nothing could possibly hurt 
more than the pain I was enduring then, I broke down and went 
to the Office of Special Investigations with my story. The OSI 
commander sat engrossed as I sopped tears from my eyes reciting 
every wretched detail for the first time only months after the 
last incident. He began to weep with me, declaring, ``Don't 
worry, Beth. This SOB is going to jail.''
    Upon leaving his office I felt I had done the right thing, 
after all, but it wasn't long before that feeling diminished 
and disbelief set in. About 6 months into the investigation I 
was called into OSI and the commander informed me that the 
legal office had shut my case down. Having been integrally 
involved in the information throughout those 6 months and 
seeing the many coinciding testimonies from the other cadets in 
my squadron, this seemed suspicious to me.
    I went directly to the legal office to inquire why they had 
closed my case and was adamantly told that every case on the 
base crosses their desk, and, contrary to the statements of my 
OSI commander, they had never seen my case.
    I immediately realized that something was going on and I 
started to worry that the warnings of the upperclass women in 
basic training were becoming a reality for me. After 
questioning the OSI commander again, he apologized for 
misleading me and told me that, in fact, my training group 
commander had shut my case down for ``my own good,'' even 
though he didn't have the authority to do so.
    Utterly discouraged, I marched into the training group 
commander's office and blatantly asked why. As he stumbled for 
words, he claimed that there was nothing more he could do for 
me and ordered me to see the base psychologist within the half 
hour. As I arrived at the psychologist's office, the doctor 
hung his phone up and declared, ``That was your commander, and 
he says we need to diagnose you with something that gets you 
sent off base.'' Not fully understanding what was happening, I 
sat down as he scribbled on my medical records.
    Immediately after leaving, I called a mentor officer of 
mine and informed him of what had happened and the diagnosis 
given. He frantically responded, ``Beth, he not just only took 
your pilot qualification, he took your commissioning. Go back 
into his office and get all his information.''
    [Crying.] I apologize.
    Mr. Shays. Ms. Davis, you do not need to apologize. We just 
are very grateful you are here. Your statement is long overdue. 
I apologize to you that you have not had this opportunity 
sooner.
    Ms. Davis. Thank you. I appreciate it.
    He told me, ``Go back into his office and get all his 
information.'' As I walked back in, the psychologist crumbled 
before me, claiming that he was under a direct order and 
pleading with me not to turn him in.
    In the meantime, my training group commander had already 
scheduled a medical review board to assess the psychologist's 
diagnosis of me and determine whether or not I would be 
disenrolled as a result. He was also in the process of 
officially serving me with three of the Academy's most 
detrimental punishments, each of which was grounds for 
disenrollment.
    To my shock and dismay, the demerits were for sex in the 
dorms, because my rapes took place in the dormitories; 
fraternization, because my rapist was an upperclassman; and 
alcohol, because I had included in my written statement that he 
was buying alcohol for my classmates, my under-age classmates. 
As my world and everything I believed in crumbled before me, I 
realized I was being castigated and thrown out of the Academy 
for reporting the heinous crimes that had been committed 
against me.
    As an additional strike against me, I later learned that 
certain undisclosed codes on my discharge papers effectively 
prohibited me from ever holding another military job again, and 
also coded for me accepting my discharge in lieu of receiving 
those violations that were grounds for my disenrollment.
    I returned home and began to hear the stories of many other 
women cadets that had endured the same mistreatment and 
retaliation by the Academy after reporting their crimes, one 
victim raped by a class president at the Academy; another 
victim raped by a senior cadet and then called a liar by 
Academy officials after reporting, with her family including 
her mother, an Air Force colonel at the Academy being 
affirmatively disparaged by the Academy; another victim being 
verbally berated and humiliated by the Academy commander, 
General Taco Gilbert, with his now-infamous $100 billion 
comments; and another victim raped by a serial rapist whose 
crimes, including the forcible rape of a young civilian in a 
wheelchair, were known to the Academy officials, who let him 
roam free at the Academy.
    Other shocking stories were revealed of past gang rapes and 
violence assaults of women cadets by organized groups of male 
cadets. Although the details of these stories were a little bit 
different, they all had the same common thread that after 
reporting these crimes, the women victims were investigated and 
persecuted, with their reputation and careers destroyed, while 
the male attackers went free, oftentimes to go on and continue 
to rape and assault other women cadets.
    Shortly after my dismissal from the Academy, I sent out an 
e-mail to fellow cadets detailing what they should do in the 
case of rape and which was eventually brought to the attention 
of the Secretary of the Air Force. Around the same time, 
another cadet sent an e-mail to the media and Members of 
Congress, which helped bring this terrible problem into the 
light of day and before the eyes of an angry American public 
and Congress, which later mandated an independent panel be 
established to assess the problem.
    Sir, I would like to stop there. The rest is in my 
statement. I believe I have covered every main point.
    [The prepared statement of Ms. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.045
    
    [GRAPHIC] [TIFF OMITTED] 33682.046
    
    [GRAPHIC] [TIFF OMITTED] 33682.047
    
    [GRAPHIC] [TIFF OMITTED] 33682.048
    
    [GRAPHIC] [TIFF OMITTED] 33682.049
    
    [GRAPHIC] [TIFF OMITTED] 33682.050
    
    [GRAPHIC] [TIFF OMITTED] 33682.051
    
    [GRAPHIC] [TIFF OMITTED] 33682.052
    
    Mr. Shays. I was just talking to the ranking member about 
the need to make sure that you are not the only one who has 
this opportunity.
    Ms. Davis. Thank you so much.
    Mr. Shays. I am going to ask Mrs. Maloney if she wants to 
start the questions.
    Mrs. Maloney. My first question is why are we forcing our 
women in the Academies and the military to report in the chain 
of command when the chain of command repeatedly makes them the 
victim, ruins their careers, and then they turn around and get 
promotions. So my first question is why don't we have the 
victims report, as every other person in our society does, to 
the closest police department? Now, granted, in Iraq and 
Afghanistan you cannot do that, but in the academies you can 
get in a car, you could go to the police department, you could 
have the DNA taken, you could have your case listened to.
    What is so disturbing is this is not the first report. 
Several years ago Vanity Fair ran a large article. There was 
Tailhook. There were all these various incidents where the 
great American military says we are going to end this, and it 
never seems to end.
    So my first question is why don't we change this. I can see 
that if we are in a battlefield the chain of command is 
absolutely essential, but why in the world is the chain of 
command essential when a victim is being raped, then told to go 
to a psychologist and have them say you are insane so that they 
can have you thrown out of the military. It is absolutely 
beyond belief and unfair, obnoxious, unfair, and should be 
changed. So why, at the academies, at the very least, and bases 
that are on American soil, have the cases reported to the 
police department? I'd ask the panel to respond.
    Ms. Davis. I would like to say that freshmen at the 
military academies, their lives are restricted in every way, 
shape, and form. They aren't privy to phone use, to cars. They 
really don't have those resources available. They aren't even 
allowed to walk in certain areas of the academies. Most of the 
time they have to be escorted if they are out on their own.
    Mrs. Maloney. Well, possibly we could set up a program 
where a police station could send a car to pick up someone so 
that they could report their crime. Would that have been 
helpful?
    Ms. Davis. That may have been helpful. I really feel like 
my main deterrent was that I knew I was going to be ostracized. 
The Academy is a very small school and, in turn, a very tight 
rumor mill, and your reputation at the Academy follows you 
throughout your career. The feeling there is that women aren't 
wanted, and everyone is looking for the first reason to get you 
out. You will sacrifice anything, including your mental health, 
your well-being, just to survive the Academy.
    Ms. Rumburg. Congresswoman Maloney, I think we have to also 
recognize in many cases the women that are sexually assaulted 
do not want to report to the police, and so now they do have 
two options, restricted and unrestricted reporting. I think the 
main thing is that they know what their options are. No. 1, 
Beth should have been believed.
    Mrs. Maloney. But if you have unrestricted reporting--in 
other words, it is confidential, no one knows what happened--
but what happens is the rapist goes free. The rapist goes free.
    Ms. Rumburg. I think that is something we have to deal 
with, but I think----
    Mrs. Maloney. The rapist goes free, and the culture that 
says, if you report your career is finished, is basically what 
you are saying, right, Beth?
    Ms. Davis. Yes.
    Mrs. Maloney. Then----
    Ms. Rumburg. I still believe the victim should have the 
option to determine whether or not they go forward, and I think 
what we are going to find, when those young women have the 
option and get the emotional support, the medical care that 
they need in the beginning, we are hopeful that they will go 
forward with an unrestricted report so that the offender can be 
held accountable. But I think the first thing we need to make 
sure is that those resources are available for the victim, 
whether she chooses to have a restricted report or an 
unrestricted report. I think it is important for them to know 
that they have that option and that they will be believed. Once 
they have the response and the care in place, then I think many 
of them will go forward.
    Mrs. Maloney. Beth, what would that have meant for your 
case?
    Ms. Davis. Well, I am just thinking to myself, one of my 
recommendations is that rape victims at the academies are 
provided with civilian legal counsel. It is a very big 
deterrent that you have to turn to anybody within the Academy. 
I am not sure if I can convey the importance of that. You don't 
want to turn to people that are within the Academy because you 
feel like they are all against you.
    I include in my statement there is a feeling, a widespread 
feeling of a cynicism there because there is a perceived war 
between the cadets and the leadership because the leadership 
doesn't adhere to the academy's standards, yet they are trying 
to enforce the academy standards on the cadets, so the cadets, 
in turn, resent them for it.
    Mrs. Maloney. Ms. Hansen wanted to make a comment. My time 
is up, but I----
    Ms. Hansen. Congresswoman Maloney, it actually goes beyond 
the restricted and non-restricted reporting policies. It gets 
into the collaborative agreements that we have talked about, 
the memorandum of understanding. There is currently, with the 
Air Force Academy, the El Paso County Sheriff's office and 
District Attorney's office has a memorandum of understanding 
where any incidents of domestic violence, sexual assault, 
sexual misconduct, etc., will be handled by Air Force 
officials. Regrettably, that is counter to the jurisdiction on 
the Air Force Academy, which is called concurrent jurisdiction. 
Essentially, the local police department could come onto the 
Academy with lights and sirens blaring and could respond to a 
sexual assault that occurred on academy grounds. At this time 
that memorandum of understanding only permits civilian 
authorities to have control over criminal cases that occur 
involving cadets off post. That is one of the serious barriers, 
let us say, for them reporting to civilian authorities, because 
oftentimes then military authorities assume jurisdiction in 
those cases.
    Mrs. Maloney. You can always change the law.
    Ms. Hansen. Yes.
    Mrs. Maloney. You can always change the law, and if women 
are raped and the hierarchy and the chain of command does 
nothing about it except send them to a psychologist and have 
them thrown out, then change the system.
    Ms. Hansen. Exactly, Congresswoman Maloney.
    Mrs. Maloney. We have a system that works pretty well now 
in the civilian community.
    Ms. Hansen. Yes.
    Mrs. Maloney. You can go to the police, you can go to the 
District Attorney, you can go to victim's assistance. If the 
system is in place, why don't we access that.
    Ms. Hansen. Yes. I concur with you. I think it also gets to 
some constitutional issues, as well, for young women like Beth 
and others who have been victimized by these type of crimes and 
their rights of equal protection under our Constitution and its 
amendments.
    Mrs. Maloney. My time is up.
    Mr. Shays. Mr. Price, we'd like to go to you next.
    Mr. Price. Thank you, Mr. Chairman. Again, my appreciation 
for being able to join the subcommittee today.
    I think I will focus my questions on Ms. Davis, who is a 
constituent and who obviously has touched us all here with her 
courage in coming forward with the story she has told. There 
are so many questions that the testimony raises.
    I suppose at the very beginning you stressed the kind of 
informal orientation you received from senior female cadets, 
and you imply that, whatever you were told about your legal 
rights or anything else, that informal advice was what you 
remembered and what, unfortunately, is what turned out to be 
accurate.
    What were you told officially about sexual assault and 
harassment and the policies of the Academy and your legal 
rights and that sort of thing? Were you told anything at all?
    Ms. Davis. Yes. There actually were briefings on it, and 
they would tell us that the resources were there, that there 
was a victim advocate on base, and we could go to the Cadet 
Counseling Center, we could also turn to OSI, but they would 
also feature upperclass women cadets. These were briefings that 
they had actually separated us women from the men going through 
basic training, so it was only the females in the room, and 
upperclass female cadets would stand up and give their 
testimony of what they had been through or what they had known 
to happen, and they would say that, you know, this will happen. 
Your career will be ruined if you decide to report. I will 
never forget it.
    And then, when you enter a squadron in the beginning of 
your freshman year, we had the informal addresses of the 
upperclassmen. They would come to our rooms and they would say, 
``If anything ever happens to you, you can come tell us, but 
don't tell the authorities.'' They would say, ``You'd regret 
it. It will lead to the end of your career.'' Believe it or 
not, being raped my freshman year, my sophomore year, when my 
sophomore year came I actually went to the female freshman 
rooms and did the exact same thing because I could tell what 
was going on with my case and I didn't want it to happen to 
them.
    Dreams are literally crushed by reported. You work so hard 
to get into the military academy, and I just didn't want them 
to suffer what I was going through.
    Mr. Price. Well, what you say about the culture and the 
ostracism and the attitudes of fellow cadets is terrible, if 
maybe understandable, given its apparent pervasiveness, but it 
is even more striking to me, though, about your story is not 
just the acquiescence in this but the promotion of it in many 
ways by the leadership, by the psychiatrist or the psychologist 
and the various leaders who were involved in your case where, 
far from an attempt to counter this or to somehow come to your 
defense or to bolster your efforts, you were essentially being 
given the same message by those officials that you were given 
by those female cadets.
    Ms. Davis. Yes.
    Mr. Price. And you stress throughout the importance of 
leadership. What would you like to, apart from some changes in 
policy and the kinds of things Mrs. Maloney has been addressing 
in terms of the kind of recourse you might have, but in terms 
of leadership attitudes and practices what needs to happen?
    Ms. Davis. I really do believe it starts with leadership 
accountability. I believe that, while it was conveyed to us 
that officers see an assignment to a military institution as a 
respite in their career, and when I was at the Academy they 
wouldn't show up until 11 a.m., noon, for their work day. Our 
officer, in particular, was gone by 4 p.m. every day and would 
actually take off weeks at a time to go hunting in Canada. We 
all knew about it. He was never there to oversee the squadron. 
The squadron was running amuck 24 hours a day and it was 
because of his absence.
    So I just can't stress leadership accountability enough. 
There is an example being made at the academies that is not a 
healthy one for the cadets, and the cadets end up leaving the 
Academy with a hate for the institution, for the military, 
really. They are constantly trying to find the loopholes in the 
rules.
    The cynicism is just pervasive there. Everyone does see it 
as a war, and especially when you reach your senior year, if 
you are lucky enough, the phrase is Operation Graduation. That 
doesn't mean work hard at your grades. That means, you know, 
cover up anything possible because you don't want to be found 
out. You are at war with the leadership in the absolute highest 
sense of that phrase.
    Mr. Price. Finally, you say something about people's 
dreams, your own dreams, and the way this situation has brought 
those to naught in too many cases. There have been some steps 
taken. The have been commissions, there have been reports, 
there have been some efforts at improvement. Let me just ask 
you, bottom line, with the situation as it is now as compared 
to what you went through, would you now personally feel 
comfortable recommending to a young woman that she pursue 
education at a service academy?
    Ms. Davis. Absolutely not. We are still hearing cases of 
women coming out of the academies absolutely distraught and 
having been through the exact same thing that I went through. I 
specifically know of one that left just recently, having 
contracted herpes from her rapist, and there is actually a 
paper trail between the doctors denying her treatment, the 
herpes actually in rare form became meningitis, and the 
meningitis became encephalitis because they wouldn't treat her, 
and she now has brain damage and vomits daily. She has damage 
to a nerve. She deals with level eight migraines and has been 
through morphine addictions because they just pump her full of 
drugs to deal with it. It is devastating. These cases come out 
of the military academies all the time, but the media doesn't 
seem to get a hold of them. I am sure it is because the coverup 
is just too fine tuned. It is really a shame. It is such an 
injustice.
    Mr. Price. Mr. Chairman, again thank you. I would hope that 
in the course of this inquiry we could get such information as 
is available from the academies. I know there are reports about 
the incidents. The Defense Department apparently has given a 
mixed accounting of that, saying that reporting a 40 percent 
spike in reported incidents actually shows improvement because 
incidents are now being reported. It also certainly shows there 
are lots of incidents. But, to the extent there are records 
available, not just about the incidents but also about the 
disposal of cases, disciplinary actions taken, that sort of 
base of information coming right up to the present I think 
would be very useful for all of us.
    But in the meantime, Ms. Davis, thank you and thanks to 
your co-witnesses, as well, for some very enlightening 
testimony.
    Ms. Davis. Thank you.
    Mr. Shays. Thank you. Thank you, Mr. Price.
    Mr. Marchant.
    Mr. Marchant. Thank you.
    For each of the panelists, have any of you been asked to 
testify before the Armed Services Committee or any of their 
subcommittees before?
    Ms. Hansen. Yes, Congressman Marchant, I have testified 
before the Senate Armed Services Committee and presented 
written testimony to the House Armed Services Military 
Personnel Subcommittee.
    Mr. Marchant. And how long ago was that?
    Ms. Hansen. February 2004 relative to the public 
information concerning sexual assaults in CENTCOM AOR, Military 
Personnel Subcommittee, Senate Armed Services, and in June 
2004, House Armed Services Military Personnel Subcommittee 
relative to a report from the Department of Defense Task Force 
on Care of Sexual Assault Victims.
    Mr. Marchant. How about before the House?
    Ms. Hansen. Only that one occurrence, and that was actually 
a written statement.
    Mr. Marchant. Ms. Rumburg.
    Ms. Rumburg. The task force had the opportunity to submit 
certainly our report to the Secretary and the staff of the 
House and Senate Armed Services Committee and to each of the 
secretaries of the Armed Services in the fall.
    Mr. Marchant. But as far as a formal House hearing----
    Ms. Rumburg. No, sir.
    Mr. Marchant [continuing]. There has never been one 
conducted?
    Ms. Rumburg. No, sir.
    Mr. Marchant. Ms. Davis.
    Ms. Davis. Sir, in the winter of 2003 a few victims and I 
actually came here to Capitol Hill and met with 17 of the 
Senate Armed Services Committee members, including Warner and 
Levin, and Senator Warner promised us hearings, on top of 
holding impromptu hearings that day for the cause, and we have 
yet to see those hearings. We are hoping that eventually we 
will have those hearings.
    Mr. Marchant. But as far as the House goes, the House Armed 
Services Committee here, any of those committees?
    Ms. Davis. Congressman, the only public hearing that 
they've held to date was on June 3, 2004, relative to sexual 
assault within the Armed Forces.
    Mr. Marchant. Ms. Davis, were you ever at any time during 
the process offered any kind of independent counsel?
    Ms. Davis. No.
    Mr. Marchant. I know it was a very traumatic period for 
you, but were you ever counseled that you could have a lawyer 
if you needed a lawyer?
    Ms. Davis. No. And I really was too young to understand my 
rights at that time. I thought I was turning to the authorities 
and that was the best thing I could do.
    Mr. Marchant. Would you feel like, after you have been 
through all this, would you feel like there is such a thing as 
independent counsel in the service?
    Ms. Davis. In the service?
    Mr. Marchant. In the services. I mean, that you could 
receive independent counsel from someone that was connected to 
the Academy?
    Ms. Davis. I just wouldn't have trusted them. I would much 
rather, as a recommendation for the effort, I would much rather 
say a civilian, independent attorney should be appointed.
    Mr. Marchant. Do you think that the environment in itself, 
the senior cadets, the senior male cadets have to be aware that 
the female cadets are being told not to report and that it will 
ruin their career? Does this become common knowledge among the 
senior cadets and the male cadets that this is something that, 
maybe even in outside society, you couldn't get away with, but 
in this society that you are living in you might be able to get 
away with it because the female has much more to lose? And I 
suppose that there are male-to-male contact rapes.
    Ms. Davis. Yes. Absolutely.
    Mr. Marchant. We have not heard about that.
    Ms. Davis. Absolutely. Rape is an issue of power, not of 
sex. The male cadets I am sure are aware of the briefings. It 
is just too tight of a rumor mill. There are only 4,000 cadets 
there, and you practically know everyone by name. I'd have to 
imagine they do. I would like to say, though, that I believe 
that the situation of rape may be worse in the military because 
of the power granted to certain individuals over others, and 
especially in the military academies where you have literally 
kids training kids. That just can't be good. Like I said, the 
officials show up late to work and they leave early.
    Mr. Marchant. Were you ever aware of faculty or superior 
officers other than the cadets involved in this kind of 
activity?
    Ms. Davis. Yes. Absolutely. It happened a couple of times 
while I was there, and it was brought to our eyes. I don't ever 
remember it hitting the media, but it was absolutely 
disgusting. I don't believe it is as high, you know.
    Mr. Marchant. Any higher than any institution of higher 
education?
    Ms. Davis. Maybe not. The cases I remember were actually 
civilian professors on the cadets.
    Mr. Marchant. OK. Well, thank you very much for your 
testimony today.
    Ms. Davis. Absolutely. Thank you.
    Mr. Shays. Let me start out by asking Ms. Hansen and Ms. 
Rumburg how you reacted to Ms. Davis' testimony, and, Ms. 
Rumburg, given her testimony, do you feel that this report 
adequately describes the problem? Do you accept everything that 
Ms. Davis says? And if you do, tell me why I should feel that 
this report rises to the level of concern that Ms. Davis 
described.
    Ms. Rumburg. I think we heard many stories. We actually 
heard Ms. Davis when we were compiling our report and we had 
many opportunities to talk to the victims and survivors of 
sexual assault, and that actually informed the recommendations 
that we made.
    Mr. Shays. Is her statement any different than you recall 
it being when she came before your committee?
    Ms. Rumburg. No, sir. That has been consistent with what we 
heard. Absolutely. And that reflects our recommendations.
    Mr. Shays. This would be a typical statement before your 
committee?
    Ms. Rumburg. It was very similar to some of the things that 
we heard. We heard, yes, that the cadets and midshipmen didn't 
want to report because they knew they would be ostracized. 
There was a culture where there was an understanding that their 
career may be hurt if they came forward with the sexual 
assaults. That is why I said the counseling component is so 
important there.
    Mr. Shays. Tell me where in this report would most capture 
the statement that Ms. Davis had. You can look at it. I will 
ask Ms. Hansen to respond to your reaction to Ms. Davis' 
testimony.
    Ms. Hansen. Regrettably, Beth's testimony mirrors many of 
the experiences of our clients, both victims and survivors, 
whether they are in the military academies or whether they are 
in active duty services or they might be veterans who were 
sexually assaulted while on active duty any number of years 
ago. Predominantly the revictimization we see quite frequently, 
and we also see issues with violation of their rights as a 
victim, abuse of power type of sexual assaults, in particular 
with upperclassmen or those who are superior in rank.
    We also notice a significant amount of lack of justice for 
those who have been victimized. Predominantly court martials 
are about 2 to 3 percent at this point in time, and the 
predominant response is an administrative response, non-
judicial punishment or an article 15 or resignation in lieu of 
court martial, forfeiture of pay and allowances. So, 
regrettably, Beth's testimony mirrors that of far too many who 
have been victimized by sexual violence within the armed 
forces.
    Mr. Shays. Before I go any further, Ms. Rumburg, Ms. Davis, 
did you have an opportunity to look at this report?
    Ms. Davis. I did.
    Mr. Shays. Do you think this captures the problem? Do you 
think it captures what you were trying to convey to the task 
force?
    Ms. Davis. I don't. There are things in it that I 
definitely agree with. I think they were right on----
    Mr. Shays. You said you don't but there are things you 
agree on?
    Ms. Davis. Yes.
    Mr. Shays. OK.
    Ms. Davis. I would like to state that there are things that 
I agree with, specifically the confidentiality. It has taken us 
a long time to get to the point where confidentiality can be 
granted. We actually put in our statement that recommendation 
9A we do agree with. It is Congress should create a statutory 
privilege--this is regarding the confidentiality--protecting 
communications made by victims of sexual assault to health care 
providers and victims' advocates. That is huge, and I think 
that will----
    Mr. Shays. We are talking about the recommendations. But 
let me ask you, do you think this report captured----
    Ms. Davis. No.
    Mr. Shays. See, I am not even sure it came close.
    Ms. Davis. It really didn't. It really didn't.
    Mr. Shays. I was not prepared for your testimony. Let me 
ask you this. You almost had so much to testify, is there any 
part that maybe was a bit overstated? And I say this for a 
variety of reasons. One, I want to hope that it is not as bad 
as you portray it, but when you started to talk about the woman 
with herpes and now is impacted in a very serious physical way 
beyond that, that is almost beyond my comprehension. In other 
words, you don't need to make your testimony stronger than it 
was when you started. Is there anything in your testimony that 
you may feel would give us a false impression? You started to 
speculate about what you think exists in the military, which is 
speculation not personal, so you mixed personal experience with 
speculation, and so I am just asking you is there anything that 
you would qualify or want to make sure that we don't over-
interpret?
    Ms. Davis. Honestly, I feel like I have cut a lot out of my 
story to try to fit it in to the time and the statement. It 
really is that bad. The young lady that got the herpes and it 
has become encephalitis, she wanted to prepare a statement for 
this but it was too overwhelming for her. I know that she would 
be so happy to talk to you. Her story is devastating, and she 
and I have cried over it.
    Mr. Shays. Well, we only have a staff of five in this 
subcommittee, and we had marked out what we would do to the end 
of the year, but we are going to revise our hearing schedules. 
We are going to understand your case personally and directly 
from start to finish, and then we are going to ask you of other 
people you would recommend to come testify.
    I don't like to think of you as a victim, but we would have 
you and other victims make sure that what needs to be said is 
on the record. When I apologized to you for not being aware and 
not getting you before this subcommittee sooner, you should not 
have had to have waited so long.
    You were the class of 2003?
    Ms. Davis. Yes.
    Mr. Shays. So you started the fall of 2000 or when?
    Ms. Davis. I started in the summer of 1999.
    Mr. Shays. The summer of 1999. And you left when?
    Ms. Davis. I left the first time on a medical term back in 
2001, and then for good in the fall of 2002.
    Mr. Shays. Now, was that, given what you said, your choice?
    Ms. Davis. No. Absolutely not.
    Mr. Shays. So you would have been willing to endure all 
this and stay and graduate, etc?
    Ms. Davis. Absolutely.
    Mr. Shays. I will say to you the thing--and it may sound 
silly to you, given the horrible things you said, but the thing 
that I think I find the most outrageous is, as you were 
talking, you were describing how excited you were to be 
commissioned and to be a pilot, and later on you said, in spite 
of all this, you said your dreams are literally crushed. I 
can't think of anything that you could have said that would be 
more horrific for me. I hope you have lots of dreams, young 
lady, and I hope they all come true.
    Ms. Davis. Thank you very much.
    Mr. Shays. Ms. Rumburg, I want to say to you that I almost 
have the feeling that this report was trying to be overly 
sensitive and delicate, given what we just heard, so tell me 
how I would feel the same kind of passion of Ms. Davis in this 
report.
    Ms. Rumburg. Well, I need to tell you that we all felt 
greatly impacted by the statements of the victims. Sometimes we 
were horrified by what we heard, but I think our challenge----
    Mr. Shays. But not surprised?
    Ms. Rumburg. We heard the stories not only from the 
civilian advocates that had been working with the individuals, 
as well as the media coverage, so we knew what to expect, but I 
don't know how this report could have conveyed the pain and the 
horror. That informed our work, but I don't know how we could 
have conveyed that. We certainly let that inform our work.
    I really think the issues, the way we divided the report 
address the issues that, if we take these recommendations 
seriously, I think it is a huge step in the right direction. We 
talked about, No. 1, the culture, and if you notice in the 
report we did a whole chapter on the culture, recognizing that 
is the biggest issue of all.
    If we could change the culture not only in the military but 
in our society we could stop sexual violence. So we were 
clearly aware that imbalance of power in a culture that 
supports the rape culture in this country and in our military 
was the biggest issue. And we knew also that we couldn't change 
that overnight.
    But we looked at the other things like confidentiality. As 
Beth said, that is important to give victims that option in the 
beginning.
    Mr. Shays. I don't mean to be disrespectful, but what I am 
wrestling is you are talking about your recommendations. Tell 
me where in this report you would feel the outrage that you 
must have felt when you heard Ms. Davis speak. I am not putting 
pressure on you, I don't mean to be putting pressure on you, 
but this is the report that we in Congress get and look at and 
the military gets.
    I am just not sure it begins to capture. I mean, you 
basically had brutality take place. You basically had testimony 
that all the women or almost all were saying, ``You will be 
raped and you have to just deal with it,'' which is an 
incredibly unbelievable statement. It is kind of like your rite 
of passage. You then basically have the testimony that says the 
people who raped are alive and well and in our military 
prospering. Tell me how that report captures that.
    Ms. Rumburg. Again, I don't think it can capture that.
    Mr. Shays. OK.
    Ms. Rumburg. And I don't think that is what we tried to do. 
What we spent months and months doing was coming up with 
recommendations that we felt, if they were addressed, that it 
could begin to address this issue. Again, we made 
recommendations around the culture, things that we could do. 
No. 1, holding midshipmen and other cadets responsible for 
their behavior, to look at bystander behavior, how that allowed 
this culture of rape to exist. We thought that was one of the 
key pieces under the culture.
    We addressed the things that Beth talked about, how an 
academy is young people training young people, how that is part 
of the problem. There were many, many recommendations on the 
kind of training that we need to put in place, and it started 
at the top, from the command all the way down to the civilians 
that were volunteers at the academies. So I think we did 
address and made recommendations.
    You are right. It does not cover the outrage. But we tried 
to take everything that we heard and put it into a document 
that the academies could take and use as a guideline to start 
moving forward. We spent a lot of time under offender 
accountability and the kinds of changes that we thought should 
be made in the justice system, and then, again, training and 
education being a key component.
    There is a prevention piece there. What can we do to 
prevent this? There needs to be more money to look at this 
issue of prevention because as civilians we are struggling with 
this. How do we stop this kind of behavior in our culture?
    Mr. Shays. If I was running the academies, if I was in a 
power of authority in the military, I think one easy way to 
deal with it is to send your best experts to determine what the 
hell is happening and then throw these people out of the 
service and send them to jail. I think that would be the 
healthiest thing around.
    Ms. Davis should be viewed as a hero.
    Ms. Rumburg. And, sir, she is seen as a hero in the eyes of 
many, many people. She is.
    Mr. Shays. I am not sure----
    Ms. Rumburg. And if it wasn't for brave women like Beth 
coming forward these hearings wouldn't be happening. And it is 
going to take more and more women like Beth to come forward. I 
don't want to diminish their stories. I have been an advocate 
for 30 years, so I took this task very, very seriously. We 
wanted to create a document that, again, as a road map--it is 
not going to solve the problem overnight. As Mrs. Maloney said, 
there is frustration why it has taken so long. We are all 
frustrated that we have been doing this work for over 30 years 
and none of us have seen any real change, not only in the 
military but in the culture at large.
    Mr. Shays. Yes, Ms. Hansen?
    Ms. Hansen. Mr. Shays, I think your assessment of Beth's 
testimony and her presentation to the public as to what has 
been transpiring at the Air Force Academy as a hero is correct. 
We see oftentimes within the victims and survivors that we work 
with an enormous amount of courage, particularly when many of 
them actually choose to then turn around and to serve those who 
are in the middle of a crisis following their own 
victimization. It not only honors us, but the work that they do 
on behalf of those who are being victimized is quite 
incredible.
    Just one other note. In using the terminology ``victim,'' 
in our field we use the term ``victim'' to relate to the fact 
that this person has been victimized by a crime and has not 
received justice. We use the term ``survivor'' when they are in 
the process of--I hesitate to use the term ``healing,'' but 
when they are in the process of treatment, care, etc.
    Mr. Shays. Right. One of my staff said, use survivor 
instead of victim.
    Let me recognize Mr. Van Hollen. I don't think, Ms. Davis, 
that we have done justice to your testimony in this 
subcommittee, but I am happy we have it. I, frankly, was not 
prepared for the extent of your testimony. Is there any point 
you'd like to make before I go to Mr. Van Hollen?
    Ms. Davis. I am just thinking we came up with some of our 
own recommendations.
    Mr. Shays. Can you just tell me who ``we'' is?
    Ms. Davis. Well, my lawyer and a couple of the other 
victims that were in my class.
    Mr. Shays. So you do not mind being referred to as a 
victim?
    Ms. Davis. No. I just see it as a word, I guess.
    Mr. Shays. OK. Fair enough.
    Ms. Davis. If I may, I'd like to go over a couple of them.
    Mr. Shays. Sure.
    Ms. Davis. The second one that we outline, a 
congressionally mandated statutory exception to the Farris 
Doctrine, the Farris Doctrine is pretty much prohibiting rape 
victims from being able to sue for civil rights when these 
injustices occur. We have in here that military victims who 
report crimes of sexual assault within the military and/or who 
are later persecuted by military officers or officials for 
doing so can seek redress against the military, the attackers, 
and/or the officers in question in civilian courts. I think 
that the Farris Doctrine is pretty much granting immunity to 
rapists as it is now.
    Third, we have granting congressional hearings for these 
rape victims. I think for the main reason that hearing the 
testimonies, I just don't know how a report really can convey 
how this problem is just absolutely devastating lives. I feel 
like that is an understatement.
    Mr. Shays. Well, the significance of the 9/11 Commission 
was they had basically finding of facts before they did 
recommendations, and maybe this report would have been helped 
by just having some real reality in this document before the 
recommendations. Maybe that is what I was looking for. So I 
think the recommendations are probably quite good, and maybe, 
Ms. Rumburg, because you have dealt with this for 30 years it 
almost seems like that is not necessary, but I think it is.
    Ms. Rumburg. No, and I didn't mean to convey that it is not 
necessary.
    Mr. Shays. No, you didn't convey that.
    Ms. Rumburg. I think every story is----
    Mr. Shays. I think, though, the fact that you don't find 
much of it in the report says that to me.
    Ms. Rumburg. And that was the decision, I think, that we 
decided to keep it in a format that it would be easy to read 
and the recommendations would be easy to find. But I must tell 
you we all felt the outrage and a lot of compassion, much 
compassion for the victims that came before us.
    Mr. Shays. I know you did. You have answered my question. 
To have this report have more impact, we need to have a little 
more finding of fact, I think.
    I thank the gentleman for his patience.
    I'd like Mrs. Maloney to be able to ask a question, too, 
again, as well, and Mr. Marchant. We thought we were going to 
go to the next panel.
    I will say to the next panel it is important that this 
first panel's comments be addressed, and I would imagine that 
one of the parts of the testimony is, Ms. Davis, you left 4 
years ago?
    Ms. Davis. Yes.
    Mr. Shays. I would think that what we will be told is that 
things have changed, and I think your comment is, based on your 
communication with others, it hasn't.
    Mr. Shays. No.
    Mr. Shays. Thank you.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank all of 
you for your very powerful testimony. I am sorry I had to step 
out during some of the questioning.
    I'd like to ask you, Ms. Davis, in your statement you 
pointed to so many failures in the system, in the chain of 
command. You started out going through the OSI, and then you 
went to the training group commander, and then, of course, 
there was the psychiatrist or the psychologist. In each step of 
the way the system failed you.
    My question is: what has happened to those individuals who 
failed you? Because in order, it seems to me, to really fix 
this problem we have to hold people accountable. And until that 
signal is sent to other young people in the services, men and 
women, you are not going to be able to change that culture. You 
are not going to make people any less afraid to come forward 
because they are not going to see that anybody is penalized for 
wrongful behavior.
    Let me just start by asking you, the individuals in your 
chain of command, can you tell us whether they have been held 
accountable in any way?
    Ms. Davis. Not at all, no. There is one that I know of that 
has discharged. I know that he had done other things to other 
cadets, and there were so many complaints against him that he 
was pretty much forced to retire early. But no, nothing has 
happened to them. It just became very apparent to me that it 
was a very fine-tuned effort to get me out, and they were all 
working together. There was actually even one--it was the vice 
commandant--whose sole job was to pretty much quell the 
concerns of my parents. He would call my home and make my 
parents--he actually even tried to make it sound like I had 
done something to warrant them punishing me. My parents called, 
concerned. But I had a very clean report. I was actually on my 
class council, the student government. I didn't have any 
disciplinary actions against me prior to this. It was a very, 
very cohesive effort against me.
    Mr. Van Hollen. What kind of signal does that send to 
others, in your opinion, if people who are responsible for 
failing to take action see no consequences? What kind of 
message does that send, or did it send?
    Ms. Davis. You hit it point blank. Yes. Leadership 
accountability is paramount in this case. It is sending the 
signal to cadets that as long as you are suave you can get away 
with it, as long as you cover your bases. It is absolutely 
sickening to me.
    Mr. Van Hollen. Let me just read, if I might, Mr. Chairman. 
In March of this year there was a Washington Post story 
regarding sexual assault charges against students at the U.S. 
Naval Academy, concluding that they are routinely dismissed 
without trial, according to analysis of Navy documents. A 
review of 56 midshipmen accused of sexual assault since 1998 
found that only 2 were convicted, 1 in a civilian court, 
according to a review by the Washington Post of Navy incident 
reports, case summaries, and data released by the school. In 
virtually every other case deals were struck, forcing the 
accused student to leave the Academy without facing trial and 
without a criminal record.
    It seems to me that report and those statistics kind of 
tell the story here. I look forward to the testimony of panels 
that come after you, but it sounds from this that these sexual 
assaults are being treated more like someone who cheated on a 
test----
    Ms. Davis. Yes.
    Mr. Van Hollen [continuing]. Than someone who committed a 
crime. If you cheat on a test you are thrown out, but if you 
are committing a crime you should be thrown in jail. And if 
there is a question as to whether or not you committed the 
crime, it seems to me you should go through the normal process 
that any other individual who is accused of a crime should have 
to go through, the normal court procedure, establishing your 
guilt or innocence.
    I would be interested in all of your sort of sense about 
that. I don't know if you saw the analysis done by the 
Washington Post. I assume you did. I know some of you have done 
your own analyses. But why is it that so many of these cases 
are essentially dealt with in a way where, ``You can leave the 
Academy, but the criminal charges are not going to be 
pursued?''
    Ms. Hansen. In regard to the academies, we predominantly 
see that resignation in lieu of court martial, Congressman. 
Regrettably, that doesn't address what we know as sex offender 
behavior, in that oftentimes sex offender behavior begins 
early, and if there is not significant intervention it can 
escalate along the way.
    So you have to also contemplate the fact that these 
individuals were not penalized, shall we say. There was no 
significant intervention. There was no change in behavior so 
that when they are out in our communities they may offend 
again. Regrettably, we have a large population of veterans 
within our State and Federal prisons for sex offenses in that 
regard who have demonstrated prior histories, shall we say, 
that were not significantly addressed at the time.
    Mr. Van Hollen. All right.
    Ms. Davis, I asked you about those in the chain of command 
who sort of failed you in terms of pursuing your grievances and 
the complaint and the fact that you were raped. Let me ask you, 
what has happened to the people who actually perpetrated the 
crime?
    Ms. Davis. In the midst of my investigation they actually 
flew what they considered the best psychologist--I could give 
her name, but I am not sure I should--the best psychologist in 
the Air Force in from Germany and out for Turkey the very next 
day just to evaluate the two of us, and she evaluated my 
perpetrator first, and then she met with me, and her first 
words were, ``I just want to tell you you don't have to say a 
thing. I have already diagnosed him as a sociopath.'' In my 
squadron it was known that he was an alcoholic. He was actually 
discharged for dishonorable purposes. They wouldn't tell me 
what for, but it had nothing to do with me.
    Mr. Van Hollen. It had nothing to do with you?
    Ms. Davis. Nothing to do. And if I could just comment, my 
commandant was actually instructed to brief the Secretary of 
the Air Force on my case weekly because the Secretary at the 
time had branded it the worst that the Air Force Academy had 
seen, and so there was a very cohesive effort against me all 
the way back to the Pentagon.
    Mr. Van Hollen. But the individual who perpetrated the 
crime against you was discharged, but beyond that we don't know 
if any criminal charges have ever been brought against him?
    Ms. Davis. No. No criminal charges. When they were handing 
me the three class D hits, the worst hits that the Academy 
gives, they were telling me, ``Don't worry, he's going to be 
getting them, too,'' and he never received anything.
    Mr. Van Hollen. I just have one more question, Mr. 
Chairman. Again, thank you for this hearing.
    After the Tailhook scandal, because of all the attention I 
believe that was sort of focused on the military at that point, 
there were certain individuals who were involved in that who 
were punished, but the true test of whether or not we have 
accountability is whether the system does it on its own when 
there are not the big lights shining on what is going on, 
whether they have sort of institutionalized a process for 
holding people accountable.
    Outside of the Tailhook situation, do we know of any people 
in any of the academies who have been punished for failing to 
do their job in terms of failing to hold perpetrators 
accountable, people who have failed others as the system failed 
you, Ms. Davis? Do we know of cases where the military has held 
those people accountable? I can't think of any better way to 
send a message to the system than holding those who are in 
positions of responsibility and trust in the chain of command 
accountable when they fail in that trust. Do you know of any 
instances where that has happened?
    Ms. Hansen. Regrettably, Congressman, I do not. And that 
doesn't mirror our work just relative to the academies but the 
services, generally.
    Mr. Van Hollen. So nobody knows of any case where that has 
happened?
    Ms. Rumburg. No. No, sir.
    Mr. Van Hollen. Mr. Chairman, I would suggest that is part 
of the problem that we have here. Lots of very important 
reports documenting the problem, but it doesn't seem like a lot 
of follow-through in terms of actions taken to punish people 
who are negligent in terms of fulfilling their duties.
    Thank you.
    Mr. Shays. I thank the gentleman.
    We are almost done. Mrs. Maloney I think has a followup 
question or two, and I have one or two questions, and then we 
will get to our next panel.
    Mrs. Maloney. After listening to the testimony I would 
suggest that the best way to improve this report is to include 
a tally of what happened to the victims, the cadets, the women 
that were raped, and what happened to the rapist. That would 
tell us more than all of these words.
    From the testimony I have heard today, if you are raped, 
you are sent to a psychologist and thrown out of the military 
with charges against you so you cannot get a job in the 
military or Government again, yet if you are the rapist you 
just might get a promotion, or if you are discharged you are 
quietly discharged. There is something very, very wrong with 
that equation, and I would request that the next report have a 
tally of what happened to the victims and what happened to the 
rapists.
    If we want to stop this, the best way to stop it is the way 
we stop it in the civilian community. We take the rapist to 
court, we have a proceeding, and we convict those that are 
guilty. This will continue unless we sincerely go after this in 
a sincere way.
    This is a crime. People who rape are criminals, yet the 
women are sent to psychologists and thrown out and the men 
continue with their careers or, in extreme cases where they are 
psychopaths you said they are quietly dismissed. So I would 
just suggest we just follow the laws of this country that apply 
to everyone unless you are in the military.
    I would like to better understand how the confidentiality 
proposal helps. I don't see how it helps. I would like to know, 
Ms. Davis, if you had the 9A provision, if you could have 
claimed confidentiality, how would that have helped your case? 
I would assume when you are talking to the chain of command it 
is a confidential situation. How does this change the case?
    Ms. Davis. It wouldn't have changed the case so much; it 
would have given me the opportunity to turn for mental health 
help for some coping skills. As far as actually helping with 
the prosecution, it wouldn't have helped with that really.
    Mrs. Maloney. So it would not have helped with the problem, 
which, in my belief, the way to crack down on a crime is to 
crack down on a crime.
    Ms. Davis. Yes.
    Mrs. Maloney. But if people are abused and hurt and 
violated, the new reform is to allow them to be quiet about it 
and go to a psychologist? That is the reform?
    Ms. Davis. Yes.
    Mrs. Maloney. I don't consider that much of a reform, quite 
frankly.
    Ms. Davis. Yes. I agree.
    Mrs. Maloney. I feel like it is a ``speak no evil, say no 
evil, pretend there is not a problem.'' If that occurred, how 
would that have helped your case? Your rapist would still 
probably be in the military and you would be talking to a 
psychologist. How does that help?
    Ms. Davis. I guess it would have prevented the 
ostracization to some extent.
    Mrs. Maloney. But who ostracized you? Your fellow cadets 
did not?
    Ms. Davis. Well, they did to some extent.
    Mrs. Maloney. The women ostracized you?
    Ms. Davis. The military teaches you to cut the weakest link 
out. Unfortunately, in the military the women are the weakest 
link in many respects. Academically they usually excel, but 
physically they absolutely don't. The physicality of things is 
held to a very high--that is valued there, how physical you 
are.
    So if you cut the weakest link out, the women are at the 
bottom of the chain trying to fight to not be cut out, and a 
lot of them just don't talk to each other. They can't confide 
in each other. There is a lot of competition there. It is like 
a bunch of hungry dogs biting for meat. It is not a healthy 
situation. So a lot of my friends, as soon as I left the 
Academy we started talking candidly about our experience, and 
every single one of them had been raped or assaulted. I am 
ashamed to say it, but we had no idea.
    Mr. Shays. Could I just ask you, when you say ``every 
one,'' could you just be sure it is every one or almost every 
one? I don't want to put you in a setting where you say 
something and then people come back later.
    Ms. Davis. I really appreciate that. I feel free to say 
that because the percentage of females at the Academy is so 
low. I really didn't know that many females. There were only 
five in my class, in my squadron, so----
    Mr. Shays. So that statement you are comfortable making?
    Ms. Davis. Yes, I absolutely am.
    Mr. Shays. OK.
    Ms. Davis. I know for a fact that the women that I was----
    Mr. Shays. OK. I just----
    Ms. Davis. Unfortunately, it is true.
    Mr. Shays. It is, and it is very unfortunate.
    I do want to ask one question of you, Ms. Rumburg and Ms. 
Hansen and then Ms. Davis. I will just read it, but I would 
like to put it on the record.
    Why do you believe it has taken over 25 task forces, 
commissions, panels, and reports to address the issue of sexual 
violence in the U.S. armed forces? Why so many? In other words, 
are we getting anywhere?
    Ms. Rumburg. I think, again, it is the bigger problem that 
nobody takes this as seriously as they need to. I know what we 
tried to do--and I think Beth has been able to convey it 
today--is create an outrage at every level of our society of 
what we feel every time we see a victim, and for some reason or 
another we have not been able to convey that outrage that 
everyone should feel that it could be my daughter, it could be 
my son, my grandchild. That is our biggest struggle. How do we 
make every one of the people that are in positions to make 
these decisions feel the same outrage that each one of us feels 
day in and day out.
    Can I give you an example of what I just did in 
Pennsylvania trying to create an awareness in my legislature, 
because there is no money to provide services or it is 
dwindling? I took a pair of baby shoes to everybody on the 
Appropriations Committee to say this is a child that is on a 
waiting list in Pennsylvania. This represents a child who 
cannot get services. I think it takes that kind of action, you 
know, with people like Beth going out and saying, ``You have to 
hear my story.''
    I think that is the best thing that we can do is allow 
victims an opportunity to tell their stories so that everyone 
else that is making those decisions is going to feel the same 
outrage that you and the rest of the panel feels. It is 
critical that they are heard and that they begin to realize how 
serious this problem is, in any way that we can convey it. That 
is our struggle.
    Ms. Hansen. Mr. Chairman, I don't think there is an excuse 
that is acceptable. Women have always volunteered to serve. We 
currently have an all-volunteer force. This has been an ongoing 
problem for decades. There are reports of women who were 
sexually assaulted in the Vietnam era that are one of the more 
significant influxes to the Veterans Administration at this 
time, that 30 to 35 years later they have not received 
appropriate care and treatment, and the issues in their lives 
have escalated tremendously. I don't think there is an excuse.
    I think also, in regards to what Mrs. Maloney said, we have 
an enormous amount of information within our case files 
relative to mental health evaluations of those who filed 
complaints of sexual harassment and sexual assaults, 
particularly women who are serving in the intelligence 
community, at this point in time. I think that it is important 
for us to do the tally that has been suggested as to what you 
see, what the response is, what transpires for the victim/
survivor and what transpires for an alleged offender. Within 
our case files there is a significant disparity and a lack of 
justice for those who have been victimized.
    Mr. Shays. Ms. Davis.
    Ms. Davis. I just feel like the efforts are somewhat 
spinning wheels. It is hard. I just have to go back to the 
leadership accountability. I just don't feel like anything of 
substance has ever been done. There is a lot of protocol in 
regards to dealing with an issue that we can implement these 
ideas and the civilian counsel. It will all help to some 
degree, but unless people are actually held accountable it is 
just sabotaging the effort.
    Mr. Shays. Well, is there anything that you would like to 
have as a last word? I am going to have the very last word, but 
is there anything, Ms. Davis, that you would like to say, wish 
we had asked you, wish you put on the record, Ms. Hansen or Ms. 
Rumburg, something that we just need to put on the record that 
we didn't?
    Ms. Rumburg. I don't think so. Thank you.
    Mr. Shays. OK. Ms. Hansen.
    Ms. Hansen. I'd just like to expand the conversation beyond 
sexual assault into domestic violence, as well, within our 
forces, particularly spousal abuse when you are talking about 
violence against women. Also, human trafficking and sexual 
exploitation, regrettably we are seeing some issues in that 
regard of an ongoing nature.
    Mr. Shays. Thank you.
    Mrs. Maloney. What are you seeing in sexual trafficking in 
an ongoing basis?
    Ms. Hansen. Regrettably, we are actually seeing in some of 
the combattant commands it has become an issue, and within some 
of our coalition partners, as well. We have also seen Beth's 
terminology, ``sham marriages,'' ``sham engagements,'' in which 
women are brought here into the United States for purposes 
other than a happy marriage and family life, essentially for 
prostitution purposes.
    Mrs. Maloney. And who are you reporting this to?
    Ms. Hansen. We have spoken to numerous Members of Congress 
and we have also spoken to various individuals within the 
services in that regard.
    Mrs. Maloney. Thank you. I'd like to know more about it. 
Thank you.
    Ms. Hansen. We will get you more information.
    Mrs. Maloney. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. If you would direct that to the subcommittee, we 
will also make sure that Mrs. Maloney gets that information at 
the same time we get it.
    Ms. Rumburg, anything we need to put on the record?
    Ms. Rumburg. Yes, sir. Again I want to thank you, because, 
as I said in the beginning, this light that you are shining on 
this problem within the military and the Department of Defense 
is only going to open a broader conversation about our 
responsibilities as citizens to continue to address this 
problem until we no longer have to deal with sexual violence, 
not only in the military but in the society, as a whole.
    And I just want to make one observation, getting back to 
what Beth said. One of our recommendations was that we really 
pay attention to the screening as it relates to the individuals 
that are admitted into the academy. If there had been 
appropriate screening of the individuals that come into the 
academy, we could eliminate some of the men, particularly 
someone that is a sociopath, so we did address that in our 
recommendations. We really need to pay attention to the way we 
screen individuals before they go to the academy.
    Mr. Shays. Thank you.
    What I would like all of you to know is that when we 
started chairing these hearings in 1995 we used to have the 
Government officials come first and then the victims/survivors 
of any particular issue, like Gulf war illness, come second. 
Then what happened is sometimes the Government officials would 
say there is no problem and then some would leave and then we 
would have the victims describe the problem, so we reversed 
that, and we appreciate the Government officials recognizing it 
is important to hear from the experts in this field and the 
victims/survivors.
    To you, Ms. Rumburg and Ms. Hansen, you are, in fact, 
experts on this issue, have dealt with it for a long time, and 
you probably had more patience than you would like to have. I'd 
like to think that you would see this committee have some 
impact. That is fully my pledge to you.
    To you, Ms. Davis, you are a remarkable young woman. You 
were very candid from the moment you spoke. I was a little 
taken aback because I thought, my goodness, you are getting a 
chance to speak, but you were right on target. You should have 
been heard sooner by Congress.
    I will say you are one of the most articulate witnesses I 
have ever had come before any committee that I have ever 
served. You are a good teacher. You are articulate. You are a 
remarkable person. I was thinking how proud I would be to have 
you as my daughter, and to think of the contribution you have 
made.
    I would like to ask you to say what you would like to come 
from these hearings. In other words, what would you like to see 
happen as a result of your testifying? What would be your hope? 
What would be your dream about the result of your testimony, 
not just in the short run, in the long run.
    Ms. Davis. I guess it is more or less the impression that 
the victims make on Congress. I feel like Congress just hasn't 
been influenced enough to really take hold of this. The DOD is 
running wild with it. They are kind of running their own show. 
There is just no oversight. I feel like these hearings would 
impress upon the Members of Congress the dire need for an 
oversight, for the congressional influence on their efforts. I 
just don't feel like the DOD is running an honest show and it 
is really disheartening.
    Mr. Shays. You would like to see your testimony result in 
Congress doing more oversight, questioning the so-called 
``internal efforts'' of DOD, and you would obviously like to be 
able, I would think, in the future be able to recommend to 
another young woman, ``You know, the best thing in the world 
would be to join the academy and to pursue your dream, and I 
would be advocating your doing that,'' and right now your 
testimony is you wouldn't.
    Ms. Davis. No.
    Mr. Shays. But would that be a fair thing to say, that you 
would hope that some day real soon you could say what?
    Ms. Davis. I hope that I could say that the Academy is 
living up to its prestigious title. All of the military 
academies are acclaimed as some of the best institutions in 
this country, and to hear of someone that is admitted, is 
nominated, just the grueling process that you have to go 
through to get admitted, it should be that wondrous thing and 
it is just not right now.
    It is not a place that I would wish anybody of any 
substance, of any great intelligence, that is a wonderful, 
great person with great dreams, I wouldn't wish them to go 
there at all. I just feel like you'd be throwing them into the 
wolf pit. I really do hope some day that the Academy can become 
that prestigious thing. They have a lot of values and standards 
that are great if they could follow them, if they could live up 
to them, but they fall very short.
    Mr. Shays. OK. Thank you all very much. I think what we 
will do is--does anybody know how many votes we have? I am 
going to say to our next panel that we will probably not be 
back until at least 10 of or 5, so if you want to just take a 
short break from here I think we will just empanel the second 
panel when we get back.
    Thank you all very much. We stand at recess.
    [Recess.]
    Mr. Shays. I'd like to call this hearing back to order. We 
thank our second panel, No. 1, for understanding why we wanted 
you to be second and not first, and I am sure that some of the 
testimony was a little difficult to listen to.
    We have before us Dr. Kaye Whitley, Acting Director, Sexual 
Assault Prevention and Response Office, Department of Defense; 
Vice Admiral Rodney P. Rempt, Superintendent of the U.S. Naval 
Academy; Brigadier General Robert L. Caslen, Jr., Commandant of 
the U.S. Military Academy; Brigadier General Susan Y. 
Desjardins, Commandant of the U.S. Air Force Academy; and Rear 
Admiral Paul J. Higgins, Director of Health and Safety, U.S. 
Coast Guard.
    As you know, we swear our witnesses. We'd request that you 
rise, raise your right hands, and we will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    I want to say at the outset that we appreciate your service 
to our country. We are grateful for your service to our 
country. Ultimately, we have the same goal, and that is to just 
have this country be a blessing to everyone and to make sure, 
particularly in your tasks in the military, that the highest 
standards are upheld. I know that is your goal and your desire.
    I would like to just start with Dr. Whitley. We will have 
you start off. We do the 5-minute rule, but we do roll over. I 
don't want you to think you have to be done in 5 minutes if you 
can finish in 7 or 8 or whatever, but you don't want to go past 
10.
    Thank you.

  STATEMENTS OF KAYE WHITLEY, ACTING DIRECTOR, SEXUAL ASSAULT 
  PREVENTION AND RESPONSE OFFICE, DEPARTMENT OF DEFENSE; VICE 
   ADMIRAL RODNEY P. REMPT, SUPERINTENDENT OF THE U.S. NAVAL 
ACADEMY; BRIGADIER GENERAL ROBERT L. CASLEN, JR., COMMANDANT OF 
     THE U.S. MILITARY ACADEMY; BRIGADIER GENERAL SUSAN Y. 
DESJARDINS, COMMANDANT OF THE U.S. AIR FORCE ACADEMY; AND REAR 
 ADMIRAL PAUL J. HIGGINS, DIRECTOR OF HEALTH AND SAFETY, U.S. 
                          COAST GUARD

                    STATEMENT OF KAY WHITLEY

    Dr. Whitley. Thank you, Chairman Shays, for inviting me to 
discuss the Department of Defense's sexual assault prevention 
and response program. I would also like to take this 
opportunity to thank Ms. Davis and acknowledge her courage.
    I am the Acting Director of the Department's Sexual Assault 
Prevention and Response Office, but I fully understand the 
devastating impact that sexual assault can have on victims and 
our society. When I was a counselor, several of my clients 
struggled with the long-term effects of sexual assault, and all 
of them suffered from post traumatic stress disorder. They all 
had to muster incredible courage just to get through each day. 
I sometimes think of these individuals and that reinforces my 
commitment to ensuring that DOD's program truly protects and 
assists the men and women who protect our Nation.
    As you have heard, sexual assault is a challenge to our 
society, and it is the Nation's most under-reported violent 
crime. Some studies indicate that 1 of 6 women and 1 of 33 men 
will experience rape or attempted rape in their lifetime. Since 
the military reflects the society it serves, this criminal 
offense confronts the Department, as well. But, moreover, 
sexual assault is a readiness issue that strikes the core of 
our military preparedness.
    As Secretary Rumsfeld stressed to senior leadership in a 
May 2005, memorandum, such acts are an affront to the 
institutional values of the armed forces of the United States 
of America, and then he charged them with effecting a 
concerted, successful implementation of the Department's sexual 
assault policy. That policy strikes at sexual assault three 
different ways. First, it emphasizes career-long training and 
education to prevent sexual assault. Second, it ensures that, 
in the event of an assault, the victim receives complete and 
effective services from well-trained responders. And, third, it 
provides for system accountability.
    This policy applies to active and reserve components, 
alike, as well as the three military surveillance academies. In 
addition, it provides for consistent programs wherever military 
units are stationed.
    I believe the Department is off to a great start. During 
the past year the military services trained more than 1 million 
service members. They also established sexual assault program 
offices at every major installation and every deployable 
command. They trained more than 5,000 sexual assault response 
coordinators and victim advocates, and 2,500 were deployable 
SARCs and victim advocates.
    In addition to a comprehensive response structure, DOD 
established a protocol to ensure a consistent level of care and 
support for victims and implemented a fundamental change in how 
the Department responds to sexual assault by instituting 
confidential reporting. Since June 2005, victims may not elect 
to make a restricted report and receive care and support 
without notifying command channels or law enforcement. 
Restricted reporting also allows victims the time, care, and 
empowerment to consider pursuing an investigation at a later 
date.
    This provision and others designed to eliminate barriers to 
reporting are succeeding. More victims came forward in 2005 
than in the previous year, and 435 requested restricted 
reporting. But, more significantly, 108 of those later changed 
to unrestricted reporting and pursued criminal investigations.
    These accomplishments underscore DOD's efforts to transform 
into action its commitment to sexual assault prevention and 
response. I am confident that 2006 will show greater progress. 
I am particularly looking forward to the Defense Task Force on 
Sexual Assault in the Military Services beginning its 
examination of the Department's program. Their assessment will 
provide a thorough and independent assessment of our program, 
and as we refine each facet of our prevention response program 
we will create a climate of confidence and trust where everyone 
is afforded respect and dignity.
    Thank you again, and I will look forward to answering any 
of your questions.
    [The prepared statement of Ms. Whitley follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.053
    
    [GRAPHIC] [TIFF OMITTED] 33682.054
    
    [GRAPHIC] [TIFF OMITTED] 33682.055
    
    [GRAPHIC] [TIFF OMITTED] 33682.056
    
    [GRAPHIC] [TIFF OMITTED] 33682.057
    
    [GRAPHIC] [TIFF OMITTED] 33682.058
    
    [GRAPHIC] [TIFF OMITTED] 33682.059
    
    [GRAPHIC] [TIFF OMITTED] 33682.060
    
    [GRAPHIC] [TIFF OMITTED] 33682.061
    
    [GRAPHIC] [TIFF OMITTED] 33682.062
    
    [GRAPHIC] [TIFF OMITTED] 33682.063
    
    [GRAPHIC] [TIFF OMITTED] 33682.064
    
    [GRAPHIC] [TIFF OMITTED] 33682.065
    
    [GRAPHIC] [TIFF OMITTED] 33682.066
    
    [GRAPHIC] [TIFF OMITTED] 33682.067
    
    [GRAPHIC] [TIFF OMITTED] 33682.068
    
    [GRAPHIC] [TIFF OMITTED] 33682.069
    
    [GRAPHIC] [TIFF OMITTED] 33682.070
    
    [GRAPHIC] [TIFF OMITTED] 33682.071
    
    [GRAPHIC] [TIFF OMITTED] 33682.072
    
    [GRAPHIC] [TIFF OMITTED] 33682.073
    
    [GRAPHIC] [TIFF OMITTED] 33682.074
    
    [GRAPHIC] [TIFF OMITTED] 33682.075
    
    Mr. Shays. Thank you, Dr. Whitley.
    Vice Admiral Rodney P. Rempt, thank you.

               STATEMENT OF ADMIRAL RODNEY REMPT

    Admiral Rempt. Thank you, Mr. Chairman and other members of 
the subcommittee. I am honored to appear before you today on 
behalf of the outstanding men and women of the U.S. Naval 
Academy. The subject that you are addressing is critical and 
very important to our academies, the services, and our Nation. 
Sexual harassment, misconduct, and assault should not be 
tolerated in the Navy and Marine Corps, and I can assure you 
that they are not tolerated at your Naval Academy.
    I can report to you good progress with respect to our 
sexual harassment, misconduct, and assault prevention and 
response efforts, but we still have work to do. We expect our 
midshipmen to live and uphold the highest standards, just as 
they will be expected to do in setting the example as junior 
officers in the Navy and Marine Corps.
    Many of you have constituents attending the Naval Academy. 
Our over 4,300 member brigade of midshipmen is made up of the 
best young people from your Districts and States, and our 
faculty and staff are also comprised of top-notch academia and 
military officers. The very idea that anyone in the Academy 
family could behave in a way that fosters sexual harassment, 
misconduct, or even assault is of great concern to me as 
superintendent. Preventing and deterring this unacceptable 
behavior is a leadership issue that I take to heart.
    My goal is to do all in my power to ensure situations like 
Ms. Davis never occur. As you know, our mission at the Academy 
focuses on developing midshipmen morally, mentally, and 
physically to become combat leaders of the highest character to 
lead sailors and Marines, and it is not by chance that moral 
development is listed first in our mission because it is the 
most important. We want our graduates to become leaders of 
strong character, with the highest ethical standards and 
unimpeachable values. With this in mind, we attempt to develop 
a culture that fosters dignity and respect among everyone at 
the Naval Academy, while also encouraging personal 
responsibility and accountability.
    Our policy to prevent and deter sexual harassment, 
misconduct, and assault within the brigade and at the Academy 
as a whole is focused on seven key elements: first, awareness, 
training, and education to ensure our midshipmen, staff, and 
faculty know what is expected of them and what our standards 
are; 24/7 response and support to rapidly and compassionately 
respond to any incidents; fostering an environment that 
encourages incident reporting so we know what is occurring and 
we can respond appropriately; multiple paths for reporting, 
midshipmen, officers, enlisted, chaplains, counselors, medical 
personnel, and many others; prompt, thorough investigative 
procedures employing fully trained and sensitive NCIS 
investigators; immediate and continuous support for the victim 
and all involved; and case resolution and follow-on counseling, 
holding perpetrators accountable, and providing long-term 
support to victims.
    Key to deterring unacceptable behavior is a climate within 
the brigade of midshipmen, specifically how men and women treat 
each other. We teach our future officers to be inclusive of 
all, regardless of race, background, or gender, to value 
diversity, and to develop teamwork within their shipmates. The 
vast majority of midshipmen exceed our standards every day.
    Annual climate surveys given to the midshipmen indicate 
that the culture in the brigade is improving. Our most recent 
survey conducted in 2005 shows a steady downward trend in 
sexual harassment. While 93 percent of the brigade reported 
that they did not experience sexual harassment, the fact is 
that unwanted comments and jokes and innuendo among the 18 to 
24 year old midshipmen still occur within the brigade. 
Acceptance of women within the brigade continues to improve, 
but young women coming to Annapolis are still a minority in a 
predominately male environment.
    In August 2005, the Defense Task Force both challenged and 
applauded the Academy's efforts at preventing and responding to 
sexual harassment and violence and recommended improvements and 
noted it would take some significant resources to implement all 
its recommendations. This report was the latest of seven 
studies and assessments addressing gender relations that the 
Naval Academy has undergone within the last 15 years. The 
outcomes of these 7 studies resulted in 243 recommendations for 
change or improvement, and of those recommendations most have 
been implemented, many have ongoing actions, and few have not 
yet been or will not be implemented.
    The recent Defense Task Force report which was discussed 
earlier identified 44 findings and 62 accompanying 
recommendations within 7 key areas, and they range from the 
need for external assistance for statutory reform, to internal 
process changes, and responses detailing actions taken or 
planned were provided to Academy oversight and guidance bodies, 
including our Presidentially appointed Naval Academy Board of 
Visitors and the Secretary of the Navy appointed Executive 
Steering Group. The Naval Academy has the full support and 
encouragement of the chief of Naval Operations and the 
Secretary of the Navy, as well as our Board of Visitors and 
Executive Steering Group to continue the gains we have made.
    We have answered your specific questions with my prepared 
statement. I am happy to touch on each area, but I will wait 
for questions in that area.
    I do want to say that this year marks the 30 year 
anniversary of the first admission of women to the academies. 
At this milestone of 30 years we show a remarkable trend from 
the beginning year when 80 women were admitted in 1976 to 136 
admitted in 1990 to more than 270 women who are projected to 
report tomorrow as new members of the Class of 2010.
    The key elements of the Naval Academy sexual harassment, 
misconduct, and assault prevention and response plan includes 
68 specific actions that I and my staff are working on, 
organized into 7 key areas of the Defense Task Force report. 
They are aimed at improving gender culture, increasing dignity 
and respect, better preventing and responding to sexual 
harassment, misconduct, and assault.
    In addition to the findings and recommendations from the 
Defense Task Force, we continue to gain valuable insight from 
other survey and management tools. In April 2005, the Defense 
Manpower Data Center administered the service academies' sexual 
assault survey to 682 female and 1,082 male midshipmen, and as 
a result of those findings what they showed us was that sexual 
assault incident rates are very low, sexual harassment incident 
rates are more prevalent than assault, as we would expect, 
sexist behavior is a lingering concern in Academy culture, 
alcohol is often a factor in sexual assaults, and the reason 
most often indicated for not reporting sexual assaults was that 
victims thought they could deal with it themselves.
    Nearly all midshipmen acknowledged having had training on 
sexual harassment and assault, and the majority of midshipmen 
feel that sexual harassment and assault have become less of a 
problem.
    These results indicate that the Academy is making positive 
progress, but we are continually working to improve our 
prevention and response efforts. Our own values survey most 
recently conducted in October 2005, assesses command climate 
and asked a number of questions in different areas. In response 
to this, what we learned was the most frequent offense 
regarding sexual harassment, negative comments, remarks, and 
offensive jokes, about 6 percent, and 93 percent reported they 
were not harassed, 93 percent of women do not feel that sexual 
harassment impeded their development as midshipmen, and 98 
percent of both men and women reported that they did not 
experience sexual assault. Of the remaining 2 percent who did, 
the most common offenses were unwanted touching or kissing.
    Resentment against midshipmen who report harassment dropped 
to a low of 10 percent among males, down from 24 percent in 
2001, and 5 percent among females, down from 50 percent in 
2001. Respect for midshipmen who report harassment grew from 34 
percent to 56 percent amongst males, and from 25 percent in 
2001 to 65 percent amongst females. And 97 percent of the women 
and 98 percent of the men feel safe sleeping in Bancroft Hall. 
And 97 percent of women and 98 percent of men rate teamwork and 
cooperation between themselves and midshipmen of the opposite 
gender as favorable.
    These are encouraging results. They tell us that we are 
making progress in the area of fairness and gender relations.
    As you well know, sexual assault on the Nation's college 
campuses has been receiving more attention lately. In an 
October 2002, report to Congress, the National Institute of 
Justice provided a comprehensive benchmark of sexual assault 
policy on the Nation's campuses and delineated promising 
practices in the area of sexual assault prevention policy, 
reporting, investigation, adjudication, and victim support.
    I am pleased to report that the Naval Academy has in place 
through its sexual assault/victim intervention program each of 
the promising practices of that research report. We are 
continuing to expand those.
    In the interest of time I will skip our recurring and new 
initiatives. They are contained in my statement.
    I will conclude. I have consistently made clear to all of 
our staff and midshipmen that the Navy does not tolerate sexual 
harassment, misconduct, or assault. These actions have no place 
in the Navy or Marine Corps and are contrary to the values of 
the Naval Academy and what we are striving to develop in our 
future officers.
    Public trust that the academies will adhere to the highest 
standards and that we will serve as a beacon for the Nation 
that exemplifies character and dignity and respect, and we will 
continue our efforts to meet that trust.
    Destined to be the future leaders of sailors and Marines, 
we hold our midshipmen to the highest standards. These high 
standards apply equally to each and every midshipmen in the 
brigade.
    I invite each of you and your colleagues to visit us at the 
Naval Academy and to talk to your midshipmen, and perhaps that 
is something I'd suggest for this subcommittee, to have a 
chance to actually talk to midshipmen to get information on 
these and other subjects firsthand. Preventing and deterring 
sexual harassment, misconduct, and assault is a critically 
important issue that needs to be continuously emphasized. We 
are on the right track and this serious issue has our fully 
focused attention.
    As superintendent, I ensure you that we will continue to do 
the right thing and uphold the Academy's standards when dealing 
with these cases. The Naval Academy will continue to focus on 
improving gender relations toward the goal of greater dignity 
and respect among midshipmen and eliminating sexual harassment, 
misconduct, and assault.
    Thank you, sir.
    [The prepared statement of Admiral Rempt follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.076
    
    [GRAPHIC] [TIFF OMITTED] 33682.077
    
    [GRAPHIC] [TIFF OMITTED] 33682.078
    
    [GRAPHIC] [TIFF OMITTED] 33682.079
    
    [GRAPHIC] [TIFF OMITTED] 33682.080
    
    [GRAPHIC] [TIFF OMITTED] 33682.081
    
    [GRAPHIC] [TIFF OMITTED] 33682.082
    
    [GRAPHIC] [TIFF OMITTED] 33682.083
    
    [GRAPHIC] [TIFF OMITTED] 33682.084
    
    [GRAPHIC] [TIFF OMITTED] 33682.085
    
    [GRAPHIC] [TIFF OMITTED] 33682.086
    
    [GRAPHIC] [TIFF OMITTED] 33682.087
    
    [GRAPHIC] [TIFF OMITTED] 33682.088
    
    [GRAPHIC] [TIFF OMITTED] 33682.089
    
    [GRAPHIC] [TIFF OMITTED] 33682.090
    
    [GRAPHIC] [TIFF OMITTED] 33682.091
    
    [GRAPHIC] [TIFF OMITTED] 33682.092
    
    [GRAPHIC] [TIFF OMITTED] 33682.093
    
    [GRAPHIC] [TIFF OMITTED] 33682.094
    
    [GRAPHIC] [TIFF OMITTED] 33682.095
    
    [GRAPHIC] [TIFF OMITTED] 33682.096
    
    [GRAPHIC] [TIFF OMITTED] 33682.097
    
    Mr. Shays. Thank you, Admiral.
    The statistics that you were providing, were those 
statistics done by----
    Admiral Rempt. They are contained in my statement, yes, 
sir.
    Mr. Shays. Are they statistics that were done by an outside 
firm or done internally? And if they were done internally, can 
the individual----
    Admiral Rempt. There have been three separate surveys----
    Mr. Shays. Let me just finish. If they were done 
internally, can the cadets be absolutely convinced that, 
whatever their response, it was totally and completely 
confidential?
    Admiral Rempt. Yes. There were three separate surveys, and 
all of them are done completely anonymously and they are 
assured of that.
    Mr. Shays. Done internally though?
    Admiral Rempt. Only one was an internal survey. The other 
two were done from the Defense Task Force and from the DOD SASA 
survey.
    Mr. Shays. OK. Thank you, Admiral.
    General Caslen.

      STATEMENT OF BRIGADIER GENERAL ROBERT L. CASLEN, JR.

    General Caslen. Mr. Chairman and distinguished members of 
the subcommittee, thank you for inviting the U.S. Military 
Academy to discuss the sexual assault prevention and response 
program at West Point. Thank you for the opportunity to testify 
before this subcommittee to highlight the study recommendations 
from the Defense Task Force Report and our subsequent efforts 
to address sexual assault and violence against women at West 
Point.
    We also would like to thank the first panel, and in 
particular Ms. Davis, and recognize her courage and acknowledge 
each of their efforts in changing a culture that will not only 
affect our service academies but also our services at large.
    Many personnel at the Academy have worked very hard with 
the task force during the year it conducted its data 
collection, its analysis, and published its report. The task 
force found the academies have been actively addressing these 
issues prior to their assessment and applauded our efforts. In 
addition, a recent Department of the Army IG inspection on our 
program applauded the efforts made thus far in implementing the 
sexual assault response program, and their final summary 
highlighted the West Point program as a model for the Army at 
large.
    The U.S. Military Academy revised policy now states that 
sexual assault is a leadership issue and is inconsistent with 
the concepts of officership and leadership and contrary to the 
good order, discipline, and values of the Army. Leaders of good 
character do not commit sexual assault. They do not, under any 
circumstance, tolerate sexual assault by superiors, peers, or 
subordinates. Academy leaders will continue to take ownership 
of this issue and make every effort to support the Army's 
initiative to eliminate sexual assault.
    Respect and dignity for all are inherent in the Army's 
Warrior Ethos, where our Soldier's Creed states, ``I am a 
member of a team, mission first, never accept defeat, never 
quit, and never leave a fallen comrade. I am disciplined, I am 
professional.'' Sexual harassment, sexual assault, and violence 
against women have no case in that non-negotiable contract of 
who we are and what we stand for as a profession of arms.
    In the 1-year since the release of the DOD Task Force 
Report we have developed action plans and, based on the 44 
recommendations, we have developed 107 actions to improve our 
overall program. Of these, 78 are green, 29 are amber, and none 
are red. Additionally, we have identified 53 actions that, 
although currently green, they require continuous or periodic 
review.
    The first question asked us to address are plans for 
increasing the number and visibility of female officers in key 
positions. We have increased the numbers and visibility of 
female officers by increasing from 8 to 20 percent the women 
selected in our advanced schooling programs. We have increased 
14 percent the number of women in our tactical department. We 
have selected seven women for senior faculty positions, to 
include a department head and a permanent professor, selected 
women for cadet leadership details from 10 to 16 percent. We 
have assigned two female chaplains, women in military and 
civilian counselors, women doctors and coaches, and two sexual 
assault response coordinators, one for the installation staff 
and one for the corps of cadets, and also two advisors, one for 
the office of the dean and one for the intercollegiate athletic 
office.
    In order to increase visibility of women war fighters, 
women are included in all lecture series which bring combat 
veterans with recent tours in Iraq and afghanistan back to the 
Academy to highlight their experiences.
    The subcommittee also requested we address the type of 
training we are providing to our cadets regarding sexual 
harassment. The cadet leader development system is our process 
for continuing that tradition as we develop tough, competent, 
confident leaders for the Army. This program develops the 
attributes needed in future Army leaders and includes over 70 
hours of respect training, which covers sexual assault, sexual 
harassment, and gender discrimination.
    This past year we revamped the cadet lecture series, making 
the sessions during academic hours, bringing in new speakers, 
incorporating new material obtained from national sexual 
assault resource centers. Highlights included outstanding 
performances by Veraunda Jackson, a rape survivor, and Tony 
Porter, head of a men's group to stop violence against women, 
both nationally known advocates for sexual assault programs.
    Academic directors made changes to core curriculum courses 
which included course objectives on human sexuality, the impact 
of sex roles on behavior, rape myths, communications in sexual 
relationships, officer counseling to emphasize building 
strategies to combat sexual harassment and assault in units, 
Uniform Code of Military Justice definitions of sexual 
harassment and assault and rape, and why voluntary intoxication 
fails as a defense to rape and gender discrimination in the 
context of equal protection. Course material is tested during 
the term and again on the final exam.
    I have further details on the third, the fourth, and the 
fifth questions, sir, but I am going to leave those for the 
record in order to keep us on time.
    In my concluding comments I would like to mention a little 
bit about where we are on our amber programs quickly.
    Our amber actions include our requirement to address cadet 
responsibilities, accountability, and maturity in the changing 
Academy culture category. We are doing this with our social 
maturation plan and we are integrating it into our cadet leader 
development system. The social maturation plan is designated to 
teach cadets personal and leader accountability in social 
settings. We want to get them through puberty as quickly as we 
can.
    Other key amber items we are working include continuing to 
increase the number of women on the staff and faculty in the 
corps, ensure female representation in all training positions 
out there at Camp Buckner where we do our Cadet field training 
for both the cadets and cadre, reviewing our Academy policy 
that establishes appropriate consequences for harassment and 
gender discrimination, updating victim/witness liaison training 
programs, assessing recently implemented academic course 
revisions, and obtaining approval in order to publish our 
recently updated West Point sexual assault response policy, the 
West Point Experience Handbook, and a memorandum of 
understanding with our Orange County Rape Crisis Center.
    We feel it is important to work with and share our best 
practices with our sister academies and we look forward to 
providing possible assistance to the task force and to the 
services at large based on our own experiences.
    Our current emphasis has shifted from awareness to 
prevention, developing a culture in which sexual assault and 
sexual harassment are unacceptable. All leaders at the Academy 
are aggressively pursuing actions to better educate our 
community academy ensure we can eliminate the behaviors that 
may lead to assault or harassment in our workplace.
    The militaries goal remains steadfast: to produce leaders 
of character for our Nation.
    Sir, again the Academy thanks the subcommittee and the 
Congress for its longstanding commitment to and substantial 
support for the U.S. Military Academy.
    [The prepared statement of General Caslen follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.098
    
    [GRAPHIC] [TIFF OMITTED] 33682.099
    
    [GRAPHIC] [TIFF OMITTED] 33682.100
    
    [GRAPHIC] [TIFF OMITTED] 33682.101
    
    [GRAPHIC] [TIFF OMITTED] 33682.102
    
    [GRAPHIC] [TIFF OMITTED] 33682.103
    
    [GRAPHIC] [TIFF OMITTED] 33682.104
    
    [GRAPHIC] [TIFF OMITTED] 33682.105
    
    [GRAPHIC] [TIFF OMITTED] 33682.106
    
    [GRAPHIC] [TIFF OMITTED] 33682.107
    
    Mr. Shays. Thank you, General.
    General Desjardins.

       STATEMENT OF BRIGADIER GENERAL SUSAN Y. DESJARDINS

    General Desjardins. Mr. Chairman, distinguished members of 
the subcommittee, thank you for the opportunity to discuss the 
progress we have made at the Air Force Academy in preventing 
and responding to sexual assault and violence against women. I 
would also like to thank the previous panel, in particular Ms. 
Beth Davis for her courage and for her articulate and moving 
testimony.
    We have studied the 2005 report of the Defense task force 
on Sexual Harassment and Violence at the Military Service 
Academies and we believe we are responding to its concerns. The 
Air Force Academy has come a long way in addressing sexual 
assault and violence since the events of 2003 and before. We 
have changed and institutionalized processes that makes victim 
care our first priority. In 2003 we established the Academy 
Response Team composed of victim advocate, the sexual assault 
response coordinator, OSI, and the JAG, under the supervision 
of the training wing vice commander, providing dedicated 
assistance to victims of sexual assault.
    We strongly supported the confidential reporting option to 
allow victims to come forward and receive care without 
automatically triggering a law enforcement investigation, while 
maintaining that option for them.
    We made significant progress but we know and understand the 
challenge remains to keep the focus on this national problem of 
sexual assault as it affects the Air Force Academy and to 
continue our journey for long-term cultural change.
    America demands its Air Force and its Air Force leaders 
adhere to the highest standards of conduct; task force, we have 
refocused our efforts on building leaders of character that 
reach and exceed these higher standards.
    Our efforts to combat sexual assault fall into three broad 
areas I will briefly review for the subcommittee: prevention, 
cultural change, and victim care. I will also summarize our 
progress in these areas and highlight the challenge that 
remains.
    Prevention. In order to prevent sexual assault we first had 
to understand sexual assault as a continuum of inappropriate 
behaviors ranging from sexual harassment to physical sexual 
violence that are contrary to the concepts of honor in service 
that we in the Air Force have embraced through our core values: 
integrity first, service before self, and excellence in all we 
do.
    Through consultations with nationally renowned experts such 
as Dr. David Lisak of the University of Massachusetts in 
Boston, the Air Force Academy began to understand better the 
nature of these crimes and to educate all Academy personnel, 
cadets and permanent party, on a standard definition of sexual 
assault, on the means by which the most egregious sexual 
assaults occur, and on insights into the methods for the 
community to prevent all sexual assaults. These prevention 
efforts are some of the steps we have taken to effect cultural 
change.
    Long-term, institutional change to enhance prevention will 
be based on making cultural changes through education and 
institutionalizing positive behaviors, including respect. 
Respect for self and others is at the core of our cultural 
change.
    Our graduated approach devotes over 150 structured 
curriculum hours to character and leadership development. More 
than 55 of these hours are devoted to lessons with respect as 
the baseline on topics such as substance abuse, accountability, 
and human relations, including sexual assault and sexual 
harassment training.
    This education supports the basic premise that 
interpersonal bonds are not forced in times of war; rather, 
they are formed according to the strength of the relationship 
experienced prior to combat. Our education and training 
programs focus on helping cadets internalize and respect their 
identity and that of their fellow cadets as members of our U.S. 
Air Force, while also equipping our permanent party members to 
mentor cadets throughout their time at the Academy.
    Victim care. If sexual assault does occur, the need for 
victim care is our first priority. The Academy's sexual assault 
response coordinator, working with the Academy response team, 
provides immediate and long-term assistance and ensures victims 
receive appropriate physical and emotional care for as long as 
needed. We also initiated small group education and training 
lessons for cadets and permanent party on the means to report 
sexual assault and receive care. These lessons are largely 
provided by a small cadre of hand picked instructors to ensure 
consistency of our message, explaining the victim focus of our 
response is to maximize the care available to a victim while 
keeping options open for prosecution of perpetrators.
    Through agreements with local helping agencies we provide a 
wide range of services to ensure confidentiality and 
preservation of evidence so victims will be encouraged to 
report these crimes so that perpetrators will be held 
accountable once the victim has recovered to the point of 
opening a criminal investigation.
    Equipping every cadet in the Academy's permanent party with 
the tools and knowledge regarding our network of integrated 
professionals who are devoted to preventing and responding to 
sexual assaults has enhanced victim trust and confidence, as 
evidenced by the willingness of those assaulted to seek 
medical, legal, and emotional support.
    We had a handful of restricted reports filed with our 
sexual assault response coordinator during the academic year 
2005-2006. This is good news as an indicator of trust and 
confidence in our reporting system and the treatment of victims 
as a first priority.
    The willingness to report is supported by anonymous survey 
data collected by the Defense Manpower Data Center annually in 
compliance with the National Defense Authorization Act for 
fiscal year 2004. Since 2003, we have seen a marked decline in 
sexual assault allegations with a cadet/victim reporting rate 
of almost 36 percent in 2004, which was nearly double the rate 
from the 2003 rate of 18.6 percent.
    For 2005, the DMDC survey was modified, but 44 percent of 
women cadets that identified themselves as having experienced a 
sexual assault since 2004 responded that they discussed or 
reported the assault to some authority, individual, or 
organization. These rates point to program success in terms of 
an increasing willingness to seek assistance when sexually 
assaulted. This is both good news and part of the challenge 
that remains.
    Our sexual assault education and training programs have 
made a difference in our impact in the climate and culture of 
the Air Force Academy. The incoming class of 2010 has 277 
women, the largest number of women ever entering the Academy in 
a single class and the largest percentage of women for any 
class. Clearly, the parents of the class of 2010 feel that the 
Academy is a safe place to send their sons and daughters.
    But we know that more needs to be done so we continue to 
refine our lesson plans, processes, and programs, employ the 
best guest speakers to discuss sexual assault with our cadets 
early and often, train and equip our staff to focus first on 
victims while preserving the victims' options for future 
action, and continue to educate everyone on sexual assault as a 
national issue. We will also continue to stress that your Air 
Force and your Air Force Academy have zero tolerance for sexual 
assault. Sexual assault is a crime, one we will not condone, 
enable, or overlook. We will continue our efforts of cultural 
change to embed the overarching concept of respect for each 
other and to each and every member of the Academy.
    America has entrusted its finest sons and daughters to the 
Air Force Academy. They are proud to wear the cadet uniform, 
and they cannot wait to help defend our Nation by joining the 
operational Air Force after graduation.
    This year we graduated the first class of cadets that 
volunteered for the Academy after the terrorist attacks of 
September 11th. Each and every member of the Class of 2006 knew 
when they sought admission to the Academy that they were 
volunteering for military service during wartime. Every class 
that has entered since then has knowingly volunteered for the 
same responsibility. The Academy will mold these men and women 
into leaders of character that America demands, especially 
during war time. We know we can count on Congress' assistance 
in this important task.
    Thank you again for the opportunity to maintain attention 
on the sexual assault prevention and response at the U.S. Air 
Force Academy.
    [The prepared statement of General Desjardins follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.108
    
    [GRAPHIC] [TIFF OMITTED] 33682.109
    
    [GRAPHIC] [TIFF OMITTED] 33682.110
    
    [GRAPHIC] [TIFF OMITTED] 33682.111
    
    [GRAPHIC] [TIFF OMITTED] 33682.112
    
    [GRAPHIC] [TIFF OMITTED] 33682.113
    
    Mr. Shays. Thank you, General.
    Before recognizing you, Rear Admiral Higgins, I just want 
to say that the catalyst for this hearing was a briefing I had 
in which a former cadet at the Coast Guard Academy, Ms. Katelyn 
Stopper, made testimony that certainly caught our interest, and 
that is why we are having this hearing today, and we thank her 
for that.
    At this time we would recognize you, Rear Admiral.

           STATEMENT OF REAR ADMIRAL PAUL J. HIGGINS

    Admiral Higgins. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee, and thank you to our 
distinguished witnesses from both panels. I am heartened by 
this subcommittee's interest in this important subject and 
grateful for the opportunity to appear before you today to 
discuss what the Coast Guard and the Coast Guard Academy are 
doing to thwart sexual harassment, abuse, and violence.
    Today at the Coast Guard Academy 28 percent of the Academy 
cadets are women and 28 percent of the staff of over 500 are 
also women. The newly reported Commandant of Cadets, Captain 
Judith Keene, is a 1981 graduate of the U.S. Coast Guard 
Academy and the first female to hold this esteemed position. 
Many female officers and senior enlisted members are currently 
serving in senior leadership positions at the Academy, as well.
    Despite that critical mass, we have had nine reports of 
sexual assault or harassment since the year 2000 at the Coast 
Guard Academy. We are currently holding a court martial of a 
Coast Guard cadet for allegations of sexual assault. Since that 
case is not resolved, it is inappropriate for me to discuss 
that case further.
    The class of 2010, which reports aboard next Monday, will 
attend 12 value training sessions during Swab Summer. The goal 
of this training is to instill the Coast Guard's core value of 
honor, respect, and devotion to duty in each newly reported 
cadet. Within this framework are training sessions on sexual 
harassment prevention, sexual assault prevention, diversity, 
human relations, substance abuse prevention, the Uniform Code 
of Military Justice, and human relations and civil rights. This 
training continues throughout the 4-years as a cadet at the 
Coast Guard Academy and annually thereafter as a Coast Guard 
active duty member.
    The Coast Guard Academy adopted its own distinct sexual 
assault policy predating the June 2005, Defense Task Force 
Report on Sexual Harassment and Violence in the Military 
Academies. The policy provided clear guidance and procedures to 
ensure our primary goal: that victims receive appropriate 
mental and physical health care in a timely manner, in addition 
to providing crucial victim empowerment by allowing a victim to 
report sexual assault either confidentially or non-
confidentially, a feature subsequently recommended by the task 
force and now known as ``restricted reporting.'' All 
unrestricted reports initiate an immediate investigation by 
trained Coast Guard investigative service agents. Our policy 
has since been upgraded to align with the task force report.
    In summary, the Coast Guard strives to employ a diverse 
work force by maintaining a workplace that is one of inclusion, 
free of violence, discrimination, or harassment of any kind. 
Through constant monitoring of and improvements to the cadet 
environment, we will enable ourselves to continue to attract 
America's best and brightest young men and women to our 
Academy, where they will train to be the future leaders of the 
U.S. Coast Guard.
    Thank you for this opportunity to testify before you today. 
I ask that my written statement be admitted to the record, and 
I will be happy to answer any questions you may have, Mr. 
Chairman, and to the other distinguished subcommittee members.
    I would like to say that Ms. Katelyn Stopper and her mom I 
believe are here in the room. I talked to her earlier this 
evening.
    [The prepared statement of Admiral Higgins follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.114
    
    [GRAPHIC] [TIFF OMITTED] 33682.115
    
    [GRAPHIC] [TIFF OMITTED] 33682.116
    
    [GRAPHIC] [TIFF OMITTED] 33682.117
    
    Mr. Shays. Thank you. Thank you for your testimony.
    I am going to go to Mr. Marchant, who is the vice chairman 
of the subcommittee. I am just going to say what I will be 
looking for is connecting what is, for me, a theory of how it 
works to the reality of what we heard earlier. And I am going 
to be asking you to relate what you heard, particularly from 
Ms. Davis, as to why that could have happened in the past and 
why it wouldn't happen today. And if you tell me it couldn't 
happen in the past, then we are on a total different wave 
length. And then I have to know why it won't happen today.
    Then I will want to know--I am just giving you a chance to 
think about this--I will want to know what does a person like 
her have as any recourse in terms of potentially coming back, 
of potentially making sure that she has no financial 
liabilities, and so on. I need you to connect your statements 
to what I think is the real world.
    I want to acknowledge that you put your lives on the line 
for our country, and I have tremendous respect for your 
service. General Caslen, I have a sense that you probably 
served in Iraq and Afghanistan, one or both?
    General Caslen. Afghanistan, sir.
    Mr. Shays. Well, thank you for your service.
    General Caslen. Yes, sir.
    Mr. Shays. I know this is not necessarily a comfortable 
experience for all of you to deal with this issue, but it is 
very important.
    I am taking the liberty of the subcommittee a bit, but I 
just know the Code of Conduct that has had some cadets I am 
aware of be kicked out because they left campus without having 
the right or permission to leave. Lying has sent them packing. 
So when I hear about these other events dealing with sexual 
harassment it just strikes me that somehow the code just 
disappears, and I need someone to explain to me why that is the 
case. But that will happen when my turn comes.
    Mr. Marchant, you have the floor.
    Mr. Marchant. Thank you, Mr. Chairman.
    If you would please, for your respective academies, just 
answer the two questions for me, and we will just go down the 
line. First of all, would you explain how a victim's 
accusations would be investigated and processed through your 
Academy today. How would it go from start to finish? And then, 
to the best of your knowledge, how many court martials and/or 
ejections from the Academy have there been since let's say 2000 
as a result of an investigation of a sexual assault?
    Admiral Rempt. Yes, sir, I would be happy to answer that.
    Clearly, any accusation involving a sexual assault is, in 
fact, immediately investigated, given that the victim desires 
to proceed. We will initiate investigations at the NCIS. We 
have three trained people at the Academy that are well trained 
in how to do this in a very sensitive manner. The victim, of 
course, is assigned an advocate to proceed with them through 
the whole process--medical, legal, counseling, etc. So in every 
case that we can we will open an investigation and get to the 
bottom of the facts that are involved.
    With respect to the numbers of cases and what occurred, I 
think it is very important that the subcommittee understand the 
different ramifications and things that can occur here. In the 
past 5 years, if I take that timeframe, we have had 60 
accusations of sexual assault at the Naval Academy.
    Now, if we go through these, of those 60, 41 involved 
midshipmen accused of assault, which means there were another 
19 where midshipmen were not accused but were, in fact, 
victims, so a potential perpetrator or alleged perpetrator from 
outside the Academy. So we then have 41 cases of concern for 
discipline, 60 cases of concern for counseling and care.
    Out of these accusations, only nine were substantiated as 
sexual assaults. That may seem like an astonishing number when 
you look at the number of accusations, but, in fact, 31 were 
investigated by either NCIS or a civilian agency with NCIS 
assistance. Ten of them were not investigated because the 
victim either declined to participate or continue the case 
further.
    There are many reasons for this. It can be it is a friend 
of theirs and they don't want to proceed, they are embarrassed 
by the situation. There are many different reasons. We provide 
them extensive counseling to help them through that decision 
and what is right for them, but it is still a difficult one for 
them.
    Out of these 31 investigations, 2 are still ongoing, 15 
investigations yielded evidence of a range of misconduct other 
than assault. So, in looking at the evidence it turned out it 
was not an assault, it was something else violating Academy 
rules, participating in something prohibited, etc. They were 
handled in the Academy's administrative conduct system.
    Three were sent to an article 32 hearing, which is much 
like a grand jury precursor to going to trial, and were 
determined to have insufficient evidence to proceed further.
    In one case the victim recanted. We know that victims 
recant because they just don't want to deal with the situation, 
so again counseling is appropriate to try to help a victim 
think through what are the circumstances.
    In one investigation the victim declined to participate any 
further. We don't know the reason why they elected to do that.
    Of the nine cases in which the evidence supported sexual 
assault, six midshipmen referred to court martial or civilian 
trial and the remaining three midshipmen referred to the 
Academy's administrative conduct system. There are specific 
reasons for that in each case. Eight of these nine midshipmen 
were separated from the Academy. We still have two cases 
ongoing.
    We strive to establish a climate to encourage reporting of 
sexual harassment and misconduct and assault so we can support 
the victim and we can, in fact, respond to the allegations 
fairly and appropriately. Very important here is protecting the 
confidentiality of the victim, ensuring the rights of the 
accused, and some degree of privacy for both of them.
    Mr. Marchant. Thank you.
    General Caslen. Sir, for the U.S. Military Academy, 
obviously we work on each investigation on whether or not it is 
a restricted investigation, restricted reporting or non-
restricted reporting, and if it is restricted reporting--first, 
let me just say in either case the primary concern is the 
victim and the necessary care that the victim gets. We have the 
whole plethora of support for the entire installation, whether 
it is the chaplain or the health clinic to the hospital to the 
emergency room and to all the different psychologists to 
support for the victim. That is in both cases. That is, I 
think, the primary concern as we enter into this.
    As we go to unrestricted reporting, in an unrestricted case 
we assign a victim assistant who accompanies a victim to CID 
for the investigation, so that person accompanies the victim 
through the entire investigation process and stays with her and 
provides the necessary psychological counseling and other type 
of counseling that she may need or that the victim may need.
    Mr. Marchant. I feel maybe that I didn't state my question 
clearly enough. You have all done a good job of explaining what 
you are doing for the victims. At this point I would like to 
know what the process is for the accused, what process the 
accused goes through other than I know they are investigated, 
but how timely is it. Is it immediate? Is there a set process? 
And do both victim and accused stay in the system?
    General Caslen. I can get you specific dates and timelines 
for the record and a follow-on report.
    Mr. Marchant. That would be fine.
    General Caslen. Being I am kind of new in this sort of 
thing I don't have personal experience at the U.S. Military 
Academy with each one of these, but I do know it follows the 
Uniform Code of Military Justice. The criminal investigation 
division does the investigation and they go through the 
investigation, and then they refer it, as necessary, to the 
commander. And then the commander will then make a decision if 
it requires an article 32 investigation or whether or not, you 
know, whatever disposition he makes, because the gravity of 
some of these article 32 is often the case is followed. Then it 
would go to a court martial or not.
    I do have, though, the statistics from last year. I can 
offer those to you, as well. But I do know that at the U.S. 
Military Academy they follow the Uniform Code of Military 
Justice in the criminal investigation procedures that are 
normally done with CID and article 32 investigations when 
directed by the convening authority.
    Of the 18 cases that the U.S. Military Academy had last 
year, 15 of them went to criminal charges. The three that 
didn't did not go to criminal charges. The 15 that did went 
through the complete process. Of those 15, 3 were unfounded 
because of evidence, which means 12 were disposed of to 
completion. Two ended with court martial, and the other were 
with separation or resignation, all with the agreement of the 
victim, but they went through the entirety of the process, 
itself.
    Mr. Marchant. Thank you.
    General Desjardins. As far as the Academy's response, when 
a victim is sexually assaulted there is one number that we tell 
the cadets to call and notify, and that is 333-SARC, a sexual 
assault response coordinator. That energizes then the Academy 
response team. That is the one number to call and that 
energizes the Academy response team, which is which is composed 
of the OSI, JAG, the victim advocate, as well as a SARC in the 
first tier, and then the next tier involves the chaplain and 
other counselors.
    But then an investigation is open and a cadet is allowed to 
determine whether she or he wants to keep the report 
restricted. In other words, just get the medical care and the 
physical care that they need first, until they get to the point 
where they might want to go unrestricted and have an 
investigation, a law enforcement type investigation completed.
    So that is the initial response. The SARC is notified. And 
we also have other avenues for cadets. This 18 to 22 year old 
group, they are going to talk to their peers before they talk 
to anyone, and so we do have cadets assigned to each squadron 
on a voluntary basis that understand. In fact, they are called 
PEERS, professional education and ethics representatives, that 
understand intimately the process of reporting, and they 
actually encourage and they are available to encourage cadets 
within their squadron of about 100 cadets to the proper 
reporting, what help is available.
    That is what happens on a sexual assault report and that is 
how the Academy response team is energized.
    As far as Academy response team cases, since academic year 
2003 we have had 49, and each of those cases was thoroughly 
investigated. None of them went to a court martial, but all of 
them were investigated fully, and some of them--I don't have 
the exact number--were criminally charged on lesser accounts 
that could be proven. Those are numbers there.
    Mr. Marchant. Thank you.
    Admiral Higgins. We have very similar processes to the 
other academies. We have a group of about 125 cadets called the 
``cadets against sexual assault,'' CASA, who do have 
specialized training to counsel folks. The cadets at the Coast 
Guard Academy can go through the chaplains, medical, through 
CASA, to employee assistance program, or can still use their 
chain of command.
    I can quickly give you the results of the nine. We have one 
ongoing court martial right now that is unresolved, although it 
is my understanding is that this morning at 11 the Defense 
rested. It is now with the panel. We had five sexual assaults, 
most of which were inappropriate touching, and with agreement 
of the victims we had five disenrollments from the Coast Guard 
Academy.
    We had three sexual harassment cases. All received 
administrative punishment, and that is done through the 
commandant of cadets and a group of cadet officers who do that. 
That is since the year 2000, the nine cases that we had. The 
one ongoing court martial, that went to an article 32 and may 
be resolved within a week or so.
    Mr. Marchant. Thank you, Mr. Chairman. And thank you for 
your responses.
    I know that I am out of time, but I would like just one 
followup comment.
    Mr. Shays. You may have that followup comment.
    Mr. Marchant. I would just like to know, and no response 
necessary, if there is a tracking system in place where you 
track the victims that have reported the assaults and tracked 
whether they have stayed in school or they have left.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. He certainly had the time 
to make that comment.
    I am going to call on Mr. Kucinich, but I still feel a 
disconnect from this panel and the previous panel. I just feel 
like we are in two different worlds. To hear, for instance, 
that there is no court martial since 2003 at the Air Force 
Academy is surprising to me.
    Mr. Kucinich.
    Mr. Kucinich. I want to thank the Chair for causing this 
hearing to happen and, once again, you have caused this 
committee to be an important committee for public policy and, 
in particular, on this issue of how the women who serve this 
country in the military academies are treated when it comes to 
being assaulted.
    Now, Brigadier General, I read your testimony very 
carefully and, in light of what my chairman just said, I have 
to tell you it is somewhat surprising to see the extent of 
Former Cadet Davis' testimony and to see the rather discursive 
response to this general issue. Would you like to take a moment 
on behalf of the U.S. Air Force to respond definitively to 
charges that the entire chain of command or a good part of your 
chain of command was involved in trying to discourage this 
woman's rights from being defended?
    General Desjardins. Yes, sir.
    In 1999 Cadet Davis said the sexual assault started and 
then continued on to 2000, 2001, and then when she left for the 
second time, I believe, in 2002. This was brought to light very 
clearly, all of this, in absolute crisis at our Air Force 
Academy in 2003. That is how we all looked at it. I was out in 
the operational Air Force by then, and those of us who are 
graduates--I graduated in 1980 in the first class of women at 
the Air Force Academy--it was total dismay. It was just awful 
to see.
    So in 2003, when this was all brought to light, the Academy 
and the Air Force, the Secretary of the Air Force, responded 
aggressively and, in fact, the Secretary of the Air Force lost 
confidence in the leadership at the Air Force Academy and 
replaced the leadership team with an entire new team from the 
commandant to the training group commander and ultimately a new 
superintendent came in.
    Since that time, which was 2003, in 2005 when the Defense 
Task Force did its report----
    Mr. Kucinich. Were those people replaced or did they 
resign? You mentioned some replacements. Were people replaced 
or did they quit?
    General Desjardins. Sir, I think the superintendent 
actually retired and then they were replaced, the other two 
were replaced. But then there was a full court press on what do 
we do now and how do we respond and how do we change, because 
this absolutely can't continue to happen. This identified a 
problem not only at the Air Force Academy but in the Air Force 
and ultimately in the Department of Defense.
    The crisis turned into an opportunity to make change, and I 
can't overstate how important it is to make this change and 
continue to shine this light. This is not one of these problems 
that will go away. We have to always keep our focus on it. I am 
optimistic that we are making good changes, but we have a long 
way to go. We have a very long way to go.
    Mr. Kucinich. One of the things I thought was very telling 
in the former cadet's testimony was she went to the base 
psychologist, ``As I arrived at the psychologist's office, the 
doctor hung up his phone and declared, `That was your commander 
and he says we need to diagnose you with something that gets 
you sent off base.' '' How long have you been in the chain of 
command over at the U.S. Air Force Academy?
    General Desjardins. Sir, I took command as the commandant 
in December 2005; 6 months.
    Mr. Kucinich. And do you have an entire new chain of 
command?
    General Desjardins. Yes, sir.
    Mr. Kucinich. And are you confident that your chain of 
command would respond appropriately in case of a sexual assault 
on one of your cadets?
    General Desjardins. Yes, sir, I absolutely am. In fact, our 
superintendent, his daughter was in the class of 2003, and so 
he takes it as an absolute personal commitment that every 
sexual assault is thoroughly investigated and the victim care 
is utmost in our minds. I will tell you, sir, I also have a lot 
of confidence in the chain of command below me. All of our 
tactical officers or air officers commanding in charge of each 
one of the squadrons, majors or 04s, are hand selected to be 
good role models for our cadets. They are 20 percent women and 
they come from all specialties across the Air Force. It is a 
very select panel. They have to have a record of success.
    And so above and below me I have the utmost confidence in 
the chain of command at the Air Force Academy to handle 
aggressively and with vigilance the issue of sexual assault.
    Mr. Kucinich. How many psychologists do you have on staff?
    General Desjardins. Sir, we have in the Academy Counseling 
Center four psychologists.
    Mr. Kucinich. And are those individuals free to make their 
own assessment absent the requirements of the higher command?
    General Desjardins. Yes, sir, they are.
    Mr. Kucinich. They are not dictated as far as assessments--
--
    General Desjardins. No, sir.
    Mr. Kucinich [continuing]. To be made?
    General Desjardins. No, sir.
    Mr. Kucinich. I notice in your testimony you pointed with 
pride to the incoming class of 2010, the largest number of 
women ever entering the Academy.
    General Desjardins. Yes, sir.
    Mr. Kucinich. So you have taken even greater responsibility 
now.
    General Desjardins. Absolutely. I do, sir.
    Mr. Kucinich. I would like to thank you.
    I'd like to ask Brigadier General a question, if I may.
    General Caslen. Yes, sir.
    Mr. Kucinich. This question relates to the extent of your 
engagement with local law enforcement. I see that on December 
5, 2005, your testimony was that you had a civilian law 
enforcement working lunch and talking to some local people, and 
that you also provided a briefing for civilian law enforcement 
officers. What is the position of West Point with respect to if 
a rape occurs do you handle it in-house first at this point or 
do you share it with the local law enforcement authorities? And 
is that dependent on your restricted or unrestricted rule?
    General Caslen. Well, sir, as necessary, when local law 
enforcement agencies get involved in a particular case, whether 
it is through reporting or through a service that is provided, 
we are in the process of developing that relationship and 
refining it through a memorandum of understanding on exactly 
how that would be played out and who would do what and how you 
would respect confidentiality when that occurs and so forth and 
so on. The good news is that, as a result of the task force's 
recommendation, it was the impetus for us to gain contact with 
the local authorities and to establish that relationship, teach 
them on what our Army policies are, what our West Point 
policies are, and then establish the lines of communication and 
the procedures for reporting and care as necessary, so----
    Mr. Kucinich. How many women are at West Point now, 
General?
    General Caslen. About 600 or so.
    Mr. Kucinich. That is 600 out of how many cadets?
    General Caslen. I believe 4,400, sir.
    Mr. Kucinich. OK, 4,400. And how long have you been in the 
chain of command?
    General Caslen. Since last week, sir.
    Mr. Kucinich. Welcome.
    General Caslen. Sir, I will tell you, sir, I just went 
through R-day yesterday where our cadets reported, but it was 
really my sixth R-day. I went there, of course, as a plebe, but 
then as an upperclassman in the cadre, twice as a tactical 
officer, the title 10 commander. Last year was No. 5 as a 
parent because my son was a cadet at West Point. He's now an 
upperclass yearling, third classman. And yesterday was No. 6.
    I think last year as a parent gave me the best preparation 
to be the commandant of cadets over any other preparation I had 
because, you know, I have seen my son, who really experienced 
everything of a fourth class year that you could experience, 
whether it is walking on the area or struggling through 
academics or whatever, and it was really helpful to me. It 
brought into my mind's eye the whole relationships that he has, 
because I think he is developing a relationship with a cadet 
girl, as a matter of fact, and we have been around some of 
these girls in some of the social settings, as well, so it has 
been very helpful for me the last year in that regard.
    Mr. Kucinich. Well, you know, Mr. Chairman, I had to step 
away for business on the floor of the House earlier, but during 
the testimony, particularly by former Cadet Davis, I was 
watching you in the back row, General. I was watching your 
face. When you just told me that you took the command a week 
ago, I could see--Mr. Chairman, I could see the concern on the 
General's face. I could see how you responded to what she was 
saying, and your response was not just as a General but you 
seemed to be responding as a parent, as well.
    It was really interesting. I was watching you. I hope what 
that means is that, as you take responsibility for West Point 
in your new responsibilities there as a Commandant, that all of 
the information that we have here and all the testimony that 
has been given and your sense of what is really going on--and 
any of us who have ever had sons or daughters, we understand 
when they get to that age all the complexities that occur. But 
you know now.
    General Caslen. Oh, yes, sir.
    Mr. Kucinich. You know the whole range of things that can 
happen, so what we need here in this House, as my colleague 
Chris Van Hollen said earlier, we need your assurance that 
wherever this sexual harassment or sexual assault exists that 
you are going to make sure that all the way through the ranks 
this is not just pursued but that a culture of respect is 
developed, that cadets will see respect for one another as part 
of their duty, and that young men will see respect for young 
women as part of their duty, and vice versa. I really 
appreciate hearing your personal story there.
    General Caslen. Yes, sir. I firmly believe strategically 
that our military academies embody everything that is right 
with America, and particularly the values, the ethics, and our 
traditions, and as the average American citizen looks at the 
military academies, it is inherent on us, the senior leaders, 
to maintain that responsibility, to maintain those values, and 
in so doing it is our responsibility to pass those values down 
to this next generation to the point where they assume 
ownership of it. When they assume ownership of it, I mean the 
whole line of it, then the culture will begin to change.
    What does it take to change a culture, not only in the 
service academies but even in our services, even in our 
country, itself, and our college campuses? What does it take to 
change that culture? We are going to start at the service 
academies and I think these plans and programs that are now in 
place are the beginning of that. That is why I give credit to 
the courageousness of Ms. Davis and her testimony and what she 
is doing, because a lot of that is the impetus of this change 
that is going to take place.
    Mr. Kucinich. I think the academies would do well to, on 
occasion, invite her in as a speaker to remind people how 
serious this is. I mean, she gave something up. She gave 
something up.
    General Caslen. Yes, sir.
    Mr. Kucinich. I think that we need to find ways of 
recognizing her service.
    I also want to say that, as someone who recommends for 
consideration by the Academy young women in my District, I want 
their parents to know that myself and other Members of Congress 
are vitally concerned about how the young women who are their 
pride and joy----
    General Caslen. Yes, sir.
    Mr. Kucinich [continuing]. Are going to have their safety 
and security assured.
    General Caslen. Yes, sir.
    Mr. Kucinich. Thank you, General.
    General Caslen. Yes, sir.
    Mr. Shays. Before calling on Mr. Platts, I would like to 
say that in my many trips to Iraq I will interact with men and 
women in the service, and you can't help but be impressed with 
both the men and women who serve. But I remember one dialog, 
and I feel very badly that I don't remember her name. She was 
an enlistee, and I asked her if this was her first tour, and 
she said, ``No, sir, it is my second tour.'' And I asked her if 
she had any children, and she said she had one 4 months old and 
2 years old. This was her second tour. And I said, ``You have 
to return safe to your kids.'' She said, ``Sir, I am not 
concerned about returning safely home to my children; I am only 
concerned that they forgive me for leaving them.'' She 
responded by saying but she knew she needed to be here. That 
was the nature. She was in the Army. You don't forget comments 
like that.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I want to first thank each of the witnesses for their 
testimony and add my words of thanks for each of your personal 
service to our Nation. We certainly are a blessed Nation 
because of all who wear the uniform.
    I apologize. I am running late for another commitment but I 
wanted to stay because the disconnect that the chairman 
referenced a number of times, the way it came across to me in 
each of your written testimonies is I believe--and I may have 
missed one here or there--but in the four academy testimonies I 
only find the words ``crime'' or ``criminal conduct'' 
referenced in one of the four. ``Inappropriate behavior,'' 
``irresponsible behavior,'' lots of words about wrongful 
behavior, but only in the Air Force, General Desjardins, I 
believe only in your testimony do I see an open acknowledgement 
for what we are talking about.
    General Desjardins. Yes, sir.
    Mr. Platts. Criminal conduct. I think that is the 
disconnect that we are missing here is, whether it is at a 
military academy or on the streets of America, sexual assault, 
rape is criminal.
    General Caslen, I appreciate you are in this job 1 week and 
clearly you have a belief in doing right by the cadets, but in 
referencing your opening statement you are referencing the 
policy of the institution and you say, ``In general, our policy 
states that sexual assault is a leadership issue.'' I would 
start by changing the way we talk about this and say it is a 
criminal issue. The cadets need to know that it is a sign of 
weakness as a leader to engage in this conduct, but first and 
foremost it is a criminal issue which we will pursue to its 
fullest and throw the book at you. I see that as the disconnect 
here. Let's call it what it is, a crime.
    I think until America began to treat violence against women 
in the home or any place for what it is, a crime, we didn't 
really get serious about it. I would encourage you. I believe I 
am accurate that in three of your four testimonies the word 
``crime'' does not appear. It is about unacceptable behavior. I 
think that is part of the challenge we have.
    I don't doubt and I appreciate the efforts that each of 
your academies are making. I look at this hearing in several 
fashions. One is as a member of this subcommittee in our 
oversight responsibilities, as one who has the privilege of 
nominating courageous and dedicated men and women to the 
academies, and, probably most importantly, as the parent of a 
10-year old and 7 year old. My thoughts as Ms. Davis testified 
were if I was her father I don't know I would have been very 
restrained. I would have been at the Academy door seeking 
justice one way or another, which clearly has not been 
achieved.
    I hope that we can go forward. General Desjardins, your 
statement here referencing the increase of women attending the 
Air Force Academy, which is great to see, but you say clearly 
the parents of the Class of 2010 feel that the Academy is a 
safe place to send their sons and daughters. I would imagine 
that Ms. Davis' parents thought that they were sending their 
daughter to a safe place, as well.
    All of our institutions have a responsibility, and 
especially our military academies. I think we need to be 
careful how we talk about this issue and be frank about it. The 
more frank, the better, especially to those midshipmen and to 
those cadets. They need to know that we are not just talking 
about inappropriate behavior; we are talking about criminal 
conduct.
    I do thank each of you for your efforts. I do come away 
from this hearing with the efforts being made that the 
experiences that Ms. Davis, the horrific experiences that she 
experienced will not be repeated. That, in the end, will be up 
to you and those within your chain of command to ensure it 
never is repeated.
    I believe that we are on the right track, but call it what 
it is, a crime, and treat it for what it is, a crime, and throw 
the book at those individuals who truly are not leaders and not 
deserving to wear the uniform of this Nation.
    I thank each of you.
    I do apologize. I need to run. It is so important. We are 
so grateful for those who are serving, and when we make our 
nominations as an office I just cannot express my gratitude 
enough to the sons and daughters and the parents who are 
sending their loved ones to our academies and knowing what they 
will be going into, especially as I think was referenced in one 
of the testimonies, in a post-September 11th environment where 
we are a Nation at war.
    Again, I thank each of you for your individual service 
throughout your careers. Distinguished careers they are, and we 
are fortunate to now have you in place of authority at these 
academies so we do right by all of our men and women attending 
your academies.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman very much.
    We are going to go to Mrs. Maloney, and then we are going 
to go to Mr. Van Hollen.
    Mrs. Maloney. I would like to thank everyone for their 
testimony and for your service to our country, and I would like 
to focus on the Defense Incident Based Reporting System, which 
I understand has been under development for 18 years; that is 
correct?
    Dr. Whitley. We are developing a Defense case record 
management system which has only been in development for about 
a year.
    Mrs. Maloney. Well, the DIBRS program that was around for a 
long time, the Defense Incident Based Reporting System.
    Dr. Whitley. I am sorry. I don't have an answer for that, 
ma'am.
    Mrs. Maloney. Well, could you get an answer for the 
committee?
    Dr. Whitley. I will get back to you and find out.
    Mrs. Maloney. And could you get us a report on where the 
DIBRS system stands, what success rate it has had, exactly 
where it stands?
    Dr. Whitley. Yes, ma'am.
    Mrs. Maloney. What system are you working on? The sexual 
assault data management system? Is that what you are working 
on?
    Dr. Whitley. We have created a system for sexual assault 
response coordinators to help them manage their caseload and 
track victim care.
    Mrs. Maloney. OK. Could you explain how that system works?
    Dr. Whitley. It is a data base. The only person that has 
access to the entire data would be the sexual assault response 
coordinator in the field. There was nothing in existence----
    Mrs. Maloney. Is the coordinator in what field?
    Dr. Whitley. The installation. The sexual assault response 
coordinator. There is one at every installation.
    Mrs. Maloney. At all of the academies, you mean?
    Dr. Whitley. Yes, by have sexual assault response 
coordinators, and also I am talking about the entire Department 
of Defense.
    Mrs. Maloney. Now, this system will be for all of the 
academies and the entire Department of Defense, so every man 
and woman in the military, if they are assaulted, would be in 
this system?
    Dr. Whitley. Yes, ma'am.
    Mrs. Maloney. So it is program wide. What data is collected 
about the victims in this system?
    Dr. Whitley. Certainly the information about the incident, 
the care that the victim receives. I don't think it specifies 
exactly what care, but it would account for how many times they 
went to counseling, if they sought medical care or had a 
forensic exam. It also does keep up with what is happening to 
the offender, and----
    Mrs. Maloney. So it keeps four elements? Could you break it 
down? Actually, I would like to see the system. I would like to 
see how it is collected. So you have to have the name of the 
person in it, right?
    Dr. Whitley. We do.
    Mrs. Maloney. Can you go exactly through the elements of it 
for the victims? So you have the name?
    Dr. Whitley. And the last four of the Social Security 
number.
    Mrs. Maloney. OK.
    Dr. Whitley. We do not have anything in our data base that 
isn't in another data base. In other words, criminal 
investigative offices have data bases, the medical has their 
data bases. This is an attempt to bring all of that together.
    Mrs. Maloney. Yes.
    Dr. Whitley. And it is a tool so that the SARC can manage 
their caseload.
    Mrs. Maloney. I understand it, but I want to know 
specifically what elements are in. The name, the last four 
digits, then the incident. Is that the time, date, and place?
    Dr. Whitley. Exactly.
    Mrs. Maloney. And then the care that they've gotten.
    Dr. Whitley. Right.
    Mrs. Maloney. And then the counseling they've gotten and 
any forensic exam. So six elements are in it?
    Dr. Whitley. There may be more that I have forgotten. But 
also, because we require the commander to give the victim an 
update, they also keep where they are with the case as far as 
what has happened to the offender.
    Mrs. Maloney. So this is the victim. What elements do you 
keep in for the offenders?
    Dr. Whitley. We do not put anything in the data base such 
as the name of the offender unless they have been prosecuted 
and found guilty.
    Mrs. Maloney. So the name of the offender is not even in 
there?
    Dr. Whitley. Correct. But what we do, because we have to 
give reports to the victim, we require that the victim be given 
reports and updates on the case. We do keep up with that.
    Mrs. Maloney. So you don't keep anything on the offender 
unless the offender is convicted; is that correct?
    Dr. Whitley. Yes, ma'am.
    Mrs. Maloney. So it is zero on the offender. Now, are all 
of the academies sending information to this system now?
    Dr. Whitley. Our system has not gone live yet. We have done 
training. I recently came back. Last week we had a conference 
where we trained over approximately 400 SARCs. We had set up 
computer labs and we gave them hands-on training for the 
system. So no, everyone has not been trained yet. That was a 
train the trainer. The system will go live hopefully in July.
    Mrs. Maloney. It is going to go live in July. Well, let me 
tell you something. Ever since Tailhook, the Women's Caucus has 
been working with the Department of Defense on developing this 
DIBRS system. At other prior testimony a member of the 
Department of Defense said it had been in process for 18 years. 
I would like the background information on DIBRS which we have 
put in legislation repeatedly, and for some reason it just 
never seems to be completed. If you could get back to us, we 
want to see the system exactly.
    Dr. Whitley. Yes, ma'am.
    Mrs. Maloney. If I could ask one question, Mr. Chairman, my 
time is up, but on this to the academies?
    Mr. Shays. You can have more time.
    Dr. Whitley. Can I clarify that DIBRS does track criminal 
activity. The system that I brought up is a system that is a 
tool for the sexual assault response coordinator just to help 
them manage their caseload. There is two entirely different 
systems. But I will get you the background on DIBRS as soon as 
we get back.
    Mrs. Maloney. What I'd like on DIBRS, which we were told 
from the Department of Defense, tracked cases of rape, 
allegations, and sexual violence, and I would like to know 
exactly what the elements are in DIBRS. We have been told by 
the Department of Defense repeatedly by people in charge of it 
that it would be completed by 2007. I'd like to ask the rear 
admiral, is your Academy coordinated with DIBRS on sexual 
assaults at the Academy?
    Admiral Higgins. Ma'am, currently our data is held by the 
Coast Guard Investigative Service. We are aware of DIBRS and we 
are willing to join once it becomes operational, but at this 
time, since we are Department of Homeland Security, not 
Department of Defense, we are not involved in the creation of 
the program.
    Mrs. Maloney. But have they told you what elements you have 
to collect in order to go into DIBRS? Have they given you a 
guideline of what elements are supposed to be collected by your 
Academy to go into the DIBRS system?
    Admiral Higgins. Ma'am, I personally am not familiar with 
that, but I can take that question for the record and we can 
get you an official response back.
    Mrs. Maloney. Thank you.
    Brigadier General, are you aware of the DIBRS system, the 
Defense Incident Based Reporting System?
    General Desjardins. My lawyer behind me is, but I am not 
personally aware. I, again, can get you the information that 
you'd like.
    Mrs. Maloney. Are you processing your information into the 
DIBRS system now?
    General Desjardins. If not the Academy, specifically, it is 
being done at the headquarters Air Force level. So we report to 
the Air Force our statistics and they input it into the DIBRS 
system.
    Mrs. Maloney. OK. So the Air Force Academy is connected to 
the Air Force that goes into the DIBRS system?
    General Desjardins. As far as we know. Yes, ma'am.
    Mrs. Maloney. The Coast Guard, you don't even know if you 
are connected to the DIBRS system?
    Admiral Higgins. Ma'am, my understanding is we use our 
Coast Guard Investigative Service data and we do send our data 
to DOD for inclusion.
    Mrs. Maloney. You send your data, too?
    Admiral Higgins. We send our data, but it comes from our 
source that we collect and hold through our Coast Guard 
Investigative Service.
    Mrs. Maloney. So if you are sending it to DOD, I have to 
assume you are part of the DIBRS system, but get back to me.
    Can you give me, Brigadier General, what elements--when you 
keep a computer system you have specific elements of 
information that goes into it. Does your attorney know the 
exact elements that are going into DIBRS?
    General Desjardins. Yes, ma'am. The case identification 
number, type of report, restricted or unrestricted, victim 
military affiliation, subject military affiliation, the offense 
alleged, and the victim's name. That is masked for restricted 
cases.
    Mrs. Maloney. What information do you give to the DIBRS 
system on the--I will call it the rapist, the offender, the 
alleged rapist?
    General Desjardins. Ma'am, I don't know that and I don't 
have that information.
    Mrs. Maloney. Could you get it?
    General Desjardins. On the accused?
    Mrs. Maloney. Yes, on the accused.
    General Desjardins. I don't have that information, ma'am.
    Mrs. Maloney. Could you get that information back to the 
committee?
    General Desjardins. Yes, ma'am.
    Mrs. Maloney. And exactly how you are connected to this 
system, which I was told was 18 years.
    Brigadier General, you have been busy. I saw you were anti-
terrorism. We appreciate that. Does your attorney know if your 
are connected to the DIBRS system?
    General Caslen. Here's what I know right now, ma'am. Yes, 
we are connected. It is connected through our criminal 
investigation division [CID]. Those are the ones that do the 
investigation, so it is really for the prosecution piece. For 
the sexual assault response coordinator, they are going to 
operate that same information that goes into DIBRS, the same 
data base information that was just laid out for you, but that 
same sort of information will go into the SATF system, which is 
the system----
    Mrs. Maloney. I am interested in the DIBRS system. If you 
could get back to me the elements.
    Vice Admiral, I know my time is up, but I have to ask. Are 
you connected to the DIBRS system?
    Admiral Rempt. We are not directly connected. Our Naval 
criminal Investigative Service [NCIS], collects data on all of 
its cases and I believe they submit to it. We also submit 
personnel incident reports on all the cases that arise.
    Mrs. Maloney. Can you get back to me? So the Navy has 
finished your reporting system?
    Admiral Rempt. We have several different reporting systems.
    Mrs. Maloney. The DIBRS reporting system.
    Admiral Rempt. I don't know that, ma'am. I will have to get 
back to you.
    Mrs. Maloney. I was told that the Naval Academy has not 
participated and is not participating in the system. Could you 
get back to me exactly?
    Admiral Rempt. Certainly.
    Mrs. Maloney. Where it stands?
    Admiral Rempt. Yes.
    Mrs. Maloney. Thank you.
    Mr. Shays. The Chair would recognize Mr. Kucinich. I think 
he has a question.
    Mr. Kucinich. I want to thank Mr. Van Hollen for indulging 
me for a second and thank the Chair.
    Brigadier General----
    Mr. Shays. We have two.
    Mr. Kucinich [continuing]. Actually I was out of the 
building and the thought occurred to me. Maybe the question has 
already been answered, but I just had to come back and ask 
this.
    Mr. Shays. Is this Air Force or----
    Mr. Kucinich. The Air Force, Desjardins.
    Has Cadet Davis' record been expunged?
    General Desjardins. Sir, I don't know that answer. She 
resigned from the Air Force Academy, so----
    Mr. Kucinich. She testified that she had demerits for sex 
in the dorms because the rape took place in the dormitory, 
fraternization because the rapist was an upperclassman, alcohol 
because in a written statement the perpetrator was buying 
alcohol for her under-aged peers. Has that record been 
expunged?
    General Desjardins. Yes, sir. Those things that happen as a 
cadet that are those kinds of cadet actions, if you will, 
fraternization, sex in the dorms, those are cadet incidents, if 
you will. Those don't follow them.
    Mr. Shays. Can I just say that is really an uncomfortable 
answer. The implication is the other way. Sometimes they should 
count. I mean, that is the whole point of this hearing. I am 
sorry to interrupt my colleague, but we have two interests. 
One, we want to move forward, but we do care about Ms. Davis' 
record because she came before this subcommittee and basically 
has been told that she reports rape and now she is blamed for 
having sex in the dorm. Hello? So I thank the gentleman for 
yielding.
    Mr. Kucinich. So then, Mr. Chairman and members of the 
subcommittee, so how is this handled then? How is her record 
handled? If an employer in the future wants to go and inquire 
of the Air Force about her time in the Air Force, what are they 
told?
    General Desjardins. Sir, there are no records. When a cadet 
resigns from the Air Force Academy for such cadet incidents, if 
you will, not crimes but cadet incidents, then their record is 
destroyed.
    Mr. Shays. To be continued, all right? This is unsettling.
    Mr. Kucinich. Thanks, Mr. Chairman. Thank you, members of 
the committee.
    Mr. Shays. The gentleman has the floor, Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman.
    I join my colleagues in thanking all of you for your 
service to our country and for your testimony here today.
    Let me just start where I think Ms. Davis left off, which 
is I think she was clearly of the mind that in her particular 
case she has still not seen any justice, and she also seemed in 
her testimony to be clear that she's not convinced that the 
system has been adequately changed to make sure that those who 
come through it now are adequately protected.
    If I could just begin with you, General Desjardins, with 
respect to Ms. Davis' case and the particular individuals who, 
according to her testimony, clearly failed her and the interest 
of justice--and she named a number of individuals in the 
immediate chain of command--have any of them ever faced any 
question or disciplinary action regarding their failure to 
follow through appropriately with respect to her allegations?
    General Desjardins. Sir, as I stated, this was all brought 
to light in 2003, and the Secretary of the Air Force indicated 
and took action because he had lost confidence in the 
leadership at the Air Force Academy.
    Mr. Van Hollen. Right. Do we know whether any of the 
specific individuals in her case----
    General Desjardins. Sir----
    Mr. Van Hollen [continuing]. In the chain of command----
    General Desjardins. I am not aware of any.
    Mr. Van Hollen. OK. Because I think that the test here, as 
I said earlier, with respect to whether the system is changed 
to respond appropriately is whether it responds when the 
spotlight is not on the system. I mean, after Tailhook and the 
hearings that were held after Tailhook, yes, people were 
disciplined. After 2003 and the publicity that surrounded what 
happened at the Air Force Academy, yes, there was action. I 
guess my question--and I ask all of the members of our panel 
here--do you know of any case where someone in the chain of 
command has been disciplined for their failure to take 
appropriate action, for their failure to make sure that justice 
was served, because in all these cases clearly the testimony 
suggests that there are many instances or have, at least in the 
past 10 years, been many instances where people have dropped 
the ball and been negligent in their duty. And so my question 
is: outside of Tailhook, just as part of the normal day-to-day 
process, are you aware of anybody who has been disciplined for 
failure to protect the interests of the victims of sexual 
assaults or sexual harassment? That is a question for each of 
the members of the panel.
    General Desjardins. Sir, I know that both the Air Force and 
the Department of Defense Investigating General reviewed Cadet 
Davis' case. In no cases but one there were no derelictions 
found. So an internal Department of Defense investigating 
general and the Air Force investigating general looked at Cadet 
Davis' case and in none of these investigations but one was 
there any dereliction of duty found.
    Mr. Van Hollen. OK. I mean, if I could just enter----
    Mr. Shays. On the part of whom, if the gentleman would 
yield, just so we are clear.
    Mr. Van Hollen. Yes.
    Mr. Shays. As to dereliction on the part of the--on the 
attackers or----
    Mr. Van Hollen. On the leadership, the immediate leadership 
of the Air Force Academy at that time.
    Mr. Shays. So you are speaking code? In other words, the 
person who raped her was not found to have raped her?
    General Desjardins. No, sir. The chain of command--the 
question was, was there anyone held accountable, was I aware of 
anyone that was held accountable in the Cadet Davis case, and 
there were two investigations, one by the Headquarters Air 
Force Inspector General, one by the Department of Defense 
Inspector General, and only in one case of one leader was any 
dereliction of duty determined or found.
    Mr. Van Hollen. I thank you. With respect to the other 
cases of sexual harassment and assault--and we have heard back 
at the time of the 2005 report, the Task Force Report, that 
listed the number of occasions where there have been 
allegations of sexual assault and sexual harassment--in any of 
those other cases, to your knowledge has anybody been held 
accountable for dereliction of duty in failing to prosecute 
these cases appropriately? I would just go right down the line 
if we could begin with you, Rear Admiral.
    Admiral Higgins. Sir, I am not aware of any cases at the 
Coast Guard Academy. In the last several years there has been 
one case in the field of a supervising officer who did an 
inappropriate investigation, but that was not at the Coast 
Guard Academy.
    General Desjardins. Sir, for the Air Force Academy, no 
derelictions were found except the one mentioned.
    Mr. Van Hollen. Thank you.
    General Caslen. Sir, I am not aware but that is probably 
not appropriate since I haven't been there that long. My folks 
said that they are not aware of any incidents that resulted in 
this, but that is not to say there weren't any. But I can 
clearly state that, not only because of the events of today but 
the events of what has transpired and the policies that the 
institution has now put in place, that type of command climate 
is not an acceptable command climate. This is a policy that is 
clear is a zero tolerance policy with regard to this, so that 
type of behavior occurs, you can trust that I believe I speak 
for all my colleagues at the table here that our leadership 
will take action as a result of that, and I know we will at the 
U.S. Military Academy.
    Mr. Van Hollen. Thank you. I appreciate that.
    Admiral Rempt. Sir, I have not had to discipline anyone for 
failure to act responsibly in this area. In fact, my 
observation is I have a highly motivated staff who work this 
issue with great heart and compassion and determination.
    The commandant and I routinely review the judgment of 
junior officers to ensure consistency in the maintenance of 
standards at the Academy, and certainly in this area where 
there is misconduct or harassment occurs.
    In the area of harassment, I have, in fact, disciplined a 
senior officer, faculty members, others, as well.
    Mr. Van Hollen. For harassment, itself?
    Admiral Rempt. For harassment. That is correct, sir.
    Mr. Van Hollen. Thank you. I think that as I listened to 
Ms. Davis and the testimony that others have given in this 
area, they are looking for a sort of signal on behalf of the 
institutions that dereliction of duty and failure to adequately 
and appropriately address these issues will be addressed 
appropriately, beyond just the individuals who committed the 
crimes or committed sexual harassment. I appreciate the 
commitment here everybody has, but I think the numbers from the 
past at least suggest that in the past this has not been dealt 
with in any really serious fashion, so we look forward to going 
forward with a change of attitude. I appreciate your testimony 
in that regard.
    If I could just ask with respect to the line of questioning 
that my colleague Mr. Platts was pursuing, you do get, 
throughout this whole area, a sense that this has been treated 
in the academies somewhat as a violation of regulations and 
rules rather than a violation of the criminal law. I guess 
would you object if we ended up handling this as a normal 
criminal procedure? For example, if somebody in one of your 
academies calls the local police to report a sexual assault, do 
you have an objection to the local police coming onto one of 
the service academies and investigating it like they would any 
other citizen of the United States in a similar situation?
    Admiral Rempt. We certainly have had a number of cases 
where we have jointly investigated them with the local police, 
county sheriff, D.C. police, etc., so we have MOUs in place. We 
do a number of joint things together in that regard.
    I think what is important here, sir, is that typically the 
sexual assault cases that are reported reflect what are really 
national characters of alleged sexual assault cases. They are 
perpetrated against an acquisition and they involve two people, 
normally behind closed doors with no witnesses, and they often 
involve the use of alcohol. Because of these factors they 
impact the availability of evidence that is necessary to prove 
that an offense occurred when they are taken to military or 
civilian court. It is frustrating to us in that we frequently 
are unable to develop evidence. But, of course, that is not our 
task. Our task is to evaluate the evidence that is, in fact, 
developed.
    In these courts, the standard of proof is beyond a 
reasonable doubt, which is a purposefully very high 
constitutional standard. That is why so few of these 
accusations result in sufficient evidence to take the matter to 
military or civilian court.
    What we see at the Naval Academy in the cases that we have 
are one-night stands and failed relationships or failing 
relationships and alcohol-fueled events. Our circumstances are 
such that we certainly, in my experience there thus far, I have 
not seen the level of cases that we were talking about earlier. 
So I agree that we should call crimes crimes and criminal cases 
criminal cases, but, as it turns out, in the majority of these 
cases it is very, very difficult to come to that conclusion.
    Mr. Van Hollen. I understand that, Admiral, but I think our 
normal criminal justice system every day has to address these 
same kind of issues----
    Admiral Rempt. Right.
    Mr. Van Hollen [continuing]. Every day through our criminal 
courts, and the question is: why should they be addressed any 
differently with respect to these kind of allegations that 
happen with respect to actions taken on the service academy 
campus? I'd be interested in the policy with respect to each of 
the service academies. If something happens, if someone on 
campus, if Ms. Davis was to have picked up the phone and called 
the police to report a sexual assault on the service academy 
campus, are the local police welcome to come on the campus----
    Admiral Rempt. Yes, sir.
    Mr. Van Hollen [continuing]. Investigate the crime in the 
normal course and prosecute that individual in the local court 
system?
    Admiral Rempt. They are certainly welcome to do that. We 
would probably assist them, work together as a team, but we 
would have no problem with that. It is straightforward. We have 
an agreement in place to do exactly that.
    Mr. Van Hollen. They can come right on campus and do that?
    Admiral Rempt. Yes. Let me make one other point on this. In 
a recent case that was handled by the D.C. Police, ended up 
going to the prosecuting attorney in the District of Columbia, 
they ended up turning it down for lack of evidence. They didn't 
want to proceed with the case. We took the case back to the 
Academy and that is one of our court martial cases that we are 
currently proceeding with. So what we try to do is find the 
best way to proceed that we can in all of these cases, 
realizing that one of our primary responsibilities is to 
protect the rights of the accused, and that is very important 
to us.
    Mr. Van Hollen. I understand.
    General Caslen. Sir, thank you for the question. Actually, 
I really like Mr. Platts' suggestion when he told us that 
sexual assault is a leadership issue. He challenged that and 
said that sexual assault was a criminal issue that would be 
prosecuted to its fullest. I think that is a fair suggestion 
and we will take that back and we will have our lawyers and our 
policy people review it. I think there is some goodness in that 
we should incorporate that and communicate strategically out to 
our corps.
    As I say, we are developing the memorandum of understanding 
that we will work with the local authorities and what that 
looks like.
    Our cadets are under the Uniform Code of Military Justice, 
and as such when a criminal offense occurs they should be 
prosecuted under the Uniform Code of Military Justice. Having 
said that, we have worked on a couple of occasions with local 
authorities or even not local authorities, for example, the 
Miami Police, Washington, DC, Police, and the New York City 
Police, for crimes that were committed in their jurisdiction. 
We work with them.
    Mr. Van Hollen. I understand. I am specifically referring 
to crimes committed or allegations made with respect to things 
that happened on the facilities and campus of the Academy and 
whether or not you would be willing to have the local police 
investigate and prosecute those cases in the normal course.
    General Caslen. I think what I should get you is a copy of 
the current memorandum of understanding so that it will lay the 
specifics out so I won't speak out of turn for what they are, 
but personally I would say I think that is a fair suggestion, 
even the one that you are suggesting, and that we ought to take 
that into consideration. But let me offer for the record the 
full MOU and what it states.
    Mr. Van Hollen. I would appreciate that. Thank you.
    General Desjardins. Sir, the Air Force would have no 
objection; however, in the past the local community often 
defers to the Air Force because we can do an investigation a 
little bit more quickly, more swiftly, and a more complete 
investigation. By conducting our own investigation--and, again, 
we work on a case-by-case basis with the circumstances of the 
particular incident--but by conducting our own investigation in 
courts it gives a big sign to the victims that we consider this 
a crime.
    Mr. Van Hollen. Thank you.
    Admiral Higgins. Sir, I would like to take that question 
for the record, but I will say that the local authorities in 
New London, CT, work with the Coast Guard Investigative 
Service. I do not believe that the New London Authorities would 
come on to the Coast Guard Academy without discussing with CGIS 
first. An article 32 is like a grand jury, and that can be the 
convening authority, could be a civilian police department or 
the Coast Guard Investigative Service. But I would like to give 
your question an answer for the record on that.
    Mr. Van Hollen. I appreciate that.
    I will just close with this, Mr. Chairman. I think that the 
testimony we heard from Ms. Davis was clearly indicated that 
there was not confidence in the system through the regular 
chain of command to prosecute and fully investigate these 
issues. So if the academies would at least allow as an 
alternative the local authorities, who are obviously not in the 
chain of command, who would be hopefully not part of whatever 
pressures may or may not exist within that chain of command, it 
seems to me that might instill greater confidence in the 
process if that was an option available to people. So I 
appreciate the responses we have gotten. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the questions of the subcommittee 
members. I am pretty convinced that we have a huge problem that 
is underneath the surface and that the fact that no one really 
sees the incredible outrage of a young woman who basically was 
raped and testified she's raped, asks for help, discloses that 
she was raped in a dorm where liquor was involved, and she's 
out and the person who raped her is still in and progressing 
through the system, to hear all of you congratulate her for her 
courage, but courage is one of the things she should be 
congratulated for, but what she basically said was there was, 
particularly at the Air Force Academy, a huge tolerance.
    To have been told by her fellow cadet women that you will 
probably be raped, but you can't talk about it because you will 
lose your commission, and she ends up talking about it finally 
and loses her opportunity to have a commission, somehow we are 
just like ships passing in the night here.
    I was waiting for someone in the Air Force Academy to say, 
``You know what? We want this young lady back. With courage 
like that, we want her back.'' Then give her the opportunity to 
say no thank you, but say, ``We want you back. You are the kind 
of person we want in the Academy.'' I would have loved to have 
seen that.
    This subcommittee has two objectives: one, to make a 
difference in what happened and to investigate potential cases 
like Ms. Davis and make sure that she is made whole. I have 
religion on that.
    I will start with you, Dr. Whitley. I have no confidence in 
DOD for the simple fact that we had this, the Defense Task 
Force on Sexual Harassment and Violence. They did their job, 
but Public Law 108-375, subtitle K, Sexual Assault in the Armed 
Forces, made it very clear this would be the first, and then 
what was to happen after, Ms. Whitley?
    Dr. Whitley. There is supposed to be another task force as 
a transition from that one to examine sexual assault in the 
military services.
    Mr. Shays. And when did they complete this work?
    Dr. Whitley. Almost a year ago.
    Mr. Shays. Almost a year ago. Some time in the fall, 
correct?
    Dr. Whitley. Right.
    Mr. Shays. Almost a year. So why should I have confidence 
that the Department of Defense takes this seriously when the 
law requires you, the Department of Defense, to have a task 
force on sexual harassment and violence in the military, why 
should I take seriously any of this dialog when that hasn't 
occurred?
    Dr. Whitley. I can tell you, sir, the infrastructure is in 
place. They have a staff. The staff has been doing data calls 
and collecting data, doing research. I don't know a lot about 
how the selection process is going, because it would be a 
conflict of interest for me because----
    Mr. Shays. Let me just tell you, though, the law said that 
this had to be completed, but it didn't say they had to start 
to find people afterwards. They could have been ready to go as 
soon as this report had been submitted if the Department of 
Defense was serious, but the Department of Defense can't be 
serious because if they were they would have done this. So I 
believe that DOD is just simply giving us a very real message, 
``It ain't a priority.'' That is what I get.
    Dr. Whitley. Well, if I could take the opportunity to just 
go over the chronology of how things have happened since that--
--
    Mr. Shays. No, I don't want you to. I want you to tell me 
why this hasn't been done.
    Dr. Whitley. I know the decisions on who will be on that 
task force is being considered at the highest levels of my 
leadership and they are taking their time to make sure they 
find the right people and it is not an easy process.
    Mr. Shays. Yes, it is. Yes, it is. That is silly. They've 
have 2 years, because the law was written and passed October 
28, 2004. That is embarrassing to say, you know, they haven't 
had time. They don't take it seriously.
    Dr. Whitley. I will take that back to my leadership, sir.
    Mr. Shays. What this subcommittee is going to do is it is 
going to have another hearing fairly soon. We are going to meet 
with a number of victims privately. We are going to have them 
tell us their story. We are going to have them sign papers that 
allow us to get all the information that we need from the 
academies, and the academies will be required to provide us how 
they have dealt with every case, and there can't be any 
argument that this is confidential because we will have a sign-
off. That is how we are going to proceed.
    I think everybody's heart in theory is in the right place, 
but I don't think there is really a sense of how you all came 
across to me in telling me that you congratulate Ms. Davis for 
her courage. What does that mean? I would like to know, Admiral 
Higgins, what does it mean by congratulating her for her 
courage.
    Admiral Higgins. Well, I think I am not terribly proud 5 
years ago of the Coast Guard's policy or our responses. I think 
recently we have taken it much more seriously. We have better 
policies now. We have better integration with the local system. 
We have better training for our people. But it is going to 
continue to be a problem if we don't get reports. I look 
forward to the day when our number of reports are identical to 
the Miles Foundation, because some of our folks still don't 
feel comfortable coming forward, and until the atmosphere is 
that good--we still need people to come forward. They need to 
tell their difficult stories so we can act on that difficult 
story and make progress. I hope to see the day when our numbers 
are identical to the Miles Foundation, because that means our 
folks trust us as much as they trust the Miles Foundation.
    I think it is important that we do consider these folks as 
heroes and courageous for coming forward. It is very difficult 
for them to do that. Without that suffering, unfortunately, we 
are not going to make as good a progress.
    Mr. Shays. Well, there is a huge disincentive for her to 
come forward. I mean, she's the one who is out, and the one who 
raped her is in. There is a huge irony in that. The fact that 
you can't prove the rape does not mean that the reality is that 
he's in and she's out.
    General Desjardins.
    General Desjardins. Yes, sir, her perpetrator was 
discharged from the Air Force Academy.
    Mr. Shays. Because of that case?
    General Desjardins. Subsequent cases.
    Mr. Shays. Right.
    General Desjardins. Subsequent issues.
    Mr. Shays. Think about it. Not because of her case.
    General Desjardins. Yes, sir.
    Mr. Shays. So she stepped forward. When you said to me and 
to this subcommittee that there is no record because these 
kinds of things are viewed not as significant because they 
happened--whatever, I am assuming because they are college 
kids, and, that was like another disconnect that I had in the 
testimony. The reason why it shouldn't be a record is what? Do 
you believe her? Do you congratulate her on her courage but 
don't believe her? That is what I am missing in here.
    General Desjardins. Sir, I absolutely believe her.
    Mr. Shays. OK.
    General Desjardins. I absolutely believe her and it was 
very painful for me to sit through her testimony, so I 
absolutely believe her.
    Mr. Shays. Thank you. So the fact is she should have no 
record because of why? Because you just get rid of these, or 
because of what? Shouldn't there be a proactive 
acknowledgement? Has there been any acknowledgement to her, not 
publicly but in writing, that these have been dismissed because 
the complaints against her were found the be warrantless?
    General Desjardins. Sir, in fact, we keep in contact with 
Cadet Davis and, in fact, she recently, when we heard about 
this hearing, she spoke with our former vice commandant for 
policy, Colonel Deb Gray.
    Mr. Shays. I understand you have stayed in contact. I want 
to know does she have any document that she can turn to that 
says, ``Thank you for your courage, because there is a 
record.'' You said it, but, ``Thank you for your courage. We 
want you to know that all charges against you were dropped 
because they were without merit, and we apologize that they 
were ever there.'' Is there any kind of letter like that?
    General Desjardins. Sir, what she went through--and, in 
fact, we learned so many lessons from her case. One of the 
things that we have done because of her case and the discipline 
that she was faced with, the discipline action that she was 
faced with while we were investigating the sexual assault is 
now we have a completely different process now.
    Mr. Shays. I understand the impact of her case. I want to 
know has anyone provided her a document like what I described, 
or even, as you describe it now, congratulated her for helping 
to change what takes place at the Air Force Academy? Does she 
have such a document?
    General Desjardins. Sir, I am not aware of any document 
that was given to her.
    Mr. Shays. Maybe you want to think about that.
    General Desjardins. Yes, sir.
    Mr. Shays. Let me just ask, is there anything that any of 
you want to put on the record before we adjourn? Excuse me. Let 
me do this. Let me turn to Mrs. Maloney. Let me then turn to 
have the professional staff ask a question.
    I am going to do this. Mrs. Maloney, this is out of 
protocol. I hope I don't pay the penalty, but I am going to ask 
you to take the chair because I don't want to end this hearing 
and I have to leave, so I am going to ask you to sit here and 
take the Chair.
    Mrs. Maloney [presiding]. Thank you.
    First of all I would like to ask unanimous consent to place 
in the record press reports and testimonials of other women 
that have had experiences similar to Beth Davis. Without 
objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 33682.118
    
    [GRAPHIC] [TIFF OMITTED] 33682.119
    
    [GRAPHIC] [TIFF OMITTED] 33682.120
    
    [GRAPHIC] [TIFF OMITTED] 33682.121
    
    [GRAPHIC] [TIFF OMITTED] 33682.122
    
    [GRAPHIC] [TIFF OMITTED] 33682.123
    
    [GRAPHIC] [TIFF OMITTED] 33682.124
    
    [GRAPHIC] [TIFF OMITTED] 33682.125
    
    [GRAPHIC] [TIFF OMITTED] 33682.126
    
    [GRAPHIC] [TIFF OMITTED] 33682.127
    
    [GRAPHIC] [TIFF OMITTED] 33682.128
    
    [GRAPHIC] [TIFF OMITTED] 33682.129
    
    [GRAPHIC] [TIFF OMITTED] 33682.130
    
    [GRAPHIC] [TIFF OMITTED] 33682.131
    
    [GRAPHIC] [TIFF OMITTED] 33682.132
    
    [GRAPHIC] [TIFF OMITTED] 33682.133
    
    [GRAPHIC] [TIFF OMITTED] 33682.134
    
    [GRAPHIC] [TIFF OMITTED] 33682.135
    
    [GRAPHIC] [TIFF OMITTED] 33682.136
    
    [GRAPHIC] [TIFF OMITTED] 33682.137
    
    [GRAPHIC] [TIFF OMITTED] 33682.138
    
    [GRAPHIC] [TIFF OMITTED] 33682.139
    
    [GRAPHIC] [TIFF OMITTED] 33682.140
    
    [GRAPHIC] [TIFF OMITTED] 33682.141
    
    [GRAPHIC] [TIFF OMITTED] 33682.142
    
    [GRAPHIC] [TIFF OMITTED] 33682.143
    
    [GRAPHIC] [TIFF OMITTED] 33682.144
    
    [GRAPHIC] [TIFF OMITTED] 33682.145
    
    [GRAPHIC] [TIFF OMITTED] 33682.146
    
    [GRAPHIC] [TIFF OMITTED] 33682.147
    
    [GRAPHIC] [TIFF OMITTED] 33682.148
    
    [GRAPHIC] [TIFF OMITTED] 33682.149
    
    [GRAPHIC] [TIFF OMITTED] 33682.150
    
    [GRAPHIC] [TIFF OMITTED] 33682.151
    
    [GRAPHIC] [TIFF OMITTED] 33682.152
    
    [GRAPHIC] [TIFF OMITTED] 33682.153
    
    [GRAPHIC] [TIFF OMITTED] 33682.154
    
    [GRAPHIC] [TIFF OMITTED] 33682.155
    
    [GRAPHIC] [TIFF OMITTED] 33682.156
    
    [GRAPHIC] [TIFF OMITTED] 33682.157
    
    [GRAPHIC] [TIFF OMITTED] 33682.158
    
    [GRAPHIC] [TIFF OMITTED] 33682.159
    
    [GRAPHIC] [TIFF OMITTED] 33682.160
    
    [GRAPHIC] [TIFF OMITTED] 33682.161
    
    [GRAPHIC] [TIFF OMITTED] 33682.162
    
    [GRAPHIC] [TIFF OMITTED] 33682.163
    
    [GRAPHIC] [TIFF OMITTED] 33682.164
    
    [GRAPHIC] [TIFF OMITTED] 33682.165
    
    [GRAPHIC] [TIFF OMITTED] 33682.166
    
    [GRAPHIC] [TIFF OMITTED] 33682.167
    
    [GRAPHIC] [TIFF OMITTED] 33682.168
    
    [GRAPHIC] [TIFF OMITTED] 33682.169
    
    [GRAPHIC] [TIFF OMITTED] 33682.170
    
    [GRAPHIC] [TIFF OMITTED] 33682.171
    
    [GRAPHIC] [TIFF OMITTED] 33682.172
    
    [GRAPHIC] [TIFF OMITTED] 33682.173
    
    [GRAPHIC] [TIFF OMITTED] 33682.174
    
    [GRAPHIC] [TIFF OMITTED] 33682.175
    
    [GRAPHIC] [TIFF OMITTED] 33682.176
    
    [GRAPHIC] [TIFF OMITTED] 33682.177
    
    [GRAPHIC] [TIFF OMITTED] 33682.178
    
    [GRAPHIC] [TIFF OMITTED] 33682.179
    
    [GRAPHIC] [TIFF OMITTED] 33682.180
    
    [GRAPHIC] [TIFF OMITTED] 33682.181
    
    [GRAPHIC] [TIFF OMITTED] 33682.182
    
    [GRAPHIC] [TIFF OMITTED] 33682.183
    
    [GRAPHIC] [TIFF OMITTED] 33682.184
    
    [GRAPHIC] [TIFF OMITTED] 33682.185
    
    [GRAPHIC] [TIFF OMITTED] 33682.186
    
    [GRAPHIC] [TIFF OMITTED] 33682.187
    
    [GRAPHIC] [TIFF OMITTED] 33682.188
    
    [GRAPHIC] [TIFF OMITTED] 33682.189
    
    [GRAPHIC] [TIFF OMITTED] 33682.190
    
    [GRAPHIC] [TIFF OMITTED] 33682.191
    
    [GRAPHIC] [TIFF OMITTED] 33682.192
    
    [GRAPHIC] [TIFF OMITTED] 33682.193
    
    [GRAPHIC] [TIFF OMITTED] 33682.194
    
    Mrs. Maloney. I would also like to place in the record an 
information paper that was given to me by Tom Jones, who is the 
legislative liaison for the Department of Defense. It is on the 
DIBRS system. I keep coming back to it because if you don't 
have a record of what happens, you don't have an understanding 
of the extent of the problem.
    Congress passed legislation in 1988 calling upon the 
Department of Defense to maintain a centralized data base on 
crimes throughout the military and the academies. I am focusing 
in particular on sexual assault, which was the focus of this, 
and the elements that are in the DIBRS system. According to 
this memorandum, the Army is now participating in the DIBRS 
system, and you will be getting back to us the exact elements 
that pertain to it in the academies. The Air Force is up to 
date and participating, and your attorney is going to get back 
to us the exact elements that you are sending to the DIBRS 
system and that are maintained in it. I understand the Navy is 
converting from another system. There will be a little bit of 
time before you get up to it, but you should be up and 
reporting by June 2007, according to this information paper 
from DOD.
    The question that I would ask, I have been told by the 
Department of Defense through a series of task forces and 
meetings that they will have the DIBRS system fully implemented 
by January 1, 2007. Do you believe that this is possible, that 
it can be up and running? I will ask you, Admiral, yes or no.
    Admiral Higgins. I can't answer that question, ma'am. I am 
not familiar enough with the system to say.
    Mrs. Maloney. Brigadier General, it is wonderful to call a 
woman a brigadier general. Congratulations on your career.
    General Desjardins. Thank you, ma'am.
    Mrs. Maloney. Congratulations to all of you.
    General Desjardins. Thank you, ma'am, and yes, ma'am.
    Mrs. Maloney. You will. Do you believe, Brigadier General, 
that this will be----
    General Caslen. Yes, ma'am.
    Mrs. Maloney. And Vice Admiral.
    Admiral Rempt. I don't know enough about the system to 
answer that, ma'am. I will have to give you that for the 
record.
    Mrs. Maloney. Could you get back to us once you check on 
this.
    Admiral Rempt. Yes.
    Mrs. Maloney. What I find incredibly disturbing, on top of 
the personal stories that I have heard, is that a mandate, a 
directive of Congress has been totally ignored by one of the 
most efficient departments in the entire country, maybe the 
entire world, and it goes back to the sentiments of my friend 
here, the chairman, and the gentleman over there that spoke so 
passionately about it. It is a crime and it should be treated 
as a crime.
    We have passed legislation over and over and over again 
asking to keep the data, and for some reason it can't happen. 
Ultimately the Department of Defense is headed by the Secretary 
of Defense. It is his responsibility to make things happen. I 
am considering putting in legislation that if this system is 
not up and operating by January 1, 2007, that we begin to dock 
the pay of the Secretary of Defense. There is absolutely no 
excuse. Congress has written about this, requested it, 
legislated it for 18 years.
    What I find so disturbing, the military has led this 
country on major reforms. I come from a military family. My 
father served in World War II. My brother served in the Army in 
Vietnam. My brother-in-law is a graduate of your great 
institution, the Naval Academy. Some of the finest young people 
in my District ask for appointments to your establishments. 
They turn down some of the finest universities in the country 
to go to the Naval Academy, West Point, the Air Force Academy. 
Why you can't get a culture that respects the rights of every 
individual, that if you are raped your case is going to be 
listened to, is just beyond me.
    I want to go back to the point that my colleague raised on 
having the civilians take more of a roll. As it was explained 
to me by many military leaders, our goal is to win a war. Our 
goal is a line of command. It is very important. But if you are 
not in a war zone, why use your resources on this? Why not let 
the local police department come in and handle allegations of 
sexual assault and let that happen, as opposed to really what 
has turned into a scandal, an absolute recurring scandal?
    The stories, many people are disturbed by the story of Ms. 
Davis today. I have heard stories for 10 years that have come 
into my office that are exactly the same photocopy of what 
she's saying today, and yet the change doesn't happen. Civil 
rights in this country first took place in the military. We led 
the country in civil rights reform. I keep waiting for the 
military to lead the country in equality of rights for men and 
women and basic respect, and I am incredibly disappointed.
    The one thing I totally agree with Secretary Rumsfeld--and 
I don't usually agree with Secretary Rumsfeld--but he said that 
sexual assault in the military would not be tolerated. Well, it 
is hard for me to believe that he really believes that if you 
can't even get the Secretarial data base system that would 
track the depth and challenge of the problem in place. I don't 
doubt for a second if the Department of Defense wanted this to 
happen it would happen tomorrow, because they can make things 
happen and I have seen them make things happen, and I am 
extremely disturbed by the lack of seriousness on this.
    I just want to ask you, basically, why do you feel we 
haven't been able to get a data base system running? Why do you 
feel that we have testimony like we heard today from an 
outstanding young woman who probably could have gone to any 
university in the United States and chose the Air Force 
Academy? You report a crime and you are ostracized? There is 
something wrong with the culture in a community for that to 
happen in the finest institutions in America.
    I would like, starting with you, Brigadier General, you are 
part of the system. You were the first woman in a pretty 
wonderful legacy that your life represents, to be the first 
class in the Air Force Academy, to now head the Air Force 
Academy. Why is this? I am sure you have read the reports on 
the Air Force Academy. I assume that they have never been 
refused, so I assume that they are accurate. How has this 
happened?
    General Desjardins. Ma'am, back in 2003 it was difficult to 
watch, but I think that, having been put in this position now 
and having those events of 2003, I would like to refer to Ms. 
Beth Davis as not a victim but as a change agent. I think that 
we all agree and we are all working very, very hard to correct 
those problems, those issues, to learn from them and really be 
relentless in pursuing, eliminating sexual assault, providing 
care for our victims of sexual assault, and allowing them to 
report where they are not ostracized, where our victims are not 
harassed, where our victims are free to report without getting 
disciplined for other collateral kinds of issues until the 
sexual assault investigation is complete, and continue to 
educate and train and turn this tide.
    We are all, all of the academies, all of the services, this 
came to light in 2003, and we are all incredibly aware now and 
working toward progress.
    Mrs. Maloney. One last question. Do you think we should 
pass a legislation similar to whistleblower protection for 
victims of sexual assault, that they will not be victimized 
further and punished for having reported? We have to do that to 
protect whistleblowers in the Federal Government and in the 
private sector. Do we need to have a law to protect women and 
men who report sexual assault, that they will not be punished 
for having spoken up for their rights?
    General Desjardins. Ma'am, it certainly bears 
consideration.
    Mrs. Maloney. Would anyone like to comment further?
    [No response.]
    Mrs. Maloney. Thank you very much.
    Mr. Shays [presiding]. Thank you all for your patience. We 
are almost done. I will have a question after the professional 
staff.
    Ms. Fiorentino. Thank you, Mr. Chairman. My question for 
Vice Admiral Rodney Rempt, you had mentioned there were 60 
accusations at the Naval Academy and only 9 substantiated as 
sexual assault charges. The question is, you said six were 
referred to a court martial but three were referred for an 
administrative hearing. Why was a substantiated sexual assault 
charge put into an administrative hearing instead of a court 
martial, and how are those administrative hearings handled in 
regards to sexual assault claims and accusations?
    Admiral Rempt. Sure. Each case is, obviously, unique and 
viewed for its facts and the severity and the situation with 
the victim and what is the best thing to do in every case. As I 
mentioned, in nine of the cases--and this is over a period of 
time. I don't have personal knowledge on several of them which 
occurred before I was assigned as superintendent, but over that 
period of time decisions were made in each case as to how to 
proceed. Obviously, our goal is to hold perpetrators 
accountable. We have to follow the legal procedures correctly. 
It is very important that each case be given the light of day 
with respect to the legal process, and we are very careful to 
do that. Those decisions are made very deliberately.
    Ms. Fiorentino. It is still a little unclear about the use 
of an administrative hearing when it has been substantiated as 
sexual assault, charges are legitimate somewhat.
    Admiral Rempt. It may depend on the gravity. The definition 
of sexual assault includes unwanted kissing, unwanted touching. 
It depends on the circumstances that are involved. I think that 
is what you would find if we looked through the record.
    Mr. Shays. What I would like to do is I would like to ask 
each of you how Ms. Davis' case would be handled today, and I 
am going to read some of her testimony.
    She said, ``As has now become known, I was raped and 
assaulted repeatedly my freshman year by a superior cadet in my 
squadron. In a situation where I was blackmailed, degraded, and 
threatened daily, I found myself utterly distraught. In earlier 
sexual assault briefings during my basic cadet training, 
upperclass women cadets informed us that it was very likely 
that we would be raped or sexually assaulted during our time at 
the Academy, and they instructed us that, if we were attacked, 
to not report it to the authorities because it would 
effectively destroy our careers.''
    Well, she was right about that, wasn't she?
    ``Images of those women flashed through my mind and 
deterred me from immediately reporting these crimes to my 
commanding officer. I remembered my pride in getting accepted 
to the Academy and I dreamt of the day I would graduate and fly 
in my jet in defense of my country. I thought that was all I 
needed to survive the grueling physical, military, and academic 
tests and challenges I endured every day. But these dreams 
couldn't carry me through the pain I was suffering at the hands 
of my superior. I began to get sick frequently and developed 
inhibitions and phobias that made the work demand at the 
Academy unbearable. Finally, after realizing that nothing could 
possibly hurt more than the pain I was enduring, then I broke 
down--'' that is an interesting phrase to say I broke down--``I 
broke down and went to the Office of Special Investigations, 
OSI, with my story.''
    I will stop in a second.
    ``The OSI commander sat engrossed as I sopped tears from my 
eyes reciting every wretched detail from the first time months 
after the last incident.''
    This person comes in to you, said, ``I was raped 
repeatedly,'' said, ``I was blackmailed, I was degraded, and 
threatened daily.'' She is obviously very distraught. And she, 
in fact, informs you that her fellow female cadets told her not 
to bring a complaint forward because it would probably mean--
which is exactly what happened to her--that she would be out.
    Now, I want each of you to tell me how now, in your 
academies, what she had to deal with wouldn't have been dealt 
with the way it was.
    I think I will start with you, Admiral.
    Admiral Rempt. Yes, sir, I would be happy to relate. Our 
hope would be that she would come forward, talk to a roommate, 
talk to a savvy guide, one of our peer counselors, and inform 
people, or to our SARC or other individual, and be counseled 
and encouraged to report and assigned an advocate as we proceed 
through the process that will stick with her through the whole 
way.
    Mr. Shays. This is what I am going to say, and this is no 
disrespect to you, Admiral, but as you say this I want you to 
visualize our committee, whether it is Republican or Democrat, 
whether I chair it or whether Mrs. Maloney does, having contact 
with cadets now in the system.
    Admiral Rempt. Right.
    Mr. Shays. This is all going to be a matter of public 
record. Maybe a year or two from now or three there is going to 
be someone who looks exactly what you said, and there is going 
to be a cadet who comes in and said how it actually happened. 
We hope and pray it will be like what it is, but I want you to 
think of that as you are saying this, OK?
    Admiral Rempt. I am actually relating to you the most 
recent cases and how they proceed in the Academy.
    Mr. Shays. Fair enough. Good.
    Admiral Rempt. We would then initiate an impartial 
investigation conducted by NCIS, which does not report to me, 
it reports to the NCIS director, so I have no control over the 
investigation as it proceeds.
    Once we get the facts we make decisions as to how we 
proceed, consulting with the victim, continuing to provide 
counseling and support for the victim.
    It is a pretty set forward process, and it is focused on 
support to the victim as No. 1 priority, with the second being 
seeing if we can get at the facts and develop the case.
    I would like to make one other comment, sir, concerning Ms. 
Davis. I agree that because of her and others we are all taking 
it seriously. We are working this hard. We are making good 
progress. Because of her, the situation she described 4 years 
ago is considerably different than what we see at the academies 
today. We have a completely different circumstance.
    For instance, we have more data. I have more data about all 
this than I need. I don't need more data. What I need is the 
ability to educate and train and encourage and support our 
young men and women as to how they should treat each other and 
ensure that culture is established there.
    One of the questions that was raised of the earlier panel 
is: would you recommend coming to the Academy to a friend? 
Well, our most recent data of our survey----
    Mr. Shays. I don't want you to go down there right now.
    Admiral Rempt. I want to mention one thing.
    Mr. Shays. No, I let you mention it. I just want to know 
how the system works right now, because I really want to go 
down the line. You will have a chance to make your point. All I 
asked you, the question I asked you, Admiral, was how it would 
be handled. You will have a chance to make your other point 
before we adjourn.
    How would this case be handled? I am sorry, Admiral. So 
this individual brings a complaint. I will just say that it is 
Ms. Davis, and she comes back and reports to you that the 
person who is charged, the complaint she brought against, found 
out about it obviously because he was involved and questioned 
and he told some of his fellow cadets and she started to 
receive some real anger on the part of some of the cadets. How 
would you deal with that?
    Admiral Rempt. If there was any physical or risk of any 
intimidation or ostracism, we would remove the accused 
midshipman from Bancroft Hall.
    Mr. Shays. Let me ask you this: if he had disclosed that 
she had done this, would that have been grounds for--if the man 
who was alleged to have raped her in this theoretical case--
well, in this case who raped her, told someone else that he was 
under investigation, would he have been breaking part of the 
code?
    Admiral Rempt. Not at all.
    Mr. Shays. Why not? He's allowed to tell his friends that a 
charge has been brought against him?
    Admiral Rempt. He's free to say whatever he wishes.
    Mr. Shays. Well, doesn't that potentially put her at risk?
    Admiral Rempt. Not in the cases that we have seen.
    Mr. Shays. Maybe you don't understand the question. I am 
not trying to play a game. She brings a complaint. She comes in 
to bring a complaint, a confidential complaint. In the process 
of your investigating, and you have told no one else but that 
young man, and that young man tells someone, then what privacy 
does she now have?
    Admiral Rempt. I can't constrict what young men and women 
are going to say, sir. There is no way I can do that. What I 
can do is counsel them and provide them education and encourage 
them to do the right thing.
    Now, certainly this is one of the issues that we see day in 
and day out in the press on these cases. The only information 
that gets into the press is from the defense, from the one who 
is protecting the accused. The reason is because they get 
access to the reports. They are able to redact and provide 
information to the press that covers their viewpoint in part. 
That is what we all see occurs in the newspaper, because we are 
held to a higher standard, which is providing privacy. We want 
to protect the accused's rights, we want to protect the 
individual who is a victim, we want to protect their 
confidentiality. Every time we see this occur and repeated in 
the press it undermines the willingness of young people to come 
forward and talk about very sensitive and private matters.
    Mr. Shays. I am not quite sure of this one aspect, and the 
part I am not sure of is, if you bring a complaint forward 
confidentially and the accused then tells his friends that this 
female cadet is after him, and then she starts to feel the 
pressure----
    Admiral Rempt. If it is a confidential report, we would not 
initiate an investigation until the individual, the victim, is 
willing to proceed and is willing to step away from what is now 
called a restricted report.
    Mr. Shays. So, in other words, you don't even contact and 
investigate until that cadet has given you permission?
    Admiral Rempt. In the case of a restricted report where a 
victim does not desire her name or his name revealed or any 
personal information, we have no basis to proceed on an 
investigation until that occurs. We provide counseling, we 
provide advice, we provide help for them to help them come to 
the decision to go to an unrestricted report so we can initiate 
an investigation.
    Mr. Shays. OK. Thank you.
    Admiral Rempt. OK.
    Mr. Shays. General.
    General Caslen. Sir, I think it is a good question because 
it will measure the effectiveness and give us an assessment of 
our sexual assault prevention and response plan. Now that plan 
is put in place, we are hoping--and hope is not the real course 
of action, but we are hoping that it will have a significant 
impact on changing our culture, because I think if you get to 
the root of the issues, it is the culture.
    The first thing that we would like to see is how this 
incident was reported, because that would give us some 
indicators and some metrics for whether or not the culture is 
changing, because if the cadets take responsibility for it and 
the cadets police immediately their ranks in terms of the 
perpetrator and any other rumors, insinuations, and the fact 
that the cadet, itself, felt comfortable enough, confident in 
the chain of command to report it, those are cultural changing 
indicators. So I think the reporting thing is significant, and 
we will measure these in the future.
    The first thing in how we handle this is victim care once 
it is reported, and that is the victim care, the victim's 
right, the advocate and other things, even what the vice 
admiral had mentioned.
    The second piece is the investigation. That is the criminal 
investigation that will, exactly as the Admiral had said. The 
Army has a criminal investigation detachment that works at CID, 
and then they will refer to the superintendent, who has the 
convening authority for an article 32 investigation as 
necessary.
    Let me point out that is a criminal investigation. I agree, 
I think that is the proper way to proceed for this.
    Third is the institution's response. Besides the 
institution's response for the protection of the victim, the 
institution has some recurring plans and programs that are in 
place. We have a monthly sexual assessment review board that 
takes all the people in the entire institution--the doctors and 
the counselors and the chaplains--and they are involved in 
sexual assault cases so that we look at it from the victims' 
standpoint and the proper care, and then we look at it from the 
perpetrator's standpoint and the progression of the 
investigation.
    We also have the cadet health promotion and wellness clinic 
that works with the cadets. We meet on a monthly basis and get 
the reports back, as well. That is how that would be handled 
today, and all of that is in accordance with the Military 
Academy Sexual Assault Prevention and Response Plan.
    Mr. Shays. Thank you.
    General Desjardins. Sir, the process is the same at the Air 
Force Academy. The one thing or two things that I would add is 
the first thing when a person who thinks that they have been 
sexually assaulted reports to the SARC or the sexual assault 
response coordinator, the first thing we do is believe her or 
him, because if they believe that they have been sexually 
assaulted, perception is reality. That is the first thing.
    Then, as was indicated by Admiral Rempt and General Caslen, 
we run through the restricted report and allow the victim to 
get the care that he or she needs to get to a place where they 
can go unrestricted and we can do a full, very thorough 
investigation and get the perpetrator.
    Mr. Shays. Let me ask you of the ethics. If you believe 
that a rape has occurred, if you believe that blackmail has 
occurred, if you believe someone has been degraded and 
threatened daily, if you believe that and the victim, eventual 
survivor, isn't willing to have it go public, what do you do?
    General Desjardins. Well, that remains restricted then, and 
in the restricted reporting realm, and so the best we can do is 
provide her or him all the medical, physical, and counseling 
care to make them well again that we can, within that very 
restricted guidelines. But that has to be first. That victim 
care has to be first.
    Mr. Shays. What about the perpetrator?
    General Desjardins. Sir, if the individual who was 
assaulted is unwilling to open up an investigation because she 
wants to maintain power, maintain control, then we have to 
respect that.
    Mr. Shays. Wait. I don't understand.
    General Desjardins. If she or he wants to keep it in the 
restricted realm, so wants to be----
    Mr. Shays. We are talking about the victim, whether it is a 
he or she, right?
    General Desjardins. Yes, sir.
    Mr. Shays. Yes.
    General Desjardins. So if they want to keep it in those 
confidential lines, then we really can't do anything to get to 
the perpetrator. If she wants to maintain her----
    Mr. Shays. I will come back to this.
    General Desjardins. Yes, sir.
    Mr. Shays. Thank you. I realize you have given me a 
straightforward answer.
    You had a question? Why don't you jump in?
    Mrs. Maloney. With a restricted report, as I understand 
this is a new development coming out of the DOD Task Force that 
you have a restricted and non-restricted report. Is the 
restricted report part of the DIBRS data base?
    General Caslen. No, ma'am.
    Mrs. Maloney. It is not? OK. Thank you.
    Mr. Shays. I am going to come back to this question though 
before we close up, but Admiral Higgins?
    Admiral Higgins. I will answer the question in what 
happened in a recent court martial case, Mr. Chairman. That 
victim came forward with an unrestricted report. We 
simultaneously started mental and physical health care for the 
victim and started an aggressive, professional investigation by 
our CGIS agents. In addition, in this particular case the 
perpetrator was quickly reassigned, disenrolled from its 
classes, restricted to a certain part of the Coast Guard 
Academy, and removed from the dormitory, so, to avoid contact 
with the victims as well as with other cadets, this member was 
taken out of class, restricted to a part of the Academy, and 
taken out of the dormitory. In that particular case, because of 
the issues involved in that case, we did temporarily disenroll 
that member from the classes.
    We held an article 32 hearing when we got the evidence back 
from the professional investigation. We had enough evidence to 
go forward with the victim's testimony to a court martial. That 
is how the recent case was handled, sir.
    Mr. Shays. You all are aware of the exceptions to 
confidentiality? What would they be? We will start with you, 
Admiral Rempt.
    Admiral Rempt. Certainly. There are a number of people who 
have full confidentiality, which means that their discussions 
are privileged. Those are normally the clergy, our chaplains, 
and our counselors in our Midshipmen Development Center. They 
are the ones that have full confidentiality and are only 
ethically required to report if they are aware of something 
that could be a future danger to someone.
    Mr. Shays. Are you aware of any other exceptions? Anybody? 
There are others? What are some others?
    Admiral Higgins. Sir, our medical providers at the Coast 
Guard Academy have limited confidentiality and, to some extent, 
the PEER programs, the cadets against sexual assault, have some 
limited confidentiality.
    Admiral Rempt. That would be the same thing at the Naval 
Academy. We have designated individuals who have limited 
confidentiality who can receive a report but must, in fact, 
report the fact that something has occurred without identifying 
information.
    Mr. Shays. I am really not trying to test you, though it 
sounds like it. I am just trying to have a dialog. If someone 
is raped and is alleged to have raped others and has been 
involved in blackmail and threatening activity on a daily 
basis, and the individual is not willing to step forward, I 
make an assumption that some of the exemptions would apply. The 
command officer law enforcement disclosure is necessary to 
prevent or lessen a serious and imminent threat to the health 
or safety of the victim or another person. I mean, isn't it 
very possible that if he raped one person he will rape someone 
else? And so, I mean, you have to tell a potential victim that 
they have confidentiality, but----
    Admiral Rempt. Sir, you are asking us to make a big leap in 
assumption here, and that is why we are struggling.
    Mr. Shays. OK.
    Admiral Rempt. The leap that you are asking us to make is 
you are saying a rape has occurred and someone had been 
blackmailed and these events have occurred. We typically have 
no facts or data to support that when we first hear about a 
case. We will hear about a case that something has occurred. In 
order to get to the point where we know that a violent crime 
has occurred, we have to do some level of investigation. 
Otherwise, we have no information. That is what we struggle 
with, is whether the facts that we are basing it on that will 
enable us to go to an article 32 will enable us to go to 
further disciplinary action. Until we develop that information 
and that data, it is very hard.
    Now, if we believe someone is at imminent risk, we will 
take immediate action to separate people, to isolate them, or 
to do what is necessary to preserve their safety.
    Mr. Shays. And I want to say obviously we have had very 
powerful testimony on the part of the young lady. I realize 
that not every accusation is true, and I understand that. I 
understand that a rape may, in fact, not have occurred. I 
understand that.
    What I am just wrestling with is we have a process, it 
seems to me, kind of unfolding because, frankly, if someone 
came to me and I was aware that this person is violent and I 
believe the individual that this is not the first person, she's 
not the first person, I am struck with the fact that I will 
want to know--you are told who that person is, so you are aware 
of him.
    I can't believe that somehow there is not some oversight of 
that individual just to make sure that individual doesn't do 
something harmful. So it seems to me that we are putting you in 
a bit of a quandary, and you have to use some judgment here. 
That is what it seems.
    Mrs. Maloney. The FBI rates rape as the worst crime, 
preceded only by murder, in the psychological damage and 
lasting impact on an individual. In the private sector now most 
rapists are sick people. They strike seven to eight times. We 
passed legislation--it happened to have been my legislation--
that created a data base in the FBI of DNA so that rapists 
could be tracked and put behind bars.
    What I think is troubling to some people is this particular 
man that was eventually, after he abused several people. The 
problem is if someone makes an allegation is there a way to 
track that this person, even though you don't convict this 
person, the allegation is there so that if the allegation comes 
again and again and again and again then the degree of 
probability is that this is a sick person. I mean, that is what 
we do in the private sector now. We keep that information, and 
if there is another attack we have the DNA to build a case that 
this is the third reported rape, the DNA is there, and the case 
is stronger.
    I'd just give that as an example of what we are doing in 
the private sector. Again, this is a serious, serious crime. I 
have talked to women who have been raped and they have never 
recovered. They have not been able to function. They have not 
been able to hold jobs. It is a very, very serious crime. So, 
to the extent we can prevent another man or women from being 
violated and destroyed, I think it is our civic and moral 
responsibility to do so.
    So if you want to keep your military chain of command, then 
maybe you should try to think of a way to sort of mirror what 
we have done in the private sector so that you don't get to the 
fifth victim before you feel like you have enough evidence to 
remove them from the military and convict them.
    Admiral Rempt. I certainly didn't mean to give you any 
impression that we are waiting around for evidence. We are 
going to move on exactly what we know and what we are about. We 
are going to move immediately in a case. Very few of our cases 
are----
    Mrs. Maloney. Admiral----
    Admiral Rempt [continuing]. Of the type that are being 
described by the admiral from the Coast Guard or in other 
cases. Most of them are much more difficult to discern what has 
occurred.
    Mrs. Maloney. But the first step in building a case is 
maintaining an accurate data base. What I have learned today is 
the Navy is not part of this data base. The Army and Air Force 
are. Now, in the elements that are in the data base, the 
elements are put in on the victim. Nothing is put in on the 
alleged rapist until he is convicted. That is the difference 
with the civilian. The information is put in on the allegation. 
So absolutely nothing, based on the testimony today, is put 
into that system.
    Admiral Rempt. I am happy to report that, in fact, DNA is 
collected on every single person that comes to any one of the 
academies, so we should have a good data base for future cases.
    Mrs. Maloney. But not in the DIBRS system that keeps the 
information on rape. It is not in there. And then, as was 
testified by all of you, you have now this dual system where 
you can decide whether your case goes forward or not. And even 
though you may believe it and a person does not want to go 
forward, that particular rape is not put into the system. That 
I see is problematic in maintaining accurate information of 
what is happening. Do you follow what I am saying? And your 
response to that? Do you believe that element should be in the 
system?
    General Desjardins. Ma'am, we track restricted and 
unrestricted cases by case number, but, again, because it is a 
restricted case, the whole idea--it is so important. I am sure 
you all know the most important thing about victim care in a 
restricted report is so that they, the victims, will not be 
revictimized before they are ready to open up a full 
investigation. That is why the restricted reporting and getting 
the individual to a place where she is ready to open up--we 
don't want to go down the road of revictimizing someone who has 
undergone such a traumatic event, and so that is why the 
restricted reporting is so important.
    But we do keep track and, in fact, restricted reporting and 
unrestricted reporting, this process has been in place for 
almost a year, since June 2005, for all the academies and for 
the Department of Defense.
    Mr. Shays. I want to clarify one point with you, Admiral 
Higgins. Given that you are under the Department of Homeland 
Security, how many of the 25 task forces, commissions, panels, 
and reports looked into the U.S. Coast Guard and U.S. Coast 
Guard Academy?
    Admiral Higgins. I know we participated in several. Sir, I 
would have to get----
    Mr. Shays. Would you provide that?
    Some but not all?
    Admiral Higgins. That is correct.
    Mr. Shays. OK. I feel in this last bit of time I have been 
functioning almost with a filibuster, but I think I have 
figured out why, what I am wrestling with. It strikes me that 
one of the things that the military is never willing to do is 
admit a mistake. They will do it in an offhanded way by saying, 
``You know, Cadet Davis, you are the reason why all these good 
things are happening,'' but it doesn't happen directly. That is 
why I made reference to has anyone ever given her a document 
that thanks her.
    And then I began to think, if you all agree that the system 
sucked before and it is getting better now, and you all agree 
that it was really bad in the past, that tells me there are a 
lot of other people like Ms. Davis that got really hurt badly. 
It would strike me that one of the ways that you would help 
make cadets now have comfort in the system, that you would go 
back in the past, try to identify some of those individuals, 
exonerate them in a way that is meaningful, maybe even invite 
them to the Academy in a way that salutes them and honors them, 
but in a way that is so meaningful that female cadets now will 
say, ``You know, the military is taking this seriously.''
    I think until you are willing to not just acknowledge that 
mistakes were made in the past, but try to right some of those 
mistake, I don't really think you are going to be believed. I 
just don't think you will be. That is kind of what I am getting 
out of this. I believe that you all want to be believed, but I 
just think it is against your culture to want to say, ``We 
screwed up. There are people who were hurt. We are going to 
find out who they were and we are going to try to make 
amends.'' That would be a huge thing.
    I am not holding my breath, but I tell you if you wanted to 
move this process along faster that is my judgment of how it 
could happen.
    Ms. Whitley, I didn't allow you to make a point you wanted 
to make earlier because I wanted to make sure you heard my 
point about the task force, but I am happy to have any of you--
I know, Admiral, I interrupted you at a point where you wanted 
to describe something. I don't want you to leave here without 
you feeling that you made the point that you need to make, and 
lord knows Carol Maloney and I have been able to make the 
points we wanted to make.
    Dr. Whitley, what would you like to say?
    Dr. Whitley. Well, I would like to thank you again for this 
opportunity and basically three points to kind of bring some 
things together.
    First, I would like to point out that the Department of 
Defense office responsibility for this policy stood up just in 
October 2005. That is how new this is.
    Mr. Shays. That is helpful to know. Thank you.
    Dr. Whitley. We also are outraged, just as you are, and my 
leadership is determined to do something about this. We 
recognize it is a crime and we know we have a lot of work to 
do, and a lot of that work will be in the area of prevention.
    The second point I wanted to make is I am not sure everyone 
understands the benefits of restricted reporting. Victims come 
forward that would not otherwise come forward, and for 
commanders in the field they might not know who is sexually 
assaulted but they would know that it is a problem in their 
unit or on their base and they can take action. For example, 
they may put extra help in the barracks, they may install 
lighting. So we have more information than we had before. And 
we all know that victims feel a loss of control and power, and 
this restricted reporting option gives that back to them.
    Of course, we would like for them to come forward so that 
we can go after the alleged offender, but sometimes just having 
that power given back they can go away and gather the courage 
and gather confidence in our system to come forward later. But 
also, even with the restricted report, we can do a full 
forensic exam and keep the data on file in case they come 
forward later. At least we get some information.
    And, finally, sir, I pledge to you that the Department will 
do everything we can. We do recognize it is a problem. I think 
we have an extremely unique opportunity. It is a problem in 
society, but society doesn't have some of the tools that we 
have. We can get to every person in the Department of Defense, 
every cadet in every academy, and we can train them and educate 
them, and that is something that I don't think society can do.
    I am looking forward to the challenge ahead, and I pledge 
to you the Department will do our best to make this not a 
problem.
    Mr. Shays. Thank you. That was a very helpful statement. I 
am very grateful you put it on the record. Thank you.
    Dr. Whitley. Thank you.
    Mr. Shays. Admiral.
    Admiral Rempt. Sir, just to sum up, preventing and 
deterring sexual harassment, misconduct, and assault are very 
complex issues. There are no simple answers here. We take these 
issues extremely seriously. We encourage reporting. We 
investigate allegations. We do that objectively and fairly. We 
endeavor to protect the confidentiality of the victims and the 
rights of the accused and the privacy of both.
    As I was mentioning before, we try to use all the data in 
our surveys and focus groups to learn what is actually 
occurring and applying our best leadership ability and programs 
to where we can make a difference.
    As I mentioned, on the panel raised earlier the question of 
would you recommend going to the Academy to a friend. Well, in 
our last survey, 91 percent of our men said yes, but 95 percent 
of our women said yes. That is a pretty good indicator to me 
that the conditions are, in fact, improved over where they were 
a few years ago.
    Since women were first admitted to the Academy in 1976, we 
have come a long way, but we have to continue to improve. This 
has our full focus and attention, and we are going to continue 
making solid progress.
    Mr. Shays. Thank you very much.
    General Caslen. Sir, thank you very much for the 
opportunity to sit on your subcommittee. I certainly learned a 
lot and there is a lot I am going to take back and we will 
implement those that we need to. I think, in particular, your 
comment here at the end was very interesting. We are studying 
that and I will take that back, for sure, about going back in 
the past. I think it is very helpful.
    In that regard, what we did here recently in April at the 
U.S. Military Academy is that we had a Women's Conference to 
celebrate 30 years of women at West Point. We had 410 ladies 
that came back and participated. We had a number of sexual 
harassment/sexual assault panels that addressed some of these 
issues. But I think it is worth, like you said, going back and 
digging in and finding the ones we need to and restore some 
dignity and honor that we need to.
    Again, thank you for the invitation, sir.
    Mr. Shays. General Caslen, thank you.
    General Desjardins.
    General Desjardins. Yes, sir. I have one correction to an 
earlier question that you had asked. I answered it part right, 
part wrong. It was I think Congressman Marchant asked how many 
court martials we had since 2000 that dealt with sexual 
assault, and we have had three. I said zero. We had zero 
convictions of rape. We had one conviction of a lesser charge.
    Again, I also want to thank the committee for asking us to 
come here today. We will continue our journey to change the 
culture at the Air Force Academy and embed the culture that is 
one of respect for human dignity, respect for each other. We 
will continue to get role models, women, in their contributions 
to the military, in their contributions to our Nation, and 
continue in our journey.
    Again, I thank you.
    Mr. Shays. General Desjardins, thank you very much.
    General Desjardins. Yes, sir.
    Mr. Shays. I appreciate your statement, as well.
    Admiral Higgins.
    Admiral Higgins. Mr. Chairman and Mrs. Maloney, I also 
thank you for the opportunity to come here. I have also learned 
a lot, and I pledge to take this and the Coast Guard will take 
this as seriously as you two take it. We do have lessons to 
learn. We try in the Coast Guard to learn lessons on the run, 
and we will learn these lessons, as well. Thank you, sir.
    Mr. Shays. I thank you all very much.
    Mrs. Maloney, any last comment?
    Mrs. Maloney. Thank you very much.
    Mr. Shays. OK. I just want to thank you, Mrs. Maloney, for 
working on these issues for years and being so informative in 
making sure that this hearing was as helpful as I think it was 
because of your presence.
    Thank you all very much.
    To our recorders, thank you for sitting in. I am sorry we 
have kept you here so late.
    This hearing is adjourned.
    [Whereupon, at 8 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
and additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 33682.012

[GRAPHIC] [TIFF OMITTED] 33682.013

[GRAPHIC] [TIFF OMITTED] 33682.014

[GRAPHIC] [TIFF OMITTED] 33682.195

[GRAPHIC] [TIFF OMITTED] 33682.196

[GRAPHIC] [TIFF OMITTED] 33682.197

[GRAPHIC] [TIFF OMITTED] 33682.198

[GRAPHIC] [TIFF OMITTED] 33682.199

[GRAPHIC] [TIFF OMITTED] 33682.200

[GRAPHIC] [TIFF OMITTED] 33682.201

[GRAPHIC] [TIFF OMITTED] 33682.202

[GRAPHIC] [TIFF OMITTED] 33682.203

[GRAPHIC] [TIFF OMITTED] 33682.204

[GRAPHIC] [TIFF OMITTED] 33682.205

[GRAPHIC] [TIFF OMITTED] 33682.206

[GRAPHIC] [TIFF OMITTED] 33682.207

[GRAPHIC] [TIFF OMITTED] 33682.208

[GRAPHIC] [TIFF OMITTED] 33682.209

[GRAPHIC] [TIFF OMITTED] 33682.210

[GRAPHIC] [TIFF OMITTED] 33682.211

[GRAPHIC] [TIFF OMITTED] 33682.212

[GRAPHIC] [TIFF OMITTED] 33682.213

[GRAPHIC] [TIFF OMITTED] 33682.214

[GRAPHIC] [TIFF OMITTED] 33682.215

[GRAPHIC] [TIFF OMITTED] 33682.216

[GRAPHIC] [TIFF OMITTED] 33682.217

[GRAPHIC] [TIFF OMITTED] 33682.218

[GRAPHIC] [TIFF OMITTED] 33682.219

[GRAPHIC] [TIFF OMITTED] 33682.220

[GRAPHIC] [TIFF OMITTED] 33682.221

[GRAPHIC] [TIFF OMITTED] 33682.222

[GRAPHIC] [TIFF OMITTED] 33682.223

[GRAPHIC] [TIFF OMITTED] 33682.224

[GRAPHIC] [TIFF OMITTED] 33682.225

[GRAPHIC] [TIFF OMITTED] 33682.226

[GRAPHIC] [TIFF OMITTED] 33682.227

[GRAPHIC] [TIFF OMITTED] 33682.228

[GRAPHIC] [TIFF OMITTED] 33682.229

[GRAPHIC] [TIFF OMITTED] 33682.230

[GRAPHIC] [TIFF OMITTED] 33682.231

[GRAPHIC] [TIFF OMITTED] 33682.232

[GRAPHIC] [TIFF OMITTED] 33682.233

[GRAPHIC] [TIFF OMITTED] 33682.234

[GRAPHIC] [TIFF OMITTED] 33682.235

[GRAPHIC] [TIFF OMITTED] 33682.236

[GRAPHIC] [TIFF OMITTED] 33682.237

[GRAPHIC] [TIFF OMITTED] 33682.238

[GRAPHIC] [TIFF OMITTED] 33682.239

[GRAPHIC] [TIFF OMITTED] 33682.240

[GRAPHIC] [TIFF OMITTED] 33682.241

[GRAPHIC] [TIFF OMITTED] 33682.242

[GRAPHIC] [TIFF OMITTED] 33682.243

[GRAPHIC] [TIFF OMITTED] 33682.244

[GRAPHIC] [TIFF OMITTED] 33682.245

[GRAPHIC] [TIFF OMITTED] 33682.246

[GRAPHIC] [TIFF OMITTED] 33682.247

[GRAPHIC] [TIFF OMITTED] 33682.248

[GRAPHIC] [TIFF OMITTED] 33682.249

[GRAPHIC] [TIFF OMITTED] 33682.250

[GRAPHIC] [TIFF OMITTED] 33682.251

[GRAPHIC] [TIFF OMITTED] 33682.252

[GRAPHIC] [TIFF OMITTED] 33682.253

[GRAPHIC] [TIFF OMITTED] 33682.254

[GRAPHIC] [TIFF OMITTED] 33682.255

[GRAPHIC] [TIFF OMITTED] 33682.256

[GRAPHIC] [TIFF OMITTED] 33682.257

[GRAPHIC] [TIFF OMITTED] 33682.258

[GRAPHIC] [TIFF OMITTED] 33682.259

[GRAPHIC] [TIFF OMITTED] 33682.260

[GRAPHIC] [TIFF OMITTED] 33682.261

[GRAPHIC] [TIFF OMITTED] 33682.262

[GRAPHIC] [TIFF OMITTED] 33682.263

[GRAPHIC] [TIFF OMITTED] 33682.264

[GRAPHIC] [TIFF OMITTED] 33682.265

[GRAPHIC] [TIFF OMITTED] 33682.266

[GRAPHIC] [TIFF OMITTED] 33682.267

[GRAPHIC] [TIFF OMITTED] 33682.268

[GRAPHIC] [TIFF OMITTED] 33682.269

[GRAPHIC] [TIFF OMITTED] 33682.270

[GRAPHIC] [TIFF OMITTED] 33682.271

[GRAPHIC] [TIFF OMITTED] 33682.272

[GRAPHIC] [TIFF OMITTED] 33682.273

[GRAPHIC] [TIFF OMITTED] 33682.274

[GRAPHIC] [TIFF OMITTED] 33682.275

[GRAPHIC] [TIFF OMITTED] 33682.276

[GRAPHIC] [TIFF OMITTED] 33682.277

[GRAPHIC] [TIFF OMITTED] 33682.278

[GRAPHIC] [TIFF OMITTED] 33682.279

[GRAPHIC] [TIFF OMITTED] 33682.280

[GRAPHIC] [TIFF OMITTED] 33682.281

[GRAPHIC] [TIFF OMITTED] 33682.282

[GRAPHIC] [TIFF OMITTED] 33682.283

[GRAPHIC] [TIFF OMITTED] 33682.284

[GRAPHIC] [TIFF OMITTED] 33682.285

[GRAPHIC] [TIFF OMITTED] 33682.286

[GRAPHIC] [TIFF OMITTED] 33682.287

[GRAPHIC] [TIFF OMITTED] 33682.288

[GRAPHIC] [TIFF OMITTED] 33682.289

[GRAPHIC] [TIFF OMITTED] 33682.290

[GRAPHIC] [TIFF OMITTED] 33682.291

[GRAPHIC] [TIFF OMITTED] 33682.292

[GRAPHIC] [TIFF OMITTED] 33682.293

[GRAPHIC] [TIFF OMITTED] 33682.294

[GRAPHIC] [TIFF OMITTED] 33682.295

                                 <all>

</pre></body></html>
